Report on USAID’S Consolidated
Financial Statements, Internal Controls
And Compliance for Fiscal Year 2001
Audit Report No. 0-000-02-006-F
February 25, 2002




                Washington, DC
Page intentionally left blank.
U.S. Agency for
 International
 Development



MEMORANDUM
FOR:              A-CFO/FM, Elmer S. Owens

FROM:             IG/A/FA, Alvin A. Brown

SUBJECT:          Independent Auditor’s Report on USAID’s Consolidated Financ ial
                  Statements, Internal Controls, and Compliance for Fiscal Year 2001
                  (Report No. 0-000-02-006-F)

The Office of the Inspector General (OIG) is transmitting its reports on the audit of the U.S
Agency for International Development’s (USAID’s) fiscal year 2001 financial statements,
related internal controls, and compliance with applicable laws and regulations. Under the
Government Management Reform Act of 1994, USAID is required to prepare
consolidated fiscal year-end financial statements. For fiscal year (FY) 2001, USAID is
required to submit the audited financial statements to the Office of Management and
Budget (OMB) and the Department of the Treasury by February 27, 2002.

Enclosed are the OIG’s reports on USAID’s FY 2001 financial statements, related
internal controls, and compliance with applicable laws and regulations. We are pleased
to report that, for the first time, we are able to issue opinions on three of USAID’s five
principal financial statements. This is an important milestone and represents progress by
USAID. However, on the Balance Sheet and Statement of Changes in Net Position, the
opinion was achieved only through extensive efforts to overcome material weaknesses in
internal controls. Although these efforts resulted in an improvement in the information
on two of USAID’s five principal financial statements, the efforts did not provide for
reliable information to USAID managers throughout the year.

Our report discusses three material weaknesses in internal controls and three reportable
conditions identified during the audit. The material weaknesses relate to the
reconciliation and proper classification of financial information as well as computer
security deficiencies. The reportable conditions address financial management
improvements needed at USAID.

We reported that USAID is not in substantial compliance with the financial management
system requirements of the Federal Financial Management Improvement Act of 1996
(FFMIA).
We have received and considered your response to the draft report and the
recommendations included therein (See page 48). Based on your response, we accepted
your comments as management decisions. Please forward all information to the Office
of Management, Planning, and Innovation for acceptance of the final management
actions related to the recommendations. See Appendix II for USAID’s Management
Comments.

I appreciate the cooperation and courtesies that your staff extended to the OIG during our
audit. The Office of the Inspector General is looking forward to wo rking with you on
the audit of fiscal year 2002 financial statements and seeing improved systems and
controls.
Table of   Summary of Results                                         5
Contents
           Background                                                 8

           Audit Objectives                                           8

           Audit Findings                                             11

                  Independent Auditor’s Report on
                  USAID’s Financial Statements                        11

                  Independent Auditor’s Report on Internal Controls   15

                  Independent Auditor’s Report on Compliance          31

           Management Comments and Our Evaluation                     53

           Appendix I - Scope and Methodology                         57

           Appendix II - USAID’s Management Comments                  61

           Appendix III – Other System Weaknesses                     65

           Appendix IV – Status of Uncorrected Findings
                        And Recommendations from Prior
                        Audits that Affect the Current Audit
                        Objectives                                    67

           Appendix V – USAID Fiscal Year 2001 Financial
                        Statements and Accompanying Notes             75
This page left intentionally blank.




                                      5
             The Government Management Reform Act (GMRA) of 1994 requires the
Summary of
             U.S. Agency for International Development (USAID) to prepare and submit
Results      audited consolidated financial statements for inclusion in the government-
             wide financial statements. As part of this effort, GMRA requires the Office
             of Inspector General (OIG) to:

             •      Audit the financial statements and issue an opinion on the fairness
                    of their presentation in accordance with generally accepted
                    accounting principles;

             •      Report on related internal controls; and

             •      Report on compliance with applicable laws and regulations.

             Auditor’s Opinion on USAID’s Fiscal Year 2001 Financial Statements

             In our opinion, USAID’s Balance Sheet, Statement of Changes in Net
             Position, and Statement of Budgetary Resources present fairly, in all
             material respects, the financial position of USAID at September 30, 2001, in
             conformity with generally accepted accounting principles, except for the
             effects of:

             •      $128 million in advances that were not reconciled to ensure proper
                    classification as advances and/or expenses on the Balance Sheet and
                    the Statement of Changes in Net Position; and

             •      $186 million in unliquidated obligations that may not be needed for
                    the original obligation purposes on the Statement of Budgetary
                    Resources.

             We were unable to express an opinion on USAID’s Statements of Net Cost
             and Financing for the year ended September 30, 2001 because we could not
             perform sufficient audit procedures to determine the effect of:

             •      $246 million in expenses (of which $155 million was attributed to
                    advance liquidations) that may not have been properly allocated to
                    Agency goals and $128 million in unreconciled advances that may
                    not have been properly classified on the Statement of Net Cost (see
                    page 12); and

             •      $186 million in unliquidated obligations that may not be needed for
                    the original obligation purpose and the $128 million unreconciled
                    advances that may not have been properly classified on the
                    Statement of Financing (see page 12).




                                                                                            6
Other Accompanying Information

The Management Discussion and Analysis (MD&A) is not a required part
of the basic financial statements; rather, it is supplementary information
required by the Federal Accounting Standards Advisory Board. We did
not audit and do not express an opinion on such information. However,
we have applied certain limited procedures to determine the methods of
measurement and presentation of the supplementary information. As a
result of such limited procedures, we believe that the MD&A departs
materially from prescribed guidelines. The results of our procedures are
included in the reports on internal controls and compliance with applicable
laws and regulations (see page 28 and 41).

Report on Related Internal Controls

During fiscal year 2001, USAID took steps to meet the Federal Financial
Management Improvement Act (FFMIA) requirements by deploying
Phoenix, an off-the-shelf accounting system, as a component of its financial
management system. However, USAID financial management systems do
not substantially comply with the FFMIA requirements (see pages 31
through 49 for details). As a result, USAID places greater reliance on
manual processes such as reconciliations because data for the same
transaction may be separately entered into multiple systems.

Our audit identified three material internal control weaknesses and three
reportable conditions which are included in this report (see pages 17 and
25).

The material weaknesses were:

•      Advances to Grantees Were Not Consistently
       Reconciled and Classified.

•      Unliquidated Obligations Were Not Consistently Analyzed and
       Deobligated as Necessary.

•      Computer Security Deficiencies Continue to Exist.

The reportable conditions were:

•      USAID’s Process for Recognizing and Reporting Accounts
       Receivable Needs Improvement.

•      USAID’s Internal Controls Over Its Overseas Mission Accounts
       Payable Process Needs Improvement.




                                                                      7
•      USAID’s Process for Preparing the Management Discussion and
       Analysis Needs Improvement.

We noticed certain other matters involving USAID’s internal controls and
its operations that we will report to management in a separate report.

With respect to performance measures reported in the MD&A, we were
unable to obtain a complete understanding of the design of the related
significant internal controls because management did not disclose all
sources of performance results data to the OIG in a timely manner.
Consequently, we were unable to review the internal controls surrounding
all the sources. However, by applying limited procedures to certain
sources to determine the methods of measurement and presentation of
performance results in the MD&A, we identified deficiencies that, in our
judgment, caused the MD&A to depart materially from prescribed
guidelines (see page 28).

Report on Compliance with Laws and Regulations

Our audit also disclosed two instances of noncompliance with laws and
regulations that could have a direct and material effect on the principal
financial statements and required supplementary information. The laws
with which USAID did not comply were:

•      The Federal Financial Management Improvement Act of 1996, and

•      The Computer Security Act of 1987

Specifically, USAID's financial management systems did not substantially
comply with Federal Financial Management System requirements, Federal
Accounting Standards, and the U.S. Standard General Ledger at the
transaction level. Further, we found that USAID did not implement an
effective computer security program as required by the Act (see pages 49 to
51).

We considered USAID’s internal control weaknesses and noncompliance
with laws and regulations to determine our auditing procedures for the
purpose of forming our opinion on the financial statements and not to
provide assurance on internal controls and compliance with laws and
regulations.

We have provided additional information in the following paragraphs
regarding the areas listed above. USAID reported these material
weaknesses in its previous Accountability Reports and in its draft 2001
Accountability Report, which will be issued on February 27, 2002.




                                                                              8
                   The United States Agency for International Development (USAID) was
Background         created in 1961 to advance the United States’ foreign policy interest by
                   promoting broad-based sustainable development and providing
                   humanitarian assistance. USAID has an overseas presence in over 70
                   countries, 42 of which have fully operational and formal USAID
                   missions. In fiscal year 2001, USAID had total obligation authority of
                   about $7.5 billion.

                   Under the Government Management Reform Act of 1994, USAID is
                   required to annually submit audited financial statements to the Office of
                   Management and Budget (OMB) and appropriate Congressional
                   Committees. Pursuant to this Act, for FY 2001, USAID has prepared:
                   (1) Balance Sheet, (2) Statement of Net Cost (3) Statement of Changes
                   in Net Position, (4) Statement of Budgetary Resources, (5) Statement of
                   Financing, (6) notes to the financial statements, and (7) other
                   accompanying information.


Audit Objectives   OMB Bulletin No. 01-02 and related GAO guidance established the
                   minimum audit requirements for Federal financial statements. For fiscal
                   year 2001, this Bulletin required us to:

                   •      Determine whether USAID's principal financial statements present
                          fairly in all material respects, in conformity with generally
                          accepted accounting principles, the (1) assets; (2) liabilities and net
                          position; (3) net costs; (4) change in net position; (5) budgetary
                          resources; (6) reconciliation of net costs and budgetary obligations.

                   •      Obtain an understanding of USAID’s internal control sufficient to
                          plan the audit by performing procedures to understand the design
                          of controls relevant to an audit of financial statements, and whether
                          they have been placed in operation. Assess control risk for the
                          assertions embodied in the classes of transactions, account
                          balances, and disclosure components of the financial statements.

                   •      Obtain an understanding of the components of USAID’s internal
                          control relating to the existence and completeness assertions
                          relevant to the performance measures included in the Management
                          Discussion and Analysis.

                   •      Report on USAID's compliance with laws and regulations that
                          could have a direct and material effect on the principal statements,
                          and any other applicable laws and regulations.

                   •      Report whether USAID’s financial management systems
                          substantially comply with the FFMIA section 803(a) requirements.


                                                                                          9
For the first objective, we obtained sufficient evidence about the balances
in the material line items on USAID’s fiscal year 2001 financial
statements to enable us to form an opinion on those statements.

For the second and third objectives mentioned above, we obtained an
understanding of USAID’s internal controls and assessed the control risk
for the assertions embodied in the classes of transactions, account
balances, and disclosure components of the financial statements. We
attempted to obtain an understanding of the components of USAID’s
internal controls relating to the existence and completeness assertions
relevant to the performance measures included in the Management
Discussion and Analysis.

For the fourth and fifth objectives mentioned above, we determined
whether USAID’s financial management systems comply substantially
with federal requirements for financial management systems, applicable
federal accounting standards, and the U.S. Standard General Ledger at the
transaction level, as required by Section 803(a) of the FFMIA of 1996.

In accordance with the OMB audit requirements for federal fina ncial
statements, this combined audit report includes our separate reports on
USAID’s financial statements, internal controls, and compliance with
applicable laws and regulations.




                                                                              10
This page left intentionally blank




                                     11
       Independent Auditor’s Report on USAID’s Financial Statements

Audit Findings   Did USAID's principal financial statements present fairly: the assets,
                 liabilities, net position, net costs, change in net position, budgetary
                 resources, and reconciliation of net costs, and budgetary obligations
                 for fiscal year 2001?

                 We have audited the accompanying Balance Sheet, Statement of Changes in
                 Net Position, and Statement of Budgetary Resources of USAID for the year
                 ended September 30, 2001. We were engaged to audit the related
                 Statements of Net Cost and Financing for the year then ended. These
                 financial statements are the responsibility of USAID’s management. Our
                 responsibility is to express an opinion on the financial statements based on
                 our audit.

                 We conducted our audit in accordance with generally accepted government
                 auditing standards; the standards applicable to financial audits contained in
                 Government Auditing Standards, issued by the Comptroller General of the
                 United States; and the Office of Management and Budget (OMB) Bulletin
                 No. 01-02, “Audit Requirements for Federal Financial Statements.” Those
                 standards require that we plan and perform the audit to obtain reasonable
                 assurance about whether the financial statements are free of material
                 misstatement. An audit includes examining, on a test basis, evidence
                 supporting the amounts and disclosures in the financial statements. An
                 audit also includes assessing the accounting principles used and significant
                 estimates made by management, as well as evaluating the overall financial
                 statement presentation. We believe that our audit provides a reasonable
                 basis for our opinion.

                 USAID did not reconcile and properly classify $66 million net ($109
                 million in absolute value) in advances and $62 million in advance
                 liquidations were not recorded as expenses on the Balance Sheet and
                 Statement of Changes in Net Position, respectively. Instead, $128 million
                 was reported on the Balance Sheet as advances. Consequently, we were
                 unable to determine how the $128 million should have been classified and
                 reported on the financial statements. Additionally, we were unable to
                 determine, through our normal auditing procedures, whether $186 million in
                 unliquidated obligations that were reported on the Statement of Budgetary
                 Resources were needed for the original obligation purpose.

                 In our opinion, except for the effect of the outstanding advances, advance
                 liquidations, and unliquidated obligations mentioned above, USAID’s fiscal
                 year 2001 Balance Sheet, Statement of Changes in Net Position, and
                 Statement of Budgetary Resources present fairly, in all material respects, the
                 financial position of USAID for the year then ended in conformity with
                 generally accepted accounting principles.


                                                                                                  12
We were unable to express an opinion on USAID’s Statement of Net Cost
for the fiscal year ended September 30, 2001 because we could not perform
sufficient audit procedures to determine the effects of the allocation of about
$246 million in expenses to the appropriate Agency goals on the Statement
of Net Cost. In addition, we could not determine the effects of $128 million
reported on the Balance Sheet as advances that may be more appropriately
recorded as expenses but were not included on the Statement of Net Cost.

The $246 million in expenses may not be appropriately assigned to specific
Agency goals because:

•       $155 million in expenses (advance liquidations) were not initially
        recorded as expenses in FY 2001. USAID grantees could not
        report the expenses because the corresponding obligations were not
        recorded in the Department of Health and Human Services
        (DHHS) Payment Management System (hereafter referred to as the
        Payment Management System). Subsequently, USAID recorded
        and allocated the expenses but was unable to record them directly
        to the related agency goals.

•       $91 million in mission expenses were not appropriately assigned to
        specific Agency goals in the Statement of Net Cost.

The $128 million was reported on the Balance Sheet as advances that may
be more appropriately recorded as expenses on the Statement of Net Cost.
Of the $128 million:

•       $62 million was reported to USAID as expenses by the DHHS but
        not recorded as expenses in USAID’s FY 2001 general ledger nor
        in the financial statements; and

•       $66 million of unreconciled advances ($109 million absolute)
        remained in USAID’s legacy system. The legacy system is
        inactive and, according to USAID officials, the vast majority of
        these outstanding advances should be reclassified as expenses.
        Until the advances are reviewed and a determination made as to
        their status, there is no means of determining whether they are
        expenses or outstanding advances.

We were unable to express an opinion on USAID’s Statement of Financing
for the fiscal year ended September 30, 2001 because we could not perform
sufficient audit procedures to determine the effects of the $186 million
noted above on the Statement of Budgetary Resources that may not be
needed for the original obligation purpose. In addition, we could not
determine the effects of the $128 million reported on the Balance Sheet as
advances that may be more appropriately recorded as expenses.


                                                                        13
In accordance with Government Auditing Standards and the provisions of
OMB Bulletin 01-02, we have also issued reports, dated February 25, 2002,
on our consideration of USAID’s internal controls and on its compliance
with laws and regulations (see pages 15 and 31).

The Management Discussion and Analysis (MD&A) is not a required part
of the basic financial statements, rather, it is supplementary information
required by the Statement of Federal Accounting Standards and we did not
audit and do not express an opinion on such information. However, we
have applied certain limited procedures to determine the methods of
measurement and presentation of the supplementary information. As a
result of such limited procedures, we believe that the MD&A departs
materially from prescribed guidelines. The results of our procedures are
included in the reports on internal controls and compliance with applicable
laws and regulations (see pages 28 and 41).




Office of Inspector General
February 25, 2002




                                                                              14
This page left intentionally blank




                                     15
                 Independent Auditor’s Report on Internal Controls

Audit Findings         Did USAID establish adequate internal controls related to its
                       financial statements and the performance measures contained in its
                       Management Discussion and Analysis section?

                       We have audited the financial statements of USAID for the fiscal year
                       ended September 30, 2001 and have issued our report thereon. We
                       conducted the audit in accordance with generally accepted auditing
                       standards; the standards applicable to financial audits contained in
                       Government Auditing Standards, issued by the Comptroller General of the
                       United States; and the Office of Management and Budget (OMB) Bulletin
                       No. 01-02, “Audit Requirements for Federal Financial Statements.”

                       In planning and performing our audit, we considered USAID’s internal
                       controls over financial reporting by obtaining an understanding of those
                       controls. We determined whether the internal controls have been placed in
                       operation, assessed control risk, and performed tests of controls to
                       determine our auditing procedures for the purpose of expressing an opinion
                       on the financial statements. We limited the internal control testing to those
                       necessary to achieve the objectives described in OMB Bulletin No. 01-02.
                       We did not test all internal controls relevant to the operating objectives as
                       broadly defined by the Federal Managers’ Financial Integrity Act of 1982
                       (such as those relevant to ensuring efficient operations).

                       The objectives of internal controls are to provide management with
                       reasonable, but not absolute, assurance that the following objectives are
                       met:

                       •      Transactions are properly recorded and accounted for to permit the
                              preparation of reliable financial reports and to maintain
                              accountability over assets.

                       •      Funds, property, and other assets are safeguarded against loss from
                              unauthorized acquisition, use, or disposition.

                       •      Transactions that have a material impact on the financial
                              statements, including those related to obligations and costs are
                              executed in compliance with laws and regulations.

                       The objective of our audit was not to provide assurance on internal controls.
                       Consequently, we do not provide an opinion on internal controls.




                                                                                                       16
Our consideration of the internal controls over USAID’s financial reporting
would not necessarily disclose all matters that might be reportable
conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the
internal control that, in our judgement, could adversely affect USAID’s
ability to record, process, summarize, and report financial data consistent
with the assertions by management in the financial statements. Material
weaknesses, on the other hand, are reportable conditions in which the design
or operation of one or more of the internal control components does not
reduce to a relatively low level the risk that misstatements in amounts that
would be material in relation to the financial statement being audited may
occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we
noted certain matters, discussed in the following paragraphs and
accompanying schedules, involving the internal controls and their operation
that we consider material weaknesses and/or reportable conditions. (See
Federal Financial Management Improvement Act of 1996 (FFMIA) section
of Compliance Report for additional internal control weaknesses).

During fiscal year 2001, USAID took steps to meet the FFMIA
requirements through deploying Phoenix, an off-the-shelf accounting
system, as a component of its financial management system. However,
USAID still lacks a fully integrated financial management system and does
not substantially comply with the FFMIA requirements (see pages 31
through 49 for details). As a result, USAID places a greater reliance on
manual processes such as reconciliations because data for the same
transaction may be separately entered into multiple systems.

We identified the following matters involving the internal control and its
operation that we consider to be material weaknesses and reportable
conditions as defined above. Material weaknesses and reportable conditions
that were reported in prior GMRA audit reports, and that continued to exist
during FY 2001 are identified as “Repeat Conditions.”

The material weaknesses were:

•       Advances to Grantees Were Not Consistently Reconciled and
        Classified.

•       Unliquidated Obligations Were Not Always Analyzed and
        Deobligated as Necessary.

•       Computer Security Deficiencies Continue to Exist.


                                                                         17
                         The reportable conditions were:

                         •       USAID’s Process for Recognizing and Reporting Its Accounts
                                 Receivable Needs Improvement.

                         •       USAID’s Internal Controls Over Its Overseas Missions Accounts
                                 Payable Process Needs Improvement.

                         •       USAID’s Process for Preparing the Management Discussion and
                                 Analysis Needs Improvements.

                         We noticed certain other matters involving USAID’s internal controls and
                         its operations that we will communicate to management in a separate report
                         that is scheduled to be issued by March 31, 2002.


                         Material Weaknesses

                         Advances to Grantees Were Not
                         Consistently Reconciled and Classified (Repeat Conditions)

                         We found that USAID did not consistently reconcile advances to grantees.
                         Further, USAID did not properly classify its advances to grantees at fiscal
                         year-end. As a result, the following occurred:

                         •       A $439 1 million difference existed between USAID’s general
                                 ledger and its subsidiary ledger maintained by the Department of
                                 Health and Human Services (DHHS) for advances to grantees.

                         •       About $155 2 million in expenses incurred by its grantees had not
                                 been reported to DHHS nor identified and recorded in the financial
                                 records by USAID.

                         •       A backlog of 278 grant awards and/or modifications was not
                                 entered in the Payment Management System.

                         •       About $66 million in advances disbursed prior to October 1999
                                 remained outstanding as of September 30, 2001.

                         As of September 30, 2001, a difference of $439 million existed between
                         USAID’s general ledger and its subsidiary ledger. USAID’s general ledger

        1
                USAID recorded an adjustment to its FY 2001 advance balance for about $377 million of the $439
million. USAID is analyzing the remaining $62 million before it is recorded as an expense.
        2
                USAID subsequently made an adjustment to record the $155 million as exp enses .


                                                                                                                 18
                         had a balance of about $1.1 billion in advances to grantees, while its
                         subsidiary ledger, which is maintained by DHHS,3 had a balance of $694
                         million. No automated interface exists between the Payment Management
                         System and USAID’s general ledger. Therefore, transactions processed in
                         the Payment Management System must be manually entered into USAID’s
                         general ledger and USAID is required to reconcile the reports provided by
                         DHHS to the general ledger. The $439 million difference occurred because
                         USAID did not follow its established procedure that requires a monthly
                         reconciliation between the general and subsidiary ledgers. According to
                         USAID officials, the lack of staffing resources impaired its ability to
                         perform the monthly reconciliation. USAID recorded an adjustment to its
                         FY 2001 advance balance for about $377 million of the $439 million.
                         USAID is analyzing the remaining $62 million before it is recorded as an
                         expense. Therefore, the advances may be overstated and the expenses may
                         be understated by the $62 million.

                         GAO “Standards for Internal Controls in the Federal Government” requires
                         reconciliation as part of federal agency’s management and supervisory
                         activities. The standards state that “In the process of carrying out regula r
                         management functions, management should obtain information as to
                         whether internal control is working properly. Operating reports should be
                         integrated or reconciled with financial reporting system data and used to
                         manage operations on an ongoing basis. Significant inaccuracies or
                         exceptions should alert management to any internal control problems.” We
                         believe that USAID did not fully carry out the requirements of this standard
                         in fiscal year 2001 as they relate to the advance activities.

                         In a previous audit report,3 we recommended that USAID conduct a
                         monthly reconciliation of the advance balances maintained in the general
                         and subsidiary ledgers. However, USAID has not fully implemented our
                         recommendation. Therefore, we are making the following
                         recommendation:

                              Recommendation No. 1. We recommend that USAID Office of
                              Financial Management:

                                  1.1     establish a general ledger suspense account to record
                                          expenses reported to USAID by the Department of
                                          Health and Human Services,




        3
                DHHS is the servicing agency that manages advances to USAID’s grantees through the Letter of
Credit System. Therefore, the Payment Management System is USAID’s subsidiary ledger for advances to grantees.
        3
                 Audit of USAID Advances and Related Int ernal Controls for Fiscal Year 1999 (Audit Report No.
0-000-00-003-F, February 1, 2000).


                                                                                                        19
       1.2     identify and record these expenses against the
               appropriate general ledger account at the obligation
               level, and

       1.3     establish procedures to research and resolve all expenses
               remaining in the general ledger suspense account at the
               end of each accounting period.

As of September 30, 2001, USAID had not record about $155 million in
expenses related to advance liquidation submitted by grantees. This
occurred because USAID does not have an integrated financial management
system. Therefore, obligations established for advances to grantees that are
managed by DHHS must be manually entered into the Payment
Management System. However, USAID has not established a process that
ensures that all obligations established for advances to grantees are entered
into the Payment Management System. Consequently, the obligations
related to the $155 million had not been entered into the PMS, therefore, the
expenses were not recognized and reported by DHHS. USAID
subsequently made an adjustment to record the $155 million as expenses.

We determined that, as of September 30, 2001, USAID has a backlog of
278 grant agreements and/or amendments with a value of about $255
million that were not recorded in the Payment Management System. The
grant agreements and/or amendments were not posted to the Payment
Management System for up to 361 days. (Table 1 below illustrates the
status of the grant agreements or amendments). This occurred because
USAID does not have a worldwide- integrated financial management system
that links the accounting, procurement, and assistance systems as well as all
other activities performed by USAID. Additionally, copies of new grants
and/or amendments issued by USAID were not submitted to the Financial
Management Division in a timely manner. Further, there is no assurance
that all obligations established for grants managed by DHHS were
submitted to the USAID’s Cash Management and Payment Division. The
backlog of grants and/or amendments were kept in a file drawer in this
division because USAID Office of Financial Management did not have the
necessary staffing resources to enter these agreements into the Payment
Management System.

GAO “Standards for Internal Controls in the Federal Government” requires
that transactions and other significant events should be promptly recorded
and properly classified. This guidance further states that transactions must
be promptly recorded if pertinent information is to maintain its relevance
and value to management in controlling operations and making decisions.




                                                                                20
                         This applies to:

                         •        the entire process or life cycle of a transaction or event and includes
                                  the initiation and authorization,

                         •        all aspects of the transactions while in process, and

                         •        its final classification in summary records.

                         Proper classification of information on transactions and events refers to the
                         organization and format of information on summary records from which
                         reports and statements are prepared.

                                                         Table 1
                                           Status of Grant Agreements/Amendments
                                                  At September 30, 2001

                                         Number of          Absolute Value         Number of Days
                                        Amendments           (in millions)          Outstanding
                                           210                           $197           0–59
                                            19                             $25          60-90
                                            10                              $4         91-120
                                            14                             $13        121-180
                                             7                              $4        181-360
                                            18                             $12       361 & Over
                                           278                           $255

                         In previous audit reports, 4 we recommended that USAID implement a
                         process to address the internal control deficiency identified above.
                         However, during our fiscal year 2001 GMRA audit follow-up, we
                         determined that USAID had not done so. According to USAID officials,
                         this occurred because of the shortage in staffing resources. As a result, the
                         backlog of unrecorded grants and modificatio ns has recurred. Therefore,
                         we are restating the following recommendation to USAID Management:

                             Recommendation No. 2. We recommend that the USAID Office of
                             Financial Management:

                                  2.1      eliminate the backlog of grant agreements and/or
                                           amendments by inputting them into the Department of
                                           Health and Human Service’s Payment Management
                                           System;

                                  2.2      ensure that all new grant agreements and/or
                                           amendments are submitted to its Cash Management and
        4
                 Audit of USAID Advances and Related Internal Controls for Fiscal Year 1999 (Audit Report No.
0-000-00-003-F, February 1, 2000) and Audit of USAID Advances and Related Internal Controls for Fiscal Year
2000 (Audit Report No. 0-000-00-003-F, February 15, 2001).


                                                                                                       21
               Payment Division within 10 business days after their
               execution; and

       2.3     ensure that the Cash Management and Payment Division
               enter all new grants and/or amendments in the Payment
               Management System within 20 days after receiving
               them.

USAID had not completed reconciling and classifying the advances to
grantees recorded in its legacy system. According to USAID officials,
this occurred because the Office of Financial Management lacked the
necessary staffing resources. Additionally, maintaining the day-to-day
operations and implementing Phoenix (USAID’s new accounting system)
was assigned a higher priority. As a result, $66 million in advances to
grantees remained unreconciled as of September 30, 2001. This could
result in an overstatement of the year-end advance balance and an
understatement of the related expenses by the $66 million.

In previous audit reports, we reported that USAID transferred an estimated
$1.3 billion of unliquidated obligations for 301 recipient organizations to
the Payment Management System without verifying the accuracy of the
transferred balances. We recommended that USAID perform a
reconciliation to verify the accuracy of balances transferred to DHHS.
USAID concurred with our finding and recommendation and proposed
corrective action for this deficiency.

Our audit covering fiscal year 2001 showed that USAID reconciled the
unliquidated obligation balances for 168 of the 292 recipient organizations
transferred to the Payment Management System.

As agreed, USAID has implemented prior recommendations. However, due
to the lack of staffing resources, USAID has not completed this
reconciliation. USAID officials stated that the remaining 124 recipient
organizations will be completed by fiscal year-end 2002. Therefore, we are
not making a recommendation in this report.


Unliquidated Obligations Were Not
Consistently Analyzed and Deobligated as Necessary (Repeat Condition)

USAID records showed unliquidated obligations that may no longer be
needed for its original obligation purpose. This occurred because, as of
September 30, 2001, USAID had not implemented a process for
consistently reviewing, analyzing, and deobligating unneeded obligations.




                                                                              22
As a result, at September 30, 2001, there were about $186 million in
unliquidated obligations that had no activity against them for more than one
year. Further, this $186 million may no longer be needed for its original
obligation purpose.

USAID’s Automated Directive System (ADS) No. 621 states that “as part
of the annual budget process, Assistant Administrators, independent Office
Directors, and Mission Directors must certify whether unexpended balances
are necessary for on-going programs.” The directive further requires that in
conducting reviews of obligations to identify funds that must be
deobligated, obligation managers and others involved in the review process
should consider circumstances that could result in excessive or unneeded
obligation balances. According to ADS 621, where there is an unobligated
balance that has remained unchanged for 12 months or more and there is no
evidence of receipt of services/goods during that same 12-month period, the
situation may reflect that remaining balances are no longer needed.

We determined that, as of September 30, 2001, USAID’s internal control
process as it relates to the management of unliquidated obligations needs
improvement.       Specifically, our review of about $1.9 billion in
unliquidated obligations showed that about $186 million had no activity
during FY 2001, based on normal Agency operations, and may not be
needed for the original obligation purpose. We were unable to determine
the portion of this amount that should be deobligated.

We also determined that about $57 million of the $186 million in
unliquidated obligations had no disbursement activity since the obligation
was established. According to USAID officials, this occurred because
USAID’s current disbursement process does not match contractor or
grantee-reported expenses and the subsequent payments with the
obligations that gave rise to those payments. Consequently, the $57
million in unliquidated obligations was carried forward each year even
after the payments that would have fully depleted them were made by
USAID (see Table 2 below).




                                                                      23
                                                               Table 2
                                                      Unliquidated Obligations
                                                      Reviewed and Questioned

                                           Obligations        Obligations            Total            Last
                                             with No        with No Activity      Unliquidated      Recorded
                                Fiscal    Activity Since     in Fiscal Year        Obligation       Payment
                                Year      Establ ishment          2001                              by Fiscal
                                                                                                     Year 5
                                 1989            $66,250               $5,100           $71,350
                                 1990              1,376               39,530            40,906
                                 1991                  0              444,833           444,833
                                 1992          1,192,789            -528,461            664,328
                                 1993            429,799           5,102,569          5,532,368
                                 1994          1,037,180           6,620,971          7,658,151
                                 1995          1,247,520          10,746,980         11,994,500
                                 1996          5,226,301          19,146,366         24,372,667 $26,567,291
                                 1997         27,118,496          56,417,478         83,535,974 10,043,216
                                 1998         20,743,564          31,175,078         51,918,642 29,602,595
                                 1999           -                   -                  -         12,988,951
                                 2000           -                   -                  -          8,504,748
                                Totals       $57,063,275        $129,170,444       $186,233,719 $87,706,801

                           In prior years, we reported that USAID’s unliquidated balances were not routinely
                           reviewed and were not reliable for calculating accrued expenses and accounts payable. In
                           our fiscal year 2000 audit report, we reported that USAID acted to improve its policies
                           and procedures and the quality of the financial data recorded in the New Management
                           System6 . USAID agreed that its process for reviewing, analyzing, and deobligating
                           unliquidated obligations needs improvement. During fiscal year 2000, USAID:

                           •         Implemented a project to review and deobligate those unnecessary unliquidated
                                     obligations established during fiscal year 1999 and prior periods. As a result,
                                     USAID deobligated over 1,200 obligations totaling about $126 million and
                                     revised its policies and procedures for performing periodic reviews.

                           •         Provided training in obligation management to financial management personnel;
                                     and

                           •         Revised its Automated Directive Sy stem, Chapter 621, “Obligations,” on
                                     September 11, 2000.
                               According to USAID officials, the Agency implemented a decentralized
                               Accrual Reporting System in the beginning of FY 2002. This system is
                               designed to require review and approval of a system- generated accrual
                               estimate. If this system is implemented and maintained as intended, it
                               should enable USAID to routinely identify obligations that could be


         5
                 No payment date was available for the fiscal years prior to fiscal year 1996. This is because the
last payment would have occurred before USAID deployed the New Management System in fiscal year 1996.
         6
                 The New Management System is USAID’s old accounting system that was replaced in fiscal year
2001 with the Phoenix accounting system.


                                                                                                                       24
                             deobligated. We will review the implementation of this new system
                             during our fiscal year 2002 GMRA audit.

                           Recommendation No. 3. We recommend that the USAID Office of
                           Financial Management coordinate with the Office of Procurement and
                           responsible program bureaus to conduct the necessary analysis for
                           determining whether the $186 million and other unneeded obligations
                           should be deobligated.


                           Computer Security
                           Weaknesses Continue to Exist (Repeat Condition)

                           Over the past four years, the OIG has issued several audits related to the security and
                                            7
                           general controls of USAID's information systems. Those audits have identified
                           computer security weaknesses that exposed USAID's financial systems to significant risk
                           of unauthorized disclosure and modification of sensitive data, misuse or damage of
                           resources, or disruption of critical operations. (See the "Computer Security Laws"
                           section of the compliance report for a discussion of the OIG audit reports.)

                           Since 1997, USAID has reported the Agency's computer security program as a material
                           weakness 8 and currently estimates that the weakness will not be fully corrected until
                           September 2003. In USAID's attempt to resolve this material weakness, USAID
                           reportedly has (1) established an effective Information System Security Office structure
                           and an advisory group to set strategy, (2) developed a risk assessment methodology to
                           evaluate computer security, and (3) led the Federal Best Security Practices Initiative.




         7
                  General controls are the structure, policies, and procedures that apply to an entity's overall
computer operations. If general controls are weak or ineffective, the reliability of controls associated with
individual applications is severely diminished.
         8
                   USAID identified this as a material weakness in the Agency's Federal Manager's Financial
Integrity Act review.


                                                                                                                   25
Nonetheless, recent OIG audits showed that USAID has continued to have many serious
computer security weaknesses. For example, the audits identified weaknesses in logical
access controls, application software development and change control, segregation of
duties, systems software configuration, and service continuity. These weaknesses exist
because USAID has not implemented an effective computer security program. For
instance, USAID did not:

•        enforce its policies and procedures to ensure appropriate implementation, and

•        provide adequate guidance for incorporating security into some of USAID's
         information technology processes.

As a result of the security deficiencies, USAID's financial systems are at significant risk
of unauthorized disclosure and modifications of sensitive data, misuse or damage of
resources, or disruption of critical operations. The weaknesses may also hamper
USAID's ability to produce reliable financial information. Therefore, USAID needs to
continue to improve the Agency's computer security program. (To address these
weaknesses, the OIG made recommendations in other audit reports. We are not,
therefore, making any further recommendations at this time.)



Reportable Conditions

USAID’s Process for Recognizing and Reporting
Its Accounts Receivable Needs Improvements (Repeat Condition)

As of September 30, 2001, USAID lacks an integrated financial
management system with the ability to account for its worldwide accounts
receivable. Consequently, USAID had to rely on data calls to its missions
to determine the year-end accounts receivable balance. This occurred
because USAID lacked coordination and integration of various systems;
lacked adequate policy and procedural guidance; and, as previously stated,
did not have an integrated financial management system. As a result,
USAID has no assurance that the amount reported for accounts receivable
in its FY 2001 financial statements represents all receivables due to USAID.

SFFAS No. 1 requires that accounts receivable be recognized (recorded)
when a claim to cash or other assets has been established. The
establishment of accounts receivable cannot occur on a timely basis unless
there are adequate procedures for recognizing and reporting accounts
receivable at the end of each accounting period.


Currently, USAID records accounts receivable after the missions and the
Office of Procurement notifies its Financial Management Division that
employees, vendors, contractors, and grantees owe funds to USAID. We
determined that this notification to the Office of Financial Management
occurs when the receivables are significantly past due ranging from 636 to
4,042 days.



                                                                                              26
We also determined that USAID had not recorded receivables of about $7.2
million for Title II and III reimbursements from the U. S. Department of
Agriculture. Additionally, we determined that USAID initially overstated
its accounts receivable for transfers of currently invested balances by about
$49 million. USAID’s management made adjustments for these amounts to
report a more reliable balance for its accounts receivables.

We are making the following recommendation to the USAID Office of
Financial Management to improve its accounts receivable process:

   Recommendation No. 4. We recommend that the USAID Office of
   Financial Management develop and implement a system for the
   immediate recognition and reporting of all accounts receivables
   that are due to USAID at the end of each accounting period.


USAID’s Internal Controls Over its Overseas
Missions Accounts Payable Process Needs Improvement

Our audit determined that USAID’s internal controls over its mission
accounts payable process needs improvement. We noted that amounts
reported for accounts payable via the accrual worksheets used by missions
were unsupported by financial documentation. This occurred because all
missions have not developed an effective process for gathering the needed
financial information from their contractors and grantees to calculate and
record periodic accounts payable. As a result, the accounts payable amount
from USAID’s missions for fiscal year 2001 expenses was overstated by
about $165 million. USAID management recorded an adjustment for the
$165 million to present a more reliable accounts payable balance at
September 30, 2001.

OMB Circular A-123 requires that transactions be promptly and properly
classified and accounted for so that timely accounts and reliable financial
statements can be prepared. The documentation for transactions,
management controls, and other significant events must be clear and readily
available for examination.

We determined that the internal control over the process for calculating
accounts payable at the missions visited was ineffective. We found that
amounts calculated via the accrual worksheet process were not supported
by available financial documentation, rationale for calculations, or status
reports that reflect an assessment of the spending for the project or
activity. Moreover, we found that several accounts payable amounts
were recorded by the missions for the entire balance of the related
obligations, with expired performance periods. These obligations either
had no financial activity in more than one year or had no activity since
they were established. We determined that USAID had not conducted the


                                                                       27
                           necessary research to determine if the obligations and corresponding
                           accounts payable were necessary.

                           We determined that this resulted because the efforts of USAID were
                           somewhat hampered by the inefficiencies of the Mission Accounting and
                           Control System (MACS) 9 and its inability to group various funding
                           instruments of the same project or program. However, many USAID
                           missions have not documented their calculations, their communications
                           with contractors and grantees, their analysis of project expense burn rates,
                           or their review of the necessary accounting reports. Additionally, the
                           missions have not developed an effective methodology for gathering the
                           necessary financial information from contractors and grantees.

                           Furthermore, we determined that USAID missions did not close several
                           obligations and calculated accounts payable for the entire remaining
                           balance because the missions have not received disbursement data from
                           USAID/Washington, nor had the missions received a final voucher from
                           the contractors or grantees. As a result, the accounts payable reported by
                           USAID missions were overstated by about $5 million, which resulted in a
                           projected overstatement of about $165 million for FY 2001 mission
                           accounts payable.        Therefore, we are including the following
                           recommendation to USAID management:

                              Recommendation No 5. We recommend that the Office of Financial
                              Management:

                                   5.1      develop a standardized documentation requirement for
                                            estimating accounts payable at its missions on a timely
                                            basis;

                                   5.2      coordinate with the Office of Procurement and issue
                                            detailed guidance and instructions to its missions for
                                            reviewing and reporting, to its Washington Office of
                                            Procurement, obligations that are available for
                                            deobligation;

                                   5.3      require all missions to maintain adequate supporting
                                            documentation that is sufficient for the OIG’s review, for
                                            their accounts payable.


                          USAID’s Process for Preparing the Management
                          Discussion and Analysis Needs Improvements



        9
                  MACS is an activity based system for recording budget allowance, projects, operating expense,
and accounting transactions at USAID’s missions.


                                                                                                                  28
OMB Bulletin No. 01-02 requires the OIG to (a) obtain an understanding
of the components of internal controls relating to the existence and
completeness assertions relevant to the performance measures included in
the MD&A and to (b) report on those internal controls that have not been
properly designed and placed in operation. With respect to performance
measures reported in the MD&A, we were unable to obtain a complete
understanding of the design of the related significant internal controls
because management did not disclose all sources of performance results
data to us in a timely manner.

In a memorandum dated April 25, 2001, USAID management asserted to
us that the performance information contained in the MD&A for fiscal
year 2001 would be drawn from the Results Review and Resource Request
(R4) Reports submitted by USAID's operating units during fiscal year
2001. Upon reviewing a draft MD&A dated January 18, 2002, we became
aware that much of the performance information reported in the draft
came from sources other than the R4 reports. Due to the untimely receipt
of this information, we were unable to review the internal controls
surrounding those other sources. Nevertheless, after applying limited
procedures regarding the measurement and presentation of performance
results reported in the MD&A, we identified certain deficiencies that, in
our judgment, adversely affected the Agency's portrayal of performance
results as required by prescribed guidelines.

The MD&A is a brief narrative overview, prepared by management, which
describes the reporting entity and its mission, activities, program and
financial results, and financial condition. The Statement of Federal
Financial Accounting Standards (SFFAS) No. 15, Management's
Discussion and Analysis, requires the MD&A to be included in each
annual financial statement as required supplementary information. OMB
Bulletin No. 97-01 provides additional guidance for preparing the MD&A.
It states that program results reported in the MD&A should be expressed
in terms of objective and relevant measures that disclose the extent to
which the programs are achieving their intended objectives. The Bulletin
also states that the reported measures should be consistent with
information on major goals and objectives from USAID's strategic plan
and should be linked to the programs featured in the Statement of Net
Costs.

Based on our review of the draft MD&A dated January 18, 2002, we
determined that the reported program results actually represented activities
that took place prior to fiscal year 2001. Consequently, the reported
results did not (a) correspond to USAID's performance goals established
for fiscal year 2001 or (b) reflect the achievements of program funds
expended during fiscal year 2001. Further, we determined that the
program results reported in the MD&A were based on USAID operating
units' self- assessments of progress (made in prior years) towards meeting


                                                                     29
                          certain strategic objectives. However, not all strategic objectives were
                          assessed. Further, the MD&A did not disclose which or how many of
                          USAID's strategic objectives were not assessed or reported. Despite the
                          fact that program results were from prior years and not all strategic
                          objectives were assessed, in many instances the MD&A reflected
                          performance results data achieved during fiscal year 2001 and that all
                          strategic objectives, within certain programmatic categories, were
                          assessed. We believe that this portrayal of USAID's performance results
                          departed materially from prescribed guidelines and included misleading
                          information.

                          During our fieldwork we communicated our concerns to USAID
                          management, resulting in some changes that were incorporated into a
                          revised draft MD&A 10 . However, we believe that the revised draft
                          continued to portray misleading information. Because we plan to conduct
                          additional audit work in the area of performance reporting, we did not
                          include a recommendation in this report to correct the above deficiencies.

                          This report is intended solely for the information and use of the
                          management of USAID, OMB and Congress, and is not intended to be and
                          should not be used by anyone other than these specified parties. However,
                          this restriction is not intended to limit the distribution of this report, which is
                          a matter of public record.




                          Office of Inspector General
                          February 25, 2002




        10
                 This revised draft, dated January 29, 2002, was the last version of the MD&A we received for
review. At the conclusion of our fieldwork, Agency management had not yet issued a final version.


                                                                                                                30
This page left intentionally blank




                                     31
                    Independent Auditor’s Report on Compliance
                            with Laws and Regulations

                         Did USAID comply with laws and regulations that could have a
                         direct and material effect on the financial statements, and with any
                         other applicable laws and regulations?

                         We have audited the financial statements of USAID for the fiscal year
                         ended September 30, 2001 and have issued our report thereon. We
                         conducted the audit in accordance with generally accepted auditing
                         standards; the standards applicable to financial audits contained in
                         Government Auditing Standards, issued by the Comptroller General of the
                         United States; and the Office of Management and Budget (OMB) Bulletin
                         No. 01-02, “Audit Requirements for Federal Financial Statements.”

                         The management of USAID is responsible for complying with laws and
                         regulations applicable to USAID. As part of obtaining reasonable assurance
                         about whether USAID’s financial statements are free of material
                         misstatement, we performed tests of USAID’s compliance with certain
                         provisions of laws and regulations, noncompliance with which could have a
                         direct and material effect on the determination of financial statement
                         amounts. Also, we tested certain other laws and regulations specified in
                         OMB Bulletin No. 01-02, including the requirements referred to in the
                         Federal Financial Management Improvement Act (FFMIA) of 1996. We
                         limited our tests of compliance to these provisions and we did not test
                         compliance with all laws and regulations applicable to USAID.

                         The results of our tests of compliance with laws and regulations described in
                         the preceding paragraph exclusive to FFMIA11 disclosed instances of
                         noncompliance with laws and regulations that are required to be reported
                         under Government Auditing Standards and OMB Bulletin No. 01-02.

                         Under FFMIA, we are required to report whether USAID’s financial
                         management systems substantially comply with the Federal financial
                         management systems requirements, applicable Federal accounting
                         standards, and the United States Government Standard General Ledger at
                         the transaction level. To meet this requirement, we performed tests of
                         compliance with FFMIA section 803 (a) requirements.

                         The results of our tests disclosed instances, described below, where
                         USAID's financial management systems did not substantially comply with
        11
                  FFMIA requires reporting on whether an agency’s financial management systems substantially
comply with the FFMIA section 803 (a) requirements relating to Federal financial management systems
requirements, applicable Federal accounting standards, and the United States Government Standard General Ledger
published by the Department of the Treasury. FFMIA imposes additional reporting requirements when tests
disclose instances in which agency systems do not substantially comply with the foregoing requirements.


                                                                                                                  32
                         Federal financial management system requirements, Federal accounting
                         standards, and the U.S. Standard General Ledger at the transaction level.


                         Nature, Extent, and
                         Causes of Noncompliance

                         The Federal Financial Management Improvement Act was passed to
                         improve Federal financial manage ment by ensuring that Federal financial
                         management systems provide reliable, consistent, financial data from year
                         to year. The Act requires each agency to implement and maintain
                         financial management systems that comply substantially with:

                         •        Federal financial management system requirements,

                         •        applicable Federal Accounting Standards, and

                         •        the United States Government Standard General Ledger at the
                                  transaction level.

                         Office of Management and Budget CircularA-127, Financial Management
                         Systems, prescribes policies and standards for agencies to follow in
                         developing, operating, evaluating, and reporting on financial management
                         systems. Section 7 of the Circular identifies the requirements, mentioned
                         above, that Federal financial systems should meet. In January 2001, the
                         Office of Management and Budget issued guidance to supplement OMB
                         Circular No. A-127 to help determine whether financial systems
                         substantially comply with FFMIA requirements. That guidance identifies
                         various requirements12 that an agency must meet, including Joint Financial
                         Management Improvement Program system requirements.

                         Since 1997, the OIG has reported that USAID’s financial management
                         systems did not substantially comply with accounting and system
                         requirements under FFMIA. 13 The reason for USAID's noncompliance
                         was that the Agency's core financial management system14 did not operate

        12
                 Other requirements are Office of Management and Budgets Circulars No. A-34, Instructions on
Budget Execution; and A-130, Management of Federal Information Resources ; and the United States Government
Standard General Ledger.
        13
                   Reports on USAID’s Consolidated Financial Statements, Internal Controls, and Compliance for
Fiscal Year 2000 (Audit Report No. 0-000-01-006-F, February 26, 2001); Reports on USAID’s Consolidated
Financial Statements, Internal Controls, and Compliance for Fiscal Year 1999 (Audit Report No. 0-000-00-006-F,
February 18, 2000); and Audit of the Extent to Which USAID’s Financial Management System Meets Requirements
Identified in the Federal Financial Management Improvement Act of 1996 (Audit Report No. A-000-98-003-P,
March 2, 1998).
         14
                   This system, called the New Management System, consists of four subsystems: (1) AID
Worldwide Accounting and Control System, (2) Acquisition and Assistance, (3) Budget, and (4) Operations.



                                                                                                       33
                          effectively. Therefore, USAID had to rely on a combination of outdated,
                          legacy systems; informal, unofficial records; and a core financial
                          management system—that suffered from technical and operational
                          problems.

                          USAID has taken several steps to modernize the Agency's systems and meet
                          FFMIA requirements. For instance, in September 1999, USAID purchased a
                          new core financial system from the General Services Administration's
                          schedule of qualified software. 15 In December 2000, USAID implemented
                          the new core financial system in Washington. In addition, during fiscal year
                          2001, USAID:

                          •        implemented the Mission Accounting and Control System Auxiliary
                                   Ledger data repository, that provides an automated interface between
                                   data extracted from Agency mission systems and the core financial
                                   system; and

                          •        established operating procedures for interfaces and pre-interfaces
                                   between the new core financial system and five major systems that
                                   process transactions outside the core financial system. Those
                                   systems were (1) USAID's procurement system; (2) National Finance
                                   Center's Payroll system; (3) Mission Accounting and Control
                                   System; (4) the Department of Health and Human Services' Payment
                                   Management System, that processes USAID's Letter of Credit 16
                                   activities; and (5) Riggs Banks, which services USAID's credit
                                   portfolio.

                          Federal Financial Management System Requirements - Although it has
                          taken steps to meet FFMIA requirements, USAID still needs to continue to
                          improve the Agency's financial management systems. According to
                          FFMIA, Federal agencies must implement and maintain financial
                          management systems that comply substantially with Federal financial
                          management system requirements. However, USAID's financial
                          management systems did not substantially comply with the requirements.




        15
               The software on this General Services Administration schedule is Joint Federal Financial
Improvement Program certified.
        16
                  USAID uses Letter of Credit to finance grants. Letter of Credits make Federal funds available to
recipient organizations on the next workday following the receipt of a request for funds. The Department of Health
and Human Services processes USAID's active Letter of Credits.


                                                                                                                     34
The primary reasons for this noncompliance were that:

•      USAID's core financial system did not always function properly with
       respect to funds control,

•      USAID did not implement effective internal controls over USAID's
       financial management systems, and

•      USAID's core financial systems did not readily produce user-friendly
       reports needed to manage Agency programs.

As a result, USAID's financial system may not provide users with
complete, reliable, timely financial information needed for
decision- making purposes. The following paragraphs discuss these issues
in detail.

Funds Control - According to OMB Circular No. A-34, Instructions on
Budget Execution, each Federal agency is responsible for establishing a
funds control system that will ensure that USAID does not obligate or
expend funds in excess of those appropriated or apportioned. In addition,
the Circular states that entering into contracts that exceed the enacted
appropriations for the year or purchasing services and merchandise before
appropriations are enacted is a violation of the Anti-deficiency Act. We
found that USAID's core financial system had some system problems with
respect to funds control. USAID management was aware of each of these
problems before our audit, has begun to take corrective actions, and
expects to have these system-related problems corrected in fiscal year
2002. Therefore, we are not making any recommendations at this time.
Nonetheless, the OIG considered these problems in determining
substantial compliance with Federal system requirements under FFMIA,
as described below.

First, according to OMB's FFMIA guidance, the Agency's financial
management system shall support the preparation, execution, and
reporting of the Agency's budget in accordance with OMB Circular A-34.
According to that Circular, at year-end, multi- year funds not obligated that
remain available must be reapportioned in the upcoming fiscal year.
However, USAID's new core financial system did not roll- up all funds to
the appropriation level to be reapportioned as part of the year-end closing
process. Specifically, at year-end, the system did not roll up multi- year
unobligated balances, thus allowing the funds to remain available for
obligation. As a result, although the audit did not identify any instances in
which USAID's funds were obligated before roll- up and reapportionment,
USAID was at risk of committing an Anti-deficiency Act violation.




                                                                      35
                           USAID recognized that the software created an opportunity for an Anti-
                           deficiency Act violation and requested that Agency bureaus avoid using
                           those funds. Additionally, a USAID contractor ran a series of reports and
                           determined that no Anti-deficiency Act violations occurred. To correct
                           the problem, USAID subsequently ran a series of scripts which rolled up
                           unobligated multi- year account balances by fund to the appropriation
                           level. (A USAID contractor is currently testing software to roll- up
                           unobligated multi- year funds as part of the year-end closing process.)

                           Second, USAID's system did not properly display the funding available after
                           appropriation transfer 17 transactions. Although, the system prohibited a user
                           from obligating more funds than apportioned, the system displayed an
                           incorrect available amount at the appropriation level after users processed
                           appropriation transfers. For example, if an appropriation had an available
                           amount of $100,000 and USAID transferred in $25,000 from another
                           appropriation or agency, the system would erroneously add $25,000 to the
                           balance twice and display $150,000 as available rather than the correct
                           amount of $125,000. Likewise, if an appropriation had an available amount
                           of $100,000 and USAID transferred $25,000 to another appropriation or
                           agency, the system would erroneously subtract $25,000 from the balance
                           twice and display $50,000 as available rather than the correct amount of
                           $75,000. Consequently, when checking funds availability, the system
                           displayed to users that more or less funds were available than actually were.
                           Therefore, users could not use the system to properly manage operations.
                           According to Agency officials, USAID will place a system patch into
                           production in February 2002 to alleviate this problem.

                           Internal Control Weaknesses – In December 2000, USAID implemented a
                           new core financial system in Washington. The Joint Financial Management
                           Improvement Program certified that the system's baseline software complied
                           with Federal core financial system requirements. However, USAID had
                           internal control weaknesses over the financial systems. USAID's general
                           controls had the most serious weaknesses, as discussed below. 18 (See
                           Appendix No. III for a discussion of other internal control weaknesses.)




         17
                 An appropriation transfer occurs when funds are received from or given to another Federal agency
or another appropriation within USAID.
         18
                  General controls are the structure, policies, and procedures that affect the overall effectiveness and
security of computer operations. These include security management, systems security software, and controls
designed to ensure that access to data and programs is restricted, computer duties are segregated, only authorized
changes are made to computer programs, and plans are adequate to ensure continuity of operations.



                                                                                                                           36
                           Office of Management and Budget Circular A-130, Appendix III, requires
                           agencies implement and maintain a program to assure that adequate security
                           is provided for all agency information. During a series of audits, 19 the OIG
                           determined that USAID did not fully develop and implement an Agency-
                           wide security program for information systems as required. The OIG also
                           identified serious general control weaknesses that place financial systems at
                           significant risk of unauthorized disclosure and modification of sensitive data,
                           misuse or damage of resources, or disruption of critical operations. For
                           example, USAID's security program weaknesses included poorly chosen
                           passwords, inadequate access controls, and inadequate segregation of duties.
                           As a result of these weaknesses, USAID was not substantially compliant
                           with Federal financial management system requirements under FFMIA. The
                           OIG will make recommendations to address these issues in another audit
                           report.

                           Reports – USAID's financial management system users were not always
                           able to readily obtain data to manage Agency operations. This occurred
                           because USAID's core financial system was operational only for ten
                           months in fiscal year 2001 and, therefore, USAID primarily focused
                           resources on implementation and operations, rather than on reporting. As
                           a result, some system users maintained "cuff records"20 to supplement the
                           core financial system. The following paragraphs discuss this issue in
                           detail.

                           According to JFMIP-SR-02-01, Core Financial System Requirements,
                           "Reporting Function:"

                                    …the core financial system must provide for ready
                                    access to the information it contains. Information must
                                    be assessable to personnel with varying levels of
                                    technical knowledge of systems.          Personnel with
                                    relatively limited knowledge…must be able to access
                                    and retrieve data with minimal training on the system.

                           In fiscal year 1997, USAID first reported a material weakness in obtaining
                           timely, accurate, or sufficiently useful financial information to manage
                           resources and support decision making. 21 To address this issue, USAID's
                           long term strategy was to implement a new, integrated financial
                           management and accounting system.
         19
                   Audit of USAID’s Compliance with the Provisions of the Government Information Security
Reform, (Audit Report No. A-000-01-002-P, September 25, 2001). We are currently drafting the report on
USAID’s general controls, that will have restricted distribution. In addition, we issued audit reports on general
controls for three USAID missions and are drafting a fourth report.
         20
                  For this audit, "cuff records" are defined as informal, unofficial records of Agency activities.
         21
                  USAID reported this as a material weakness pursuant to the Federal Managers' Financial Integrity
Act of 1982.


                                                                                                                37
              In December 2000, USAID implemented a new core financial system.
              Although the system allowed users to view standard financial reports (e.g.,
              required reports to the U. S. Treasury), users still reported that obtaining
              useful financial reports was a significant problem. For example, officials
              in one bureau noted that the system could not readily provide the financial
              information at a detailed level to mana ge programs and report on program
              performance. That bureau created a software program to consolidate
              information contained in individual spreadsheets and provide information
              that was more detailed than was currently available in the core financial
              system. The bureau used that software program to plan, budget, report,
              manage, and track programs. In another bureau, one user maintained
              spreadsheets to track obligations by strategic objective- information that
              should be readily available from the financial ma nagement system.

              As stated previously, USAID's financial management system users were
              not always able to readily obtain data to manage Agency operations
              because USAID's core financial system was operational for only ten
              months in fiscal year 2001. Therefore, USAID primarily focused
              resources on implementation and operations, rather than on reporting.
              According to USAID officials, that decision was made because resources
              were limited. Nonetheless, recognizing that users needed more than the
              standard reports, USAID implemented a reporting tool. 22 However, that
              tool was not user- friendly. Moreover, some users did not have the training
              needed to obtain reports from the system. Finally, only a few users had
              the role needed to create reports with the necessary data fields.

              As a result, some system users maintained cuff records to manage
              operations. According to one senior Financial Management official,
              although USAID plans to continue to rely on the software vendor to
              support the system, the Agency plans to focus on reporting in the future.
              For instance, USAID has begun to implement a more user-friendly report
              writing tool. 23 Nonetheless, USAID needs to ensure that system users are
              able to obtain the information needed to manage resources and support
              decis ion making. We are, therefore, making the following
              recommendation to assist in that effort.




22
     This tool is called Business Objects.
23
     This tool is called Crystal Reports.


                                                                                             38
                                Recommendation No. 6: We recommend that USAID's
                                Chief Financial Officer, in collaboration with USAID's
                                Chief Information Officer, provide users of the core
                                financial system with a reporting tool and the training
                                needed to obtain accurate, timely, and useful information
                                from the core financial system to help manage Agency's
                                operations.


                            Federal Accounting Standards

                            Because USAID did not meet Office of Management and Budget's
                            indicators of compliance with Federal accounting standards, this audit
                            determined that USAID's financial management system did not
                            substantially comply with Federal accounting standards. As a result,
                            USAID's systems may not provide complete, accurate, reliable financial
                            information. The following paragraphs discuss this issue in detail.

                            According to Office of Management and Budget guidance, 24 an agency's
                            financial management systems are considered in substantial compliance
                            with Federal accounting standards if:

                            •       the agency's financial statements are compiled in accordance with
                                    Federal accounting standards, and

                            •       financial information used for internal management is consistent
                                    with Federal accounting standards.

                            We determined that USAID did not substantially comply with applicable
                            Federal accounting standards. Specifically, USAID did not substantially
                            comply with the Statements of Federal Financial Accounting Standards
                            Nos. 1, 4, 10, and 15, as described below

                            Standard No. 1, Accounting for Selected Assets and Liabilities – We
                            determined that USAID's advances and accounts receivables did not
                            comply with standard no. 1, as discussed below.

                            Advances - USAID did not recognize (record) all expenses related to
                            advance liquidations during fiscal year 2001. During fiscal year 2001
                            USAID did not record $439 million in expenses (advance liquidations)
                            submitted by DHHS. USAID did not record the $439 million as expenses
                            because of processing problems and missing data during its payment
                            authorization process.


        24
                    Revised Implementation Guidance for the Federal Financial Management Improvement Act
(January 4, 2001)


                                                                                                       39
             Further, USAID did not follow its established procedure that requires a
             monthly reconciliation between the general and subsidiary ledgers.
             According to USAID officials, the lack of staffing resources impaired its
             ability to perform the monthly reconciliation. Therefore, the expenses
             were not recorded until after the fiscal year ended. SFFAS No. 1 requires
             that advances be reduced when goods and services are received (i.e.,
             expenses have been actually incurred by the grant recipient). USAID was
             not able to process the $439 million of grantee liquidations because its
             financial management system had not been updated for new obligations or
             amendments to existing obligations.

             In addition, there were about $155 million in advance liquidations
             submitted by grantees to DHHS that could not be processed (accepted) by
             the Payment Management System. This occurred because USAID does
             not have an integrated financial management system. Therefore,
             obligations established for advances to grantees that are ma naged by
             DHHS must be manually entered into the Payment Management System.
             However, USAID has not established a process that ensures that all
             obligations established for advances to grantees are entered into the
             Payment Management System..

             USAID recorded a $532 million year-end adjusting journal entry ($377
             million of the $439 25 million and the $155 million mentioned above) to
             decrease advances and increase expenses for these advance liquidations
             that were submitted by grantees but not processed in the system during the
             fiscal year.

             Accounts Receivable – USAID does not have an adequate system to
             recognize its worldwide accounts receivable in a timely manner. USAID
             is only aware of its receivables when its Office of Procurement, missions,
             and contractors/grantees report them to its Office of Financial
             Management. This occurred because USAID lacked coordination and
             integration of various systems; lacked adequate policy and procedural
             guidance; and, as previously stated, did not have an integrated financial
             management system. SFFAS No. 1 requires that a receivable be
             recognized (recorded) when a claim to cash or other assets has been
             established. The establishment of a receivable cannot occur on a timely
             basis unless there are adequate procedures for recognizing and reporting
             accounts receivable at the end of each accounting period.

             Standard No. 4, Managerial Cost Accounting Concepts and Standards
             for the Federal Government - USAID did not comply with one of the
             fundamental elements of SFFAS No. 4 that requires establishing
             responsibility segments that match costs with outputs and requires the
             reporting of full costs of outputs. Also, USAID does not have a system to

25
     USAID is analyzing the remaining $62 million.


                                                                                          40
identify and report all costs against the appropriate Agency goals. USAID
did not record and report about $374 million in program expenses in
accordance with their established methodology due to missing data,
inefficient processing, and unreconciled information.

The methodology requires that program costs be directly expensed at the
intermedia te output level and rolled up to the net cost reporting level of
Agency goals. USAID did not record and report the $374 million in
accordance with that methodology on its Fiscal Year 2001 Statement of
Net Costs. Instead, USAID allocated those costs based on a
predetermined percentage rate. We were unable to review this allocation
to determine the reliability of the allocation.

We determined that USAID did not process and record about $439 million
in expenses related to the advances to grantees managed by the
Department of Health and Human Services (DHHS) in their financial
management system during fiscal year 2001. (DHHS is the servicing
agent for USAID’s Letter of Credit advances to grantees). USAID was
not able to process the $439 million of grantee advance liquidations
expenses for various reasons. Of this amount, $62 million could not be
recorded and reported in accordance with their established methodology
because of processing problems, inefficient processing of liquidation
expenses, and missing data in its payment authorization process. In
addition, USAID did not reconcile and properly classify about $66 million
in outstanding advances remaining in its legacy system that were
disbursed before October 1999. The $128 million mentioned above
represents activities that may be more appropriately classified as expenses.

We determined that about $246 million in expenses may not have been
properly recorded against the appropriate Agency goals in USAID’s Fiscal
Year 2001 Statement of Net Cost. The information needed to properly
allocate these expenses was not available to USAID at the time the
financial statements were prepared. We identified about $155 million in
expenses associated with the advances to grantees managed by DHHS that
were not identified and recorded by USAID during fiscal year 2001.
These expenses were not reported by DHHS because the related
obligations for which the expenses were incurred were not recorded in the
Payment Management System. According to the agreement established
between USAID and DHHS, all awards to grantees for the purpose of
advancing funds must be entered into the Payment Management System
before the liquidation of the advance funds can occur. Further, we
determined that about $91 million (or 3 percent) of mission expenses
related to multiple Agency goals were not consistently allocated as
required by FASAB No. 4.




                                                                      41
                          Standard No. 10, Accounting for Internal Use Software 26 - According
                          to Standard No. 10, Federal agencies are required to capitalize the cost of
                          internal- use software, whether that software is commercial off-the-shelf,
                          contractor-developed, or internally developed. The capitalized cost for
                          commercial off-the-shelf software should include the amount paid to the
                          vendor for the software. For contractor-developed software, capitalized
                          cost should include the amount paid to a contractor to design, program,
                          install, and implement the software. USAID's policy is to capitalize
                          software that exceeds a $300,000 threshold.

                          For fiscal year 2001, the only software that exceeded USAID's threshold
                          was the core financial system, 27 which cost $14.9 million. Of that amount,
                          USAID capitalized $6.3 million for fiscal year 2001. Although those
                          amounts were immaterial to the overall presentation of the fiscal year
                          2001 financial statements, our audit determined that USAID did not:

                          •        include costs funded in prior years for services received in fiscal
                                   year 2001 (accrual basis of accounting),

                          •        capitalize costs by fiscal year,

                          •        have readily available all the required documentation to support
                                   USAID's property records, and

                          •        reconcile the Agency's software property records with the financial
                                   records.

                          Standard No. 15, Management Discussion and Analysis - According to
                          Standard No. 15, each general purpose Federal financial report sho uld
                          include a section devoted to Management's Discussion & Analysis
                          (MD&A). Standard No. 15 indicates that the MD&A should be regarded
                          as required supplementary information28 and, among other things, address
                          performance goals and results that relate to the financial statements
                          included in the general purpose Federal financial report.

                          Based on our review of the draft MD&A dated January 18, 2002, we
                          determined that the reported program results actually represented activities
                          that took place prior to fiscal year 2001. Consequently, the reported
                          results did not (a) correspond to USAID's performance goals established
                          for fiscal year 2001 or (b) reflect the achievements of program funds
                          expended during fiscal year 2001.
           26
                 The OIG will issue a separate audit report that will further explain the details relating to this
section.
           27
                 USAID's costs for the core financial system included costs to automate the feeder systems.
           28
                See section 558, "Required Supplementary Information," in Codification of Statements on
Auditing Standards, American Institute of Certified Public Accountants (AICPA).


                                                                                                                     42
This occurred because USAID management did not require individual
operating units to report program results for fiscal year 2001 to include
them in the MD&A for fiscal year 2001. Without the current results
information, USAID management is unable to effectively discuss and
analyze USAID's program performance in relation to its performance
goals or financial statements for fiscal year 2001.

Indicators of noncompliance - The audit determined that USAID's
financial management system did not substantially comply with Federal
accounting standards because the Agency did not meet Office of
Management and Budget's indicators of compliance with those standards
(opinion, internal controls, and managerial cost information), as described
below.

•      Opinion – One indicator of compliance with Federal accounting
       standards is "[a]n unqualified opinion, or a qualified or
       disclaimer…for reasons other than the agency's ability to prepare
       auditable financial statements." For fiscal year 2001, the OIG
       could not determine, through normal auditing procedures, whether
       $186 million in unliquidated obligations were needed for current
       Agency operations and whether $128 million in advances should
       be included in USAID's fiscal year 2001 financial statements.
       Therefore, the OIG disclaimed an opinion on USAID's Statement
       of Net Costs and Statement of Financing. In addition, the OIG
       expressed a qualified opinion on the Balance Sheet, Statement of
       Budgetary Resources, and Statement of Changes in Net Position.
       (See "Independent Auditor's Report on USAID's Financial
       Statements.")

•      Internal Controls – Another indicator of compliance with Federal
       accounting standards is "…no material weaknesses in internal
       controls that affect USAID's ability to prepare financial statements
       [and other related reports]…consistent with Federal accounting
       standards." We identified several material weaknesses in USAID's
       internal controls. For instance, USAID did not:

       -       record 278 grant agreements and/or amendments with an
               absolute total of $255 million in the Department of Health
               and Human Services' Payme nt Management System;

       -       record advance liquidation expenses of about $439 million;
               and

       -       have activity during fiscal year 2001 for about $186 million
               in unliquidated obligations, which may be available for
               deobligation.



                                                                      43
                           (See "Independent Auditor's Report on USAID's Internal Controls.")

                           •       Managerial Cost Information – A third indicator of compliance
                                   with Federal accounting standards is that "the agency produces
                                   managerial cost information consistent with [cost accounting
                                   standards]." However, in a March 1999 audit report, the OIG
                                   reported that USAID did not have a system to report on the full
                                   cost of Agency programs, activities, and outputs. 29 Therefore, the
                                   OIG recommended that USAID's Bureau for Policy and Program
                                   Coordination develop internal controls for identifying the full costs
                                   of USAID program, activities, and outputs. USAID is continuing
                                   to take corrective action to produce managerial cost information.

                           As a result of USAID's systems not substantially complying with Federal
                           accounting standards, the Agency's financial management systems may
                           not provide complete, accurate, reliable financial information. These
                           issues of non-compliance are discussed in other sections of this audit
                           report. We are not, therefore, making any further recommendations at this
                           time.

                           Use of United States Standard General Ledger at the Transaction
                           Level - FFMIA requires agencies to implement and maintain systems that
                           comply substantially with, among other things, the United States Standard
                           General Ledger (SGL) at the transaction level. Substantial compliance
                           with the SGL at the transaction level requires that:

                           •       Transactions be recorded in full compliance with the SGL Chart of
                                   Account's descriptions and posting models or attributes that
                                   demonstrate how the SGL is to be used for recording transactions
                                   of the Federal government accounting process;

                           •       Reports produced by the systems provide financial information that
                                   can be traced directly to the SGL accounts; and

                           •       Transactions from feeder systems, which may be summarized and
                                   interfaced into the core financial system's general ledger, be posted
                                   following SGL requirements.




        29
                   Report to USAID Managers on Selected USAID Internal Controls (Report No. 0-000-99-002-F,
March 31, 1999).



                                                                                                              44
                          The OIG determined that USAID did not substantially comply with the
                          SGL at the transaction level. Specifically, USAID did not record mission
                          activities—accounting for approximately 52 percent of USAID's total net
                          cost of operations—using the SGL at the transaction level. 30 This
                          occurred because USAID recorded mission activities in the Mission
                          Accounting and Control System (MACS)—a computer-based system that
                          did not have an SGL Chart of Accounts. Instead, MACS used transaction
                          codes that did not match to the SGL Chart of Accounts.

                          During the fourth quarter of fiscal year 2001, USAID implemented, as part
                          of the monthly closing process, a process to crosswalk MACS transactions
                          to the SGL. In that process, every month USAID extracted mission
                          transactions for MACS transaction codes. USAID electronically
                          transferred those transactions to an auxiliary ledger that summarized and
                          electronically cross-walked the MACS transaction codes to transaction
                          codes in the core financial system. Each transaction code in the core
                          financial system is correlated to SGL accounts. USAID then records those
                          summarized results into the core accounting system's general ledger.

                          According to Office of Management and Budget officials, while USAID's
                          process may be a good interim solution until the Agency has an integrated
                          financial management system, the process did not allow the Agency to be
                          substantially compliant with the SGL at the transaction level. As a result,
                          USAID cannot ensure that transactions are posted properly and
                          consistently from mission to mission.

                          Therefore, USAID needs to record mission activities using the SGL at the
                          transaction level to support financial reporting and meet requirements.
                          However, until USAID deploys its core financial system worldwide,
                          MACS will continue to operate as the financial system for overseas
                          missions. Although USAID estimates in the Agency's Capital Asset Plan
                          that worldwide deployment of the core financial system will not begin
                          until fiscal year 2008, USAID has begun to conduct a study to identify
                          opportunities for improving the Agency's financial management areas.
                          According to one Agency official, that study will include a determination
                          of when and how USAID should deploy the core financial system
                          overseas. Accordingly, we are not making any recommendations at this
                          time.




        30
                   USAID did not record the Agency's non-expendable property activities using the SGL at the
transaction level. However, non-expendable property was immaterial to the financial statements for fiscal year
2001.


                                                                                                            45
                          Remediation Plan - Although USAID has made progress in becoming
                          FFMIA compliant, the Agency did not fully meet four of the six 31 major
                          targets established in the USAID's remediation plan for completion in
                          fiscal year 2001. 32 This occurred primarily because USAID:

                          •        continued to maintain a fragmented organizational structure, that
                                   did not assign USAID's Chief Financial Officer the responsibility
                                   and authority to manage all financial management systems; and

                          •        did not fully plan the remedies needed to make USAID's financial
                                   management systems compliant with FFMIA.

                          As a result, USAID may not meet the Agency's overall goal of becoming
                          substantially compliant with FFMIA by the fourth quarter of fiscal year
                          2003. The following paragraphs discuss this issue in detail.

                          Office of Management and Budget CircularA-11 states that an agency that
                          is not in compliance with FFMIA must prepare a remediation plan. The
                          purpose of a remediation plan is to identify activities planned and
                          underway that will allow USAID to achieve substantial compliance with
                          FFMIA. Remediation plans must include the resources, remedies, interim
                          target dates, and responsible officials. Further, the remediation target date
                          must be within three years of the date from the time when the system was
                          determined to be not substantially compliant.

                          As shown in the table below, USAID achieved only two of the six
                          remediation targets for fiscal year 2001 and dropped a third, stating that
                          the requirement was no longer needed to bring the Agency into substantial
                          compliance with FFMIA. USAID generally cited budget constraints,
                          unplanned additional work, and new strategies as the reasons that the
                          Agency did not meet the milestones for the remaining three targets.
                          However, USAID did partially complete one of the targets by automating
                          the interface between the core financial system and the procurement
                          system. Additionally, USAID stated that they had begun taking steps to
                          resolve weaknesses in the (1) primary accounting and (2) reporting and
                          resource management capabilities, as discussed in other sections of this
                          report.




        31
                    The remediation plan had six major milestones for fiscal year 2001. However, USAID dropped
one, stating that the requirement was not needed to bring the Agency's systems into substantial compliance with
FFMIA.
          32
                    We reviewed the remediation plan in USAID's FY 2000 Accountability Report.


                                                                                                                  46
                                                           Table 3
                                               USAID's Targets for Fiscal Year 2001

                                                                                 Target Date in
                                             Remedy                   Target      Remediation     Revised Target
                                                                     Achieved?          Plan           Date33
                           1      Electronically interface                         4 th Qtr FY      1 st Qtr FY
                                  feeder systems with core             No34            2001             2002
                                  financial management system
                           2      Resolve weakness in Agency’s                    4 th Qtr FY      3 rd Qtr FY
                                                                            35
                                  (1) primary accounting and           No             2001             2002
                                  (2) reporting and resource
                                  management capabilities
                           3      Implement the core financial
                                  system that calculates and
                                  reports accounts payable and          No        1 st Qtr FY         1 st Qtr
                                  accrual expenses in                                 2001           FY2002
                                  compliance with Federal
                                  requirements and standards.
                           4      Integrate core financial system      Yes        1 st Qtr FY      Completed
                                  in USAID/Washington                                 2001
                           5      Interface Mission data via the
                                  MACS Auxiliary Ledger with
                                  core financial system to support     Yes        4 th Qtr. FY     Completed
                                  the Accounting Classification                        2001
                                  Structure upper level general
                                  ledger postings
                           6      Implement Enterprise Solution
                                  Integration Lab (prototype                                         N/A –
                                  testing) and associate system         No        3 rd Qtr. FY    Requirement
                                  engineering practices to                            2001         Dropped
                                  perform solution demonstration


                         As described in detail below, the primary reasons that USAID did not
                         fully achieve three of the six targets were that:

                         •        USAID continued to maintain a fragmented organizational
                                  structure that did not assign the Agency's Chief Financial Officer
                                  the responsibility and authority to manage all financial
                                  management systems; and

                         •        USAID did not fully plan the remedies needed to make the
                                  Agency's financial management systems compliant with FFMIA.




        33
                  These dates were taken from USAID’s Capital Asset Plan. At the time of our review, USAID had
not completed the Agency's revised remediation plan. However, an Agency official stated that the Capital Asset
Plan contained the same information that would be presented in the remediation plan.
        34
                 USAID completed some of the electronic interfaces during fiscal year 2001.
        35
                 USAID has taken some steps to correct these weaknesses.


                                                                                                                 47
                          Organizational Structure – In a March 1999 audit report, the OIG
                          reported that USAID had not delegated to the Chief Financial Officer
                          (CFO) the responsibility and authority to develop and maintain an
                          integrated financial management system, as required by the CFO Act of
                          1990.36 Therefore, the OIG recommended that USAID's CFO collaborate
                          with other offices to determine the specific responsibility, authority, and
                          resources needed to meet the requirements under the CFO Act, including
                          FFMIA. Although USAID has taken some corrective actions, the most
                          significant—reorganization—has not yet taken place. Consequently,
                          USAID ended up with deficiencies that affected USAID's ability to meet
                          the targets established in the remediation plan.

                          For example, due to USAID's fragmented organizational structure and a
                          lack of integrated planning, USAID did not achieve the target of
                          performing certification and accreditation at mission accounting stations in
                          fiscal year 2001. Specifically, the CFO's system work group was tasked to
                          perform the certification and accreditation of mission accounting sys tems,
                          which was dependent on Bureau for Management's Information Resource
                          Management Division (the Division) concurrently performing risk
                          assessments. However, one CFO official stated that the Division did not
                          adequately budget for the risk assessments and, thus, USAID did not have
                          enough funds to complete the planned activities. The audit also noted that
                          USAID's Capital Asset Plan37 as of October 2001 did not disclose the
                          Division's cost to perform risk assessments, which again was not funded in
                          fiscal year 2002.

                          In addition, USAID's general control weaknesses have had an impact on
                          the Agency's ability to become FFMIA compliant. The Clinger-Cohen
                          Act of 1996 makes the head of the agency, in consultation with the CFO
                          and the Chief Information Officer, accountable for establishing policies
                          and procedures that ensure that:

                          •        the agency’s information systems provide financial or program
                                   performance data for agency financial statements;

                          •        financial and performance data are provided to financial
                                   management systems in a reliable, consistent, and timely manner;
                                   and




        36
                 Reports on USAID's Financial Statements, Internal Controls, and Compliance for Fiscal Year
1999 (Report No. 0-000-99-001-F, March 1, 1999).
        37
                   At the time of our review, USAID had not completed the Agency's revised remediation plan.
However, an Agency official stated that the Capital Asset Plan contained the same information that would be
presented in the remediation plan.


                                                                                                               48
•      financial statements support assessments and revisions of mission
       and administrative processes, and measurements of the
       performance of technology investments.

The CFO stated that his position in USAID does not provide him the
responsibility for implementing remedies that address general controls.
USAID's Administrator has designated the Chief Information Officer to be
responsible for planning and budgeting activities for information
technology-related investments. Therefore, USAID's CFO did not have
control over the resources to correct the general control weaknesses and is
dependent on the Chief Information Officer to become compliant with
FFMIA. Although this weakness was not a fiscal year 2001 milestone it
will effect future year compliance with FFMIA.

Remedies - USAID's remediation plan did not fully address all remedies
needed to become FFMIA compliant. Specifically, the plan did not
address deployment of USAID's core financial system worldwide to
comply with SGL requirements, as discussed below.

USAID's remediation plan did not fully address compliance with the SGL
at the transaction level. As discussed in the "Use of United States
Standard General Ledger at the Transaction Level" section, USAID did
not record the Agency's mission activities using the SGL at the transaction
level. Agency officials believed that an interim measure would make the
system SGL compliant, and revised the target to start worldwide
deployment of the core financial system from fiscal year 2002 to 2008.
However, Office of Management and Budget officials stated that USAID's
interim measure did not make the Agency compliant with FFMIA. Upon
being notified of the Office and Management Budget's position, USAID
officials decided to revise the strategy for making the Agency compliant
with FFMIA requirements. (For more details, see "Use of United States
Standard General Ledger at the Transaction Level" section.)

As a result of the problems discussed above, USAID may not meet the
overall goal to become substantially compliant with FFMIA by the fourth
quarter of fiscal year 2003. Although USAID named the Chief Financial
Officer as the official who would be responsible for implementing the
FFMIA remediation plan, USAID's CFO does not have sufficient
authority to complete remedial actions. Therefore, the CFO needs to work
collaboratively with the Chief Information Officer to meet the targets in
USAID's remediation plan. We are, therefore, making the following
recommendation to help USAID improve its remediation plan.




                                                                    49
                            Recommendation No. 7: We recommend that USAID's
                            Chief Financial Officer, in collaboration with USAID's
                            Chief Information Officer, revise the remediation plan to
                            identify sufficient resources and remedies to make USAID's
                            systems substantially compliant with the Federal Financial
                            Management Improvement Act of 1996.


                        Computer Security Act

                        The Computer Security Act of 1987 (Public Law No. 100-235) requires
                        Federal agencies to protect information by (1) identifying sensitive
                        systems, (2) developing and implementing security plans for sensitive
                        systems, and (3) establishing a training program to increase security
                        awareness and knowledge of accepted security practices. To further
                        improve program management and evaluations of agencies' computer
                        security efforts, the Government Information Security Reform Act (Public
                        Law No. 106-398) was passed in October 2000.

                        Over the past four years, the OIG has conducted several audits related to
                        the security and general controls of USAID's information systems, as
                        described below. Nevertheless, USAID has continued to have many
                        serious deficiencies in the Agency's security program.

                        In a September 1997 audit report, 38 the OIG found that USAID did not
                        implement an effective computer security program as required. These
                        deficiencies occurred because USAID did not implement an adequate
                        system of management controls to support an effective computer security
                        program. As a result, USAID was exposed to high risk that resources
                        would not be adequately protected from fraud or misuse.

                        Additionally, during a series of audits conducted during fiscal year 1999, 39
                        the OIG found that USAID had not implemented effective general controls
                        over its mainframe, client server, and USAID Mission computer systems.
                        A primary reason for USAID's ineffective general controls is that USAID
                        did not have an Agency-wide security program that includes clear security
                        responsibilities and Agency-wide security processes.

        38
                Audit of USAID's Compliance with Federal Computer Security Requirements (Audit Report
No. A-000-97-008-P, September 30, 1997).
        39
                 Audit of USAID/Peru's General Controls Over the Mission Accounting and Controls System
(Audit Report No. 527-99-001-P, December 30, 1998); Audit of Access and System's Software Security Controls
Over the Mission Accounting and Control System (MACS) (Audit Report No. A-000-99-002-P, December 31,
1998); Audit of USAID's Progress Implementing a Financial Management System That Meets Federal Financial
Management Improvement Act Requirements (Audit Report No. A-000-99-003-P, March 1, 1999); Audit of General
Controls Over USAID's Mainframe Computer Environment (A-000-99-004-P, March 1, 1999); and Audit of
General Controls Over USAID's Client -Server Environment (A-000-99-005-P, March 1, 1999).


                                                                                                              50
                          Finally, in a September 2001 audit report, 40 the OIG found that USAID
                          had not fully implemented an effective 41 security program for the
                          Agency's information systems. Although USAID had made significant
                          progress in developing an information systems security program, the
                          Agency had not implemented a program that allows USAID officials to
                          comprehensively manage the risks associated with USAID's operations
                          and systems. Specifically, USAID had not:

                          •        enforced its policies and procedures to ensure appropriate
                                   implementation, and

                          •        provided adequate guidance to incorporate security into some of
                                   USAID's information technology processes.

                          The primary reason for the deficiencies was that USAID had not
                          implemented a centralized function that had oversight and ensured that
                          USAID met security requirements. Such deficiencies exposed USAID to
                          unacceptable risks that resources would not adequately be protected. The
                          OIG made ten recommendations to correct deficiencies identified in
                          USAID's security program for information systems.

                          As part of this audit effort, the OIG reviewed the status of
                          recommendations from the audit reports discussed above. Although
                          USAID has taken some corrective actions, many deficiencies still exist.
                          Specifically, USAID needs to take corrective action for
                          17 recommendations from the above reports. For example, USAID needs
                          to develop and implement an effective computer security program by:

                          •        ensuring that adequate resources and skills are available to
                                   implement the program,

                          •        preparing security plans,

                          •        completing contingency/disaster recovery plans.




        40
                Audit of USAID's Compliance with the Provisions of the Government Information Security
Reform (Audit Report No. A-000-01-002-P, September 25, 2001).
        41
                 For that audit, effective was defined as designing controls that are properly implemented and
working as intended.



                                                                                                            51
                          USAID has reported the Agency's computer security program as a
                          material weakness 42 since 1997. USAID currently estimates that the
                          computer security weaknesses will be fully corrected in September 2003.

                          Providing an opinion on compliance with certain provisions of laws and
                          regulations was not an objective of our audit and, accordingly, we do not
                          express such an opinion.




                          Office of the Inspector General
                          February 25, 2002




        42
                   USAID identified this as a material weakness in the Agency's Federal Manager's Financial
Integrity Act review.


                                                                                                              52
This page left intentionally blank




                                     53
Management       We received USAID’s management comments and suggested changes to
Comments and     the findings and recommendations included in our draft report. USAID
                 management agreed with all findings and recommendations and has acted
Our Evaluation   on recommendation No. 2. Management commented that
                 recommendation No. 2 and No. 4 cannot be fully implemented until a
                 worldwide integrated financial management system is deployed. We
                 have evaluated USAID management comments on the recommendations
                 and have reached management decisions on all seven recommendations.
                 We have also made the suggested changes where deemed necessary. The
                 following is a brief summary of USAID’s management comments on
                 each of the seven recommendations included in this report and our
                 evaluation of those comments.

                 Recommendation No. 1

                 USAID management agreed with recommendation No. 1 and commented
                 that they will establish the necessary general ledger control account and
                 complete the necessary reconciliation on a monthly basis. USAID will
                 establish a reasonable time period for resolving all reconciling items. We
                 agree with USAID management decision regarding recommendation No. 1
                 and plan to review this general ledger control account and USAID’s
                 reconciliation process during our fiscal year 2002 GMRA audit.

                 Recommendation No. 2

                 USAID management agreed with recommendation No. 2 and commented
                 that they have in fact acted to eliminate the backlog of unrecorded grant
                 agreements and/or modifications. USAID management noted that because
                 the Agency does not have a financial management system where its
                 overseas procurement/assistance actions are integrated with the accounting
                 system, USAID cannot develop an automated interface with DHHS’
                 Payment Management System that will ensure that a backlog does not
                 occur in the future. USAID management further commented that the
                 agency will look at ways to improve the workflow between its field
                 offices, Washington, and DHHS’ Payment Management System to include
                 allowing Grant and Procurement Officers at its missions access to the
                 Payment Management System.

                 At the end of FY 2001, USAID established a “central e- mail box” for
                 mission Grant Officers to send, electronically, all new grants and/or
                 modifications to its Washington Office of Financial Management. USAID
                 believes that this electronic submission of new grants and/or modifications
                 will allow its Washington Office of Financial Management to update the
                 DHHS’ Payment Management System in a timely manner. We agree with
                 USAID management’s decision regarding recommendation No. 2 and plan
                 to review this new “central e-mail box” process and the ways USAID has


                                                                                               54
improved the recording of its new grants and/or modifications during our
fiscal year 2002 GMRA audit.

Recommendation No. 3

USAID management agreed with recommendation No. 3 and commented
that they will take the necessary actions in fiscal year 2002 to review the
unliquidated obligations identified by our audit. USAID management
further commented that the Agency would conduct the necessary analysis
to determine the correct accounting classification of the unliquidated
balance of the expired obligations identified by our audit finding. We
agree with USAID management’s decision regarding recommendation No.
3 and plan to conduct a separate audit of USAID unliquidated obligations
during fiscal year 2002 and will also determine the impact of USAID
analysis and classification of the identified expired obligations during our
fiscal year 2002 GMRA audit.

Recommendation No. 4

USAID management commented that they agreed with the intent of
recommendation No. 4. However, ma nagement commented that the
Agency could not implement this recommendation until a worldwide
integrated accounting system is deployed. USAID management also noted
that accounts receivable is an immaterial item on its financial
statements $31 million. Therefore, pending deployment of a worldwide
system, USAID will continue to rely on data calls to obtain accounts
receivable data for financial statement preparation purposes.

We believe that USAID’s claim that accounts receivable is immaterial is
incorrect. The accounts receivable amount reported by USAID, before
adjustments, for fiscal year 2001 was more than our testing materiality
threshold of $75 million. Further, as reported, USAID’s process for
accounting for and reporting accounts receivable does not allow the
Agency to recognize receivables at the time they occur. We agree with
USAID management’s decision regarding recommendation No. 4 and plan
to continue review USAID’s annual accounts receivable process if we
determine that the amount reported in the financial statements is material.




                                                                     55
Recommendation No. 5

USAID management agreed with this recommendation and commented
that they will issue the appropriate guidance to its overseas accounting
stations regarding documentation retention requirements in fiscal year
2002. We agree with management’s decision regarding recommendation
No. 5 and will review these instructions and their implementation during
our fiscal year 2002 GMRA audit.

Recommendation No. 6

USAID management agreed with recommendation no. 6 and commented
that reporting from Phoenix and the MACS Auxiliary Ledger is one of the
priority work areas for the Financial Systems Team in fiscal year 2002.
We agree with management's decision regarding recommendation no. 6.
During our fiscal year 2002 GMRA audit, we will review USAID’s
actions taken.

Recommendation No. 7

USAID management agreed with recommendation no. 7 and commented
that USAID will make the necessary changes to the remediation plan
based on the results of the Agency's business transformation study being
conducted under the direction of the USAID Business Transformation
Executive Committee. We agree with management's decision regarding
recommendation no. 7. During the fiscal year 2002 GMRA audit, we will
follow-up on the status of USAID’s corrective actions.


See Appendix II for USAID’s management comments.




                                                                           56
This page left intentionally blank
                                                                                                    Appendix I


Scope and                          Scope
Methodology
                                   This audit was conducted in accordance with generally accepted
                                   auditing standards. Following those standards, we assessed the
                                   reliability of USAID’s Fiscal Year 2001 financial statements,
                                   related internal controls, and compliance with provisions of
                                   applicable laws and regulations.

                                   We obtained an understanding of the account balances reported in
                                   USAID’s FY 2001 financial statements. We determined whether
                                   the amounts were reliable, whether applicable policies and
                                   procedures were established, and whether they had been placed in
                                   operation to meet the objectives of the Federal Accounting
                                   Standards Advisory Board and other regulations. We considered
                                   all reasonable efforts made by USAID’s management to improve
                                   its financial management and respond to our previous
                                   recommendations relating to the operations of its financial
                                   portfolio.

                                   We statistically selected and reviewed FY 2001 financial
                                   statements and financial related activities at USAID/Washington
                                   and 10 USAID missions 43 . A planning materiality threshold of
                                   five percent and testing materiality threshold of three percent was
                                   calculated. These materiality thresholds were based on USAID FY
                                   2000 total assets net of intergovernmental balances. Any amount
                                   over $75 million was considered material and included in our
                                   review of USAID’s FY 2001 financial statements. All exceptions
                                   were considered in the aggregate to determine whether USAID’s
                                   FY 2001 financial statements were reliable.

                                   With respect to the MD&A, we judgmentally selected and
                                   reviewed FY 2001 performance results data reported to
                                   USAID/Washington by its operating units. We did not assess the
                                   quality of the performance indicators but attempted to verify the
                                   accuracy of data in the MD&A and performed only limited tests to
                                   assess the controls established by USAID. With respect to
                                   performance measures reported in the MD&A, we were unable to
                                   obtain a complete understanding of the design of the related
                                   significant internal controls because USAID’s management did not
                                   disclose all sources of performance results data to us in a timely
         43
                  The ten missions selected were USAID: Kiev, Budapest, India, Nepal, Cairo, Pretoria, Ghana,
 Mali, Kenya, and Nicaragua. USAID/Nepal was not visited because of political unrest in that country.
 USAID/Nigeria was visited as part of our review of USAID/Ghana and USAID/Moscow was substituted for
 USAID/India during the testing phase of the audit.



                                                                                                                 58
manner. However, after applying the limited tests in regards to the
measurement and presentation of performance results reported in
the MD&A, we identified certain deficiencies that, in our
judgment, adversely affected USAID's portrayal of performance
results as required by prescribed guidelines.

Methodology

In accomplishing our audit objectives, we reviewed significant line
items and amounts related to USAID’s fiscal year 2001 financial
statements. These financial statements include Balance Sheet,
Statement of Net Cost, Statement of Changes in Net Position,
Statement of Budgetary Resources, and Statement of Financing.
To accomplish the audit objectives we:

•   Obtained an understanding of the components of internal
    control and assessed the level of control risk relevant to the
    assertions embodied in the class of transactions, account
    balances, and disclosure components of the financial
    statements;

•   Performed tests of compliance with laws and regulations that
    could have a direct and material effect on USAID’s financial
    statements including FFMIA;

•   Conducted detailed audit tests of selected account balances at
    USAID/Washington and the 10 statistically selected missions;

•   We statistically selected and confirmed outstanding advances
    to grantees and selected direct loan balances.

•   Reviewed prior audit reports related to USAID financial
    activities and determined their impact of USAID’s fiscal year
    2001 financial statements;

•   Conducted meetings with USAID management, employees,
    contractors, grantees, and other parties associated with the
    information presented in the fiscal year 2001 financial
    statements;




                                                                59
•   Followed up on previous financial statement audit
    recommendations and restated those recommendations that
    were not implemented by USAID management; and

•   Conducted a limited review of the components of internal
    controls related to the existence and completeness assertions
    relevant to the performance measures included in the MD&A.




                                                                    60
This page left intentionally blank.
                                                                         Appendix II


USAID’s
Management
Comments
             U.S. AGENCY FOR
             INTERNATIONAL
              Development


                                                             February 21, 2002
              MEMORANDUM

              TO:              IG/A/FA, Alvin A. Brown

              FROM:            M/FM, Elmer S. Owens, Acting CFO/s/

              SUBJECT: Draft Report on the Audit of USAID's Consolidated
                       Financial Statements, Internal Controls, and Compliance for
                       FY2001 (Report No. 0-000-02-003-F)

                      Thank you for the opportunity to respond to the subject draft
              report. We are very pleased that you are able to issue qualified opinions
              on three of USAID's five principal financial statements, and appreciate
              your recognition of the progress that the Agency has made in addressing
              financial accounting deficiencies. I would also like to express my sincere
              appreciation for the professional and cooperative manner that your audit
              team displayed throughout the audit. This memo includes our comments
              on your draft report, suggestions for changes, and our management
              decisions regarding proposed recommendations.

              Independent Auditor's Report on Internal Controls

                      The paragraph on Page 12 that discusses the $439 million
              difference between the general ledger and subsidiary ledger should
              include a statement that USAID reconciled all but $62 million of the
              difference and that the IG was able to verify this reconciliation.

                      We agree with the three parts of Recommendation No. 1. We
              will establish the necessary general ledger control account and complete
              the necessary reconciliation on a monthly basis. However, with regard to
              Recommendation 1.3, it will in all likelihood not be possible to “resolve”
              all reconciling items at the end of the month in which they first occur.
              USAID will establish a reasonable time period for resolving all
              reconciling items.



                                                                                           62
        The discussion on Page 13 of the $155 million in expenses that
could not be recorded into the Department of Health and Human
Services’ (DHHS) Payment Management System (PMS) by some
grantees need to be expanded to clarify for the reader why these advance
liquidations could not be recorded. Also, please include a statement that
USAID made an adjusting entry to recognize the $155 million in
expenses.

         The paragraph on Page 13 that describes the 278 grant agreements
and/or modification not entered in DHHS’ PMS contains a sentence that
states that this problem occurred because USAID does not have a
worldwide integrated financial management system. This statement
should to be expanded to clarify that the worldwide system the audit
reports is referring to is a integrated system that includes both the
procurement and assistance systems and that it is not referring to just the
accounting system.

        We agree with Recommendation 2.1 and have in fact taken
action to eliminate the backlog. It should be eliminated within the next
month. However, because the Agency does not yet have a financial
management system where overseas procurement/assistance actions are
integrated with the accounting system, we cannot develop an automated
interface with DHHS’ PMS that will “ensure” (Recommendation 2.2)
that a backlog does not occur in the future. We will look at ways to
improve the workflow between field offices, Washington, and DHHS’
PMS, including looking into the alternative of giving field offices input
access to PMS. For example, at the end of FY 2001 we established a
central e-mail box for grantee officers to send new grant agreements or
modifications. If the documents are sent electronically to the mailbox,
the time lost through the pouch mail system will be done away with and
PMS will be updated in a timely manner. Given the foregoing, please
modify Recommendation 2.2.

        We agree with Recommendation No. 3 and will take the
necessary action in FY 2002 to review the unliquidated obligations
identified by this finding. In this regard, it should be noted that the
amount identified by the Agency as requiring review is about $150
million or some $36 million less than the amount identified in the audit
report. The Office of Financial Management, in consultation with the
responsible bureaus/offices, will do the necessary analysis to determine
the correct accounting classification of the unliquidated balance of the
expired obligations identified in this finding.

        We agree in general with the intent of Recommendation No. 4,
but until we deploy the core financial system worldwide; The Agency



                                                                    63
cannot implement the recommendation. We are taking this position
because Accounts Receivable for USAID is small in comparison to our
other assets. In fact, as of September 30, 2001 accounts receivables were
only $31 million, which includes $11 million in credit program fee
receivables. Therefore, pending deployment of a worldwide system,
USAID will have to continue to rely on periodic data calls to obtain total
accounts receivable data for financial statement preparation purposes.
We will institute more frequent data calls to comply with the new semi-
annual and quarterly unaudited financial statement requirements starting
in FY 2002.

       The first paragraph under the discussion of mission accounts
payable discussed the estimated $165 million that these payables were
determined to be overstated. Please include a statement tha t USAID
made an adjusting entry for this amount and that you concur with this
adjustment.

         The final paragraph on Page 19 states that accounts payable at the
mission visited by the auditors were ineffective. I believe that this
statement needs to be clarified. It is my understanding that the finding
relates to the weaknesses in the documentation supporting the accrual
calculations in some of the missions visited that caused the auditors to
recommend a $165 million adjusting entry.

        We agree with Recommendation No. 5. We will issue
appropriate guidance to overseas accounting stations regarding document
retention requirements during FY 2002.

Independent Auditor's Report on Compliance with Laws and
Regulations

        It is our understanding that the findings related to compliance
with the Federal Financial Management Improvement Act are based on
the system as it was operated during FY 2001. Further, we understand
that the report does not consider actions taken or planned for FY 2002
nor does it take into consideration manual controls or work-around
implemented to mitigate risk in drawing its conclusion. Given this
understanding, we will not take issue with the finding and
recommendations. However, it should be noted we implemented
adequate manual controls during FY 2001 that prevented any obligations
or expenditures in excess for funds appropriated or appropriated. This is
evidenced by the fact that the audit did not detect any cases where the
Agency violated these restrictions.




                                                                              64
        The draft report identifies Reports as an area of non-compliance
with federal system requirements. We agree with Recommendation No.
6. Reporting from Phoenix and the MACS Auxiliary Ledger is one of
our priority work areas for the Financial Systems Team in FY 2002. In
fact, we are planning to issue an Agency Notice the first week of March
announcing that the first set of financial reports available to
USAID/Washington on Crystal Enterprise. In conjunction with M/IRM
we will be sending out a notice on how people can access the reports in
Crystal Enterprise.

        Recommendation No. 7 makes recommendations regarding the
revision of the remediation plan. We agree with this recommendation
and will make the necessary changes based on the results of the current
business transformation study being conduction under the direction of the
USAID Business Transformation Executive Committee.

       Finally, once again like to thank you for the opportunity to
comment on the draft report and to express my appreciation for the
cooperation extended by your entire audit team.

CC:
AA/M, J. Marshall
DAA/M, R. Nygard
AA/PPC, P. Cronin
DAA/PPC, B. Turner
PPC/PC, L. Waskin
PPC/CDIE/OME, D.Blumhagen
M/FM/CAR, D. Ostermeyer
M/MPI/MIC, S. Malone-Gilmer
M/MPI/MIC, S. Stiens
M/FM, N. Wijesooriya




                                                                      65
                                                                                Appe ndix III



Other System
Weaknesses     The audit identified other control weaknesses in USAID's implementation
               of its core financial system, as described below.

               Payment history not migrated – JFMIP-SR-02-01, Core Financial System
               Requirements, "Payment Management Function," requires systems to
               maintain among other things, a history of invoice number, vendor name,
               payment amount, payment date, obligation number, and appropriation
               charged. Before implementing the new core financial system, USAID
               migrated only summary level information from the previous core financial
               system.

               As a result, USAID's new core financial system did not contain detailed
               payment history, thus increasing the risk of duplicate payments. According
               to Agency officials, USAID decided that payment information would be
               migrated at the summary level because migrating all transactions would have
               required more staff support, thereby significantly increasing the time and
               costs of the migration. Further, the detailed information would be maintained
               in the old accounting system and contract payment files to serve as mitigating
               controls. USAID officials noted that the cost of migrating detailed
               information might outweigh the benefit. Further, this control risk will be
               reduced over time as the financial system generates a payment history.
               Therefore, we are not making a recommendation at this time.

               Accruals off-line – JFMIP-SR-02-01, Core Financial System Requirements,
               "General Ledger Management Function," requires that systems provide for
               accruals relating to contracts or other items that cross fiscal years. For fiscal
               year 2001, USAID calculated the Agency's accruals manually because the
               Agency had problems with (1) unliquidated obligations balances, and
               (2) contract and grant completion dates—two factors needed to automatically
               calculate accruals. As a result, USAID's system did not control and execute
               the period-end processes needed for reporting purposes. USAID is aware of
               the problem and is cleaning up the data used in the accrual process. For
               instance, according to Agency officials, USAID successfully reviewed over
               85 percent of its obligations. In addition, beginning in fiscal year 2002,
               USAID plans to use an online tool that will allow accrual information to be
               loaded to a web-site for review. We, therefore, are not making any
               recommendations at this time.




                                                                                                   66
This page left intentionally blank.
                                                                           Appendix IV




Status of           Office of Management and Budget’s Circular No. A-50 states that a
Uncorrected         management decision on audit recommendations shall be made
Findings and        within a maximum of six months after issuance of a final report.
Recommendations     Corrective action should proceed a rapidly as possible. The
                    following audit recommendations directed to USAID remain
from Prior Audits   uncorrected and/or final action has not been completed as of
that affect the     September 30, 2001. We have also noted where final action was
Current Audit       taken subsequent to fiscal year-end but prior to the date of this report.
Objectives
                    Audit of USAID’s Compliance with
                    Federal Computer Security Requirements
                    Audit Report No. A-000-97-008-P September 30, 1997

                    Recommendation No. 2:         We recommend that the Acting
                    Assistant Administrator for Management demonstrate support for
                    an effective computer security program by taking action to direct
                    the computer security program manager to develop and implement
                    an effective computer security program by:

                    2.2     Ensuring that adequate resources and skills are available to
                            implement the program.

                    2.4     Implementing disciplined processes to ensure compliance
                            with the Computer Security Act of 1987 and OMB Circular
                            A-130.

                    2.5     Bringing sensitive computer systems, including NMS, into
                            compliance with computer security requirements by: (1)
                            assigning security responsibility, (2) preparing security
                            plans, (3) completing contingency/disaster recovery plans,
                            (4) identifying technical controls, (5) conducting security
                            reviews, and (6) obtaining management’s authorization
                            before allowing systems to process data.

                    Recommendation is pending final action by USAID




                                                                                                68
Reports on USAID'S Financial Statements,
Internal Controls, and Compliance
for Fiscal Years 1997 and 1996
Audit Report No. 0-000-98-001-F March 2, 1998

Recommendation No. 5:          We recommend that the Assistant
Administrator/Bureau for Policy and Program Coordination establish
a common set of indicators for use by operating units to measure
progress in achieving USAID's strategic goals and objectives and that
allow for the aggregation of program results reported by operating
units.

Recommendation is pending final action by USAID

Recommendation No. 7:         We recommend that USAID:

7.1    Establish procedures to ensure (1) operating units report
       results for the year ended September 30 and (2) results
       reported in the MD&A section of USAID's financial
       statements and Annual Performance Report be clearly shown
       as achievements for that year.

Recommendation is pending final action by USAID


Recommendation No. 9:          We recommend that the Chief
Financial Officer develop and implement policies and procedures to
ensure adherence to the requirements of the Debt Collection Act of
1982 and the Debt Collection Improvement Act of 1996. These
policies and procedures should at a minimum ensure that:

9.1    All billing offices incorporate due process rights into demands
       for payment;

9.2    All delinquencies in excess of 180 days are identified in a
       timely manner, and referred to the United States Treasury; and

9.3    The issuance or guarantee of consumer credit is reported to
       consumer credit reporting agencies.

Recommendation is pending final action by USAID




                                                               69
Audit of Access and System Software Security Controls
Over the Mission Accounting and Control System (MACS)
Audit Report No. A-000-99-002-P December 31, 1998

Recommendation No. 1:         We recommend that the Director of
IRM strengthen MACS’ access and system software controls by
developing and implementing standards for access and system
software installation and maintenance. These standards should
implement the agency’s policies pertaining to access and system
software controls and thus, provides step-by-step guidance to
mission system managers in the implementation of these controls.
These standards should specifically address the controls described
in GAO’s Federal Information System Controls Audit Manual.

Recommendation is pending final action by USAID


Report on USAID’s Financial Statements,
Internal Controls, and Compliance for Fiscal year 1998
Audit Report No. 0-000-99-001-F March 1, 1999

Recommendation No. 1:           Because the Chief Financial Officer
lacks the authority called for in the CFO Act, we recommend that
the Chief Financial Officer collaborate with the Assistant
Administrator for Management, Chief Information Officer, and
Bureau For Policy and Program Coordination to:

1.1    Determine the specific responsibility, authority, and
       resources needed to meet the requirements of the Chief
       Financial Officers Act of 1990, which assigns the Chief
       Financial Officer responsibility to: (1) develop and maintain
       an integrated accounting and financial management system
       that meets federal financial system requirements, federal
       accounting standards, and the U.S. Standard General Ledger
       at the transaction level; (2) approve and manage financial
       management system design and enhancement projects; and
       (3) develop a financial management system that provides for
       systematic measurement of performance.

Recommendation is pending final action by USAID




                                                                       70
Report to USAID Managers on Selected
USAID Internal Controls for Fiscal year 1998
Audit Report No. 0-000-99-002-F March 31, 1999

Recommendation No. 10: We recommend that USAID’s Bureau
for Policy and Program Coordination:

10.2   Develop internal controls for identifying the full costs
       (USAID program and operating expenses and funding by
       other donors and host countries) of USAID programs,
       activities, and outputs.

Recommendation is pending final action by USAID

Audit on USAID’s Advances and
Related Internal Controls Audit Report
No. 0-000-00-003-F, February 1, 2000

Recommendation No. 3:          We recommend that the Office of
Financial Management perform a reconciliation to verify the
accuracy of unliquidated obligation balances and related
information transferred to the Department of Health and Human
Services.

Recommendation is pending final action by USAID

Recommendation No. 4:         We recommend that the Office of
Financial Management perform periodic reconciliations between its
subsidiary ledger and general ledger.

Recommendation is pending final action by USAID.

Audit of USAID’s Actions to Correct Financial
Management System Planning Deficiencies
Audit Report No.A-000-00-003-P August 24, 2000

Recommendation No. 1:         We recommend that the Chief
Information Officer, in conjunction with the Capital Investment
Review Board and the Chief Financial Officer:

1.1    Develop and implement a process for selecting information
       technology investments that meets requirements of OMB’s
       guidelines for Selecting Information Technology Investments
       and GAO’s Executive Guide: Leading Practices in Capital
       Decision Making; and




                                                             71
1.2     Apply the process to prioritize USAID’s financial
        management system investments as part of a portfolio of
        planned information technology investments as part of a
        portfolio of planned information technology investme nts for
        USAID’s fiscal year 2002 budget submission to OMB.

Recommendation is pending final action by USAID

Recommendation No. 3: We recommend that the Chief Information
Officer and the Chief Financial Officer work with the Assistant
Administrator for management to ensure that the Change
Management Team and the Office of Financial Systems Integration
collectively have the responsibilities, the authority, and the structure
to direct the planning, design, development, and deployment of all
financial and mixed financial system components of the Integrated
Financial management System Program.

Recommendation is pending final action by USAID

Audit of USAID's Fund Balance with The
U.S. Treasury And Related Internal Controls
Audit Report No. 0-000-01-005-F, February 15, 2001

Recommendation No. 1:           We recommend that USAID's Office
of Financial Management:

1.1     Continue to perform a detailed analysis of its outstanding
        reconciling items, which were reported by the overseas
        missions, and to resolve or write off the remaining reconciling
        items.

1.2     Reconcile the mission adjustment account in the general
        ledger to the cumulative amounts in the mission ledgers and
        resolve differences between the general ledger and the
        mission ledgers.

Recommendation No. 2:          We recommend that USAID's Office
of Financial Management develop and implement procedures to
obtain the necessary information needed from its overseas missions to
prepare and submit the required budgetary reports to the Office of
Management and Budget as required by the Office of Management
and Budget Circular A-34.




                                                                           72
Audit of USAID’s Compliance with the Provisions
of the Government Information Security Reform
Audit Report No. A-000-01-002-P September 25, 2001

Recommendation No. 1: We recommend that the Chief
Information Officer obtain evidence that the security requirements
have been applied to USAID’s mission critical systems. For those
systems that are operated by other agencies and organizations, the
responsible Assistant Administrator, the Chief Financial Officer,
the Director of Human Resources, or the Director of the Office of
Procurement shall provide the Chief Information Officer evidence
that proper protection exists for those systems.

Recommendation is pending final action by USAID.

Recommendation No. 2: We recommend that Chief Information
Officer provide and document that USAID employees in key
security positions obtain training to allow them to conduct their
security responsibilities.

Recommendation is pending final action by USAID.

Recommendation No. 3: We recommend that the Chief
Information Officer conduct a study to determine the feasibility of
centrally administering information security, monitoring controls,
intrusion detection, and additional sensors for sensitive systems.

Recommendation is pending final action by USAID.

Recommendation No. 4: We recommend that the Chief
Information Officer develop and implement a management
oversight process by assigning responsibility and accountability for
correcting identified information security vulnerabilities to
designated individuals. The process should include a reporting
mechanism that regularly tracks the status of all vulnerabilities,
including actions taken to correct them.

Recommendation is pending final action by USAID.

Recommendation No. 5: We recommend that the Chief
Information Officer centralize security functions to oversee,
enforce, and coordinate security and related functions.

Recommendation is pending final action by USAID.




                                                                73
Recommendation No. 6: We recommend that the Chief
Information Officer coordinate the revision of appropriate
Automated Directives System Chapters and any other supporting
guidance to include and/or clarify the government information
security reform- mandated requirements, especially those that
pertain to incorporating security into the investment process,
enterprise architecture, and contractor-provided services.

Recommendation is pending final action by USAID.

Recommendation No. 7: We recommend that the Chief
Information Officer provide instructions to program managers to
include security requirements in the information technology
investment process and report them on the Capital Asset Plan.

Recommendation is pending final action by USAID.

Recommendation No. 8: We recommend that the Chief
Information Officer finalize and approve the following four draft
documents: (1) USAID Information Systems Security Program
Plan; (2) USAID Risk Assessment Manual; (3) USAID Security
Incident Handling Response Policy and Procedures; and (4) USAID
Incident Response Capability Handbook Coordinating Draft.

Recommendation is pending final action by USAID.

Recommendation No. 9: We recommend that the Chief
Information Officer document the agency’s decision on the critical
infrastructures protection plan.

Recommendation is pending final action by USAID.

Recommendation No. 10: We recommend that the Chief
Information Officer develop specific performance measures that
include timetables and approaches to address deficiencies in its
information security program.

Recommendation is pending final action by USAID.




                                                                     74
This page left intentionally blank.




                                      75
UNAUDITED                                                      APPENDIX V
                                                                Page 1 of 66



                  UNITED STATES AGENCY for
                INTERNATIONAL DEVELOPMENT




            Consolidated Financial Statements for Fiscal Year 2001
UNAUDITED                                         APPENDIX V
                                                   Page 2 of 66




            This page left intentionally blank.
UNAUDITED                                        APPENDIX V
                                                  Page 3 of 66




                             TABLE OF CONTENTS




      Financial Highlights                       5


      Consolidated Financial Statements          9


      Supplemental Financial Information         64
UNAUDITED                                         APPENDIX V
                                                   Page 4 of 66




            This page left intentionally blank.
UNAUDITED                                                                             APPENDIX V
                                                                                       Page 5 of 66

Financial Highlights
USAID prepares consolidated financial statements that include a Balance Sheet, a Statement
of Net Cost, a Statement of Changes in Net Position, a Statement of Budgetary Resources,
and a Statement of Financing. These statements summarize the financial activity and
position of the agency. Highlights of the financial information presented on the principal
statements are provided below.

Balance Sheet
The Balance Sheet presents amounts available for use by USAID (assets) against the
amounts owed (liabilities) and amounts that comprise the difference (net position). Two
major line items, Fund Balance with Treasury and Loans Receivable (net) represent 94% of
USAID’s assets. Fund Balance with Treasury is funding available in the Department of
Treasury accounts from which USAID is authorized to make expenditures and pay
liabilities. The majority of Loans Receivable are loans for which funds have been disbursed
under the Direct Loan programs. Since no new loans will be disbursed under this program,
changes to Loans Receivable (net) is generally determined by collections of principal and
interest, billings for interest, and calculations for loan loss allowances

The assets showing the most significant change from FY 2000 to FY 2001 are Cash and
Other Monetary Assets and Advances and Prepayments. Cash and Other Monetary Assets
increased by 39% in FY 2001 due to an increase in foreign currency amounts reported at
two overseas missions. Advances and Prepayments (non-Federal) decreased by 63% in FY
2001 because of an expense adjustment of $476 million related to the liquidation of
outstanding Letter of Credit funded advances.

Credit program liabilities represent 81 percent of USAID’s total liabilities. The bulk of
these liabilities are reported as Resources Payable to Treasury and Loan Guarantee
Liability. Resources Payable to Treasury represents the cumulative difference between
pre-fiscal year 1992 credit program assets and liabilities and revenues and expenses, that
is considered payable to the U.S. Treasury. Loan Guarantee liability is comprised of an
allowance established for potential defaults on loan guarantees obligated before fiscal
year 1992, in addition to the estimated subsidy cost of loan guarantees obligated after
fiscal year 1991 as calculated in accordance with the Credit Reform Act of 1990.

The three liability line items showing the most significant change in activity from FY 2000
to FY 2001 are Accounts Payable, Debt, and Other Liabilities. Accounts Payable
(intragovernmental) decreased 59% in FY 2001, the bulk of which is attributable to four
federal agencies. Debt decreased 45% to $64.5 million due to principal repayments of $52
million made to the Treasury. Other Liabilities (intragovernmental) decreased 71% to $30.8
million. Over half of the decrease was the result of the collection of a $40 million receivable
due from the Polish American Enterprise Fund. The collection was recorded as an
unavailable miscellaneous receipt and the funds were withdrawn to the U.S. Treasury. Other
Liabilities (non-Federal) increased 27%, from $209 million to $266 million, primarily due to
a $60 million increase in the foreign currency trust fund.
UNAUDITED                                                                              APPENDIX V
                                                                                        Page 6 of 66
The change in Cumulative Results of Operations is attributable to the effects of prior
period adjustments related to the agency’s Credit Programs and changes in Plant,
Property, and Equipment.

Statement of Net Cost
This statement provides the reader with an understanding of the full cost of operating
USAID programs. In FY 2001, approximately 85 percent of all USAID costs incurred were
directly related to support of USAID programs. Costs incurred for the agency’s general
operations (e.g., salaries, training, support for the Office of Inspector General) accounted for
approximately 15 percent of the total USAID cost.

Improvements to the Statement of Net Cost were made during FY 2001.
USAID/Washington program expenses by goal area are now obtained directly from
Phoenix, USAID’s new accounting system. In addition, a cost allocation model was
developed to distribute Management Bureau operating costs to specific goals. Further
refinements are anticipated for FY 2002.

Statement of Changes in Net Position
This statement identifies those items that caused USAID’s net position to change from
the beginning to the end of the reporting period. Imputed financing for pensions and
other future retirement benefits decreased from $17.9 million to $12.4 million in FY
2001. Prior Period Adjustments related to the agency’s Credit Programs were $11
million in FY 2001. There were no Prior Period Adjustments in FY 2000. The decrease
in unexpended appropriations was $199.6 million for FY 2001 versus an increase for
$203.3 million in FY 2000. The primary reason for this change was due to $246 million
in outlays in the Central America and Caribbean Emergency Disaster Recovery Fund for
which no additional funds were received in FY 2001.

Statement of Budgetary Resources
The Statement of Budgetary Resources provides information on how budgetary resources
were made available for the year and what the status of budgetary resources was at year-
end. USAID obligated 73 percent of all available budgetary resources for the year. The
remaining 27 percent of funds are unobligated. Among unobligated funds, 99 percent are
available for new programming and obligating in future years.

Two line items, Adjustments and Unobligated Balances, Not Available, accounted for the
bulk of the changes in the Statement of Budgetary Resources from FY 2000 to FY 2001.
These changes are mainly due to activities related to Credit Program transfers to the U.S.
Treasury.

Statement of Financing
The Statement of Financing reconciles proprietary information to budgetary accounting
information. The most significant increase from FY 2000 to FY 2001 was the Change in
Amount of Goods, Services, and Benefits Ordered but not yet Received or Provided. The
change in this line item was primarily due to the net increase in undelivered orders during
FY 2001 for program funds. Additionally, Exchange Revenue decreased by 40%. This
UNAUDITED                                                                            APPENDIX V
                                                                                      Page 7 of 66
decrease is related to the net decrease of Credit Program interest receivable. Decreases in
Credit Program loans receivable and collections during FY 2001 contributed to changes
in the Total Resources that Do Not Fund Net Cost of Operations. For Financing Sources
Yet to Be Provided, only Actuarial Life Insurance Liability showed a net increase during
FY 2001.


Limitations to the Financial Statements
The financial statements have been prepared to report the financial position and results of
operations of USAID, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the entity in accordance with
the formats prescribed by the Office of Management and Budget (OMB), the statements are
in addition to the financial reports used to monitor and control budgetary resources which
are prepared from the same books and records. The statements should be read with the
realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides
resources to do so.
UNAUDITED                                         APPENDIX V
                                                   Page 8 of 66




            This page left intentionally blank.
AUDITED                                                                                                APPENDIX V
                                                                                                        Page 9 of 66


                                       U.S. Agency for International Development
                                         CONSOLIDATED BALANCE SHEET
                                           As of September 30, 2001 and 2000
                                                     (in thousands)

                                                                                   2001              2000
ASSETS
   Intragovernmental
     Fund Balance with Treasury (Note 2)                                     $      11,214,407 $     11,120,290
     Accounts Receivable (Note 3)                                                      423,577          473,166
     Advances and Prepayments (Note 4)                                                  76,838           63,609
   Total Intragovernmental                                                          11,714,822       11,657,065

      Cash and Other Monetary Assets (Note 5)                                          213,176          153,170
      Accounts Receivable, Net (Note 3)                                                 31,018           48,643
      Loans Receivable, Net (Note 6)                                                 5,533,169        6,637,712
      Operating Materials and Supplies (Note 7)                                         26,099           21,122
      General Property, Plant, and Equipment, Net (Note 8 and 9)                        45,373           35,969
      Advances and Prepayments (Note 4)                                                270,237          727,571
  Total Assets                                                                      17,833,894       19,281,252

LIABILITIES (Note 16)

    Intragovernmental
      Accounts Payable (Note 10)                                                        35,496           86,047
      Debt (Note 11)                                                                    64,528          116,485
      Due to U.S. Treasury (Note 11)                                                 5,278,463        6,374,536
      Other Liabilities (Note 12, 13, and 14)                                           30,872          105,512
    Total Intragovernmental                                                          5,409,359        6,682,580

    Accounts Payable (Note 10)                                                       1,160,274        1,287,152
    Loan Guarantee Liability (Note 6)                                                1,167,235        1,096,341
    Federal Employees and Veteran's Benefits (Note 14)                                  30,905           29,819
    Other Liabilities (Note 12)                                                        266,437          209,499
    Total Liabilities                                                                8,034,210        9,305,391

    Commitments and Contingencies (Note 15)

  NET POSITION
   Unexpended Appropriations                                                         9,789,358        9,989,030
   Cumulative Results of Operations                                                     10,326          (13,169)
   Total Net Position                                                                9,799,684        9,975,861

  Total Liabilities and Net Position                                         $      17,833,894   $   19,281,252




                    The accompanying footnotes are an integral part of these financial statements.
UNAUDITED                                                                                                  APPENDIX V
                                                                                                            Page 10 of 66

                                            U.S. Agency for International Development
                                         CONSOLIDATED STATEMENT OF NET COST
                                         For the years ended September 30, 2001 and 2000
                                                          (in thousands)


Costs:                                                                         2001                       2000
Broad-Based Economic Growth and Agricultural Development
  Intragovernmental                                                  $                 142,665        $            71,902
  With the public                                                                     2,969,869                  3,261,285
          Total                                                                       3,112,534                  3,333,187
  Less earned revenues                                                                   (9,970)                   (13,165)
  Net program costs                                                                   3,102,564                  3,320,022


Strengthen Democracy and Good Governance
   Intragovernmental                                                                       29,678                  53,463
  With the public                                                                      666,444                    296,158
          Total                                                                        696,122                    349,621
  Less earned revenues                                                                       -                          -
  Net program costs                                                                    696,122                    349,621

Human Capacity Built Through Education and Training
  Intragovernmental                                                                     18,059                      7,129
  With the public                                                                      349,582                    118,463
          Total                                                                        367,641                    125,592
  Less earned revenues                                                                       -                          -
  Net program costs                                                                    367,641                    125,592

Stabilizing World Population and Protecting Human Health
  Intragovernmental                                                                      51,124                     89,107
  With the public                                                                     1,026,046                  1,362,322
          Total                                                                       1,077,170                  1,451,429
  Less earned revenues                                                                  (14,611)                   (14,368)
  Net program costs                                                                   1,062,559                  1,437,061

Protect the Environment for Long-Term Sustainability
  Intragovernmental                                                                     25,032                     73,502
  With the public                                                                      434,982                    376,486
          Total                                                                        460,014                    449,988
  Less earned revenues                                                                  (5,805)                    (1,442)
  Net program costs                                                                    454,209                    448,546


Promote Humanitarian Assistance
  Intragovernmental                                                                      38,269                     71,114
  With the public                                                                     1,319,788                  1,021,745
          Total                                                                       1,358,057                  1,092,859
  Less earned revenues                                                                  (39,421)                   (36,939)
  Net program costs                                                                   1,318,636                  1,055,920


Less earned revenues not attributed to programs                                            (12,196)                 (6,294)

Net Cost of Operations (Note 17)                                     $                6,989,535       $          6,730,468




                      The accompanying footnotes are an integral part of these financial statements.
AUDITED                                                                                             APPENDIX V
                                                                                                     Page 11 of 66



                                 U.S. Agency for International Development
                         CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                               For the years ended September 30, 2001 and 2000
                                                (in thousands)

                                                                                   2001             2000

Net Cost of Operations                                                      $       (6,989,535) $    (6,730,468)
Financing Sources (other than exchange revenues)
    Appropriations Used                                                              6,941,692       6,663,278
    Donated Revenue                                                                     47,918          57,043
    Imputed Financing                                                                   12,380          17,985
    Other Financing Sources                                                                -               226
Net Results of Operations                                                               12,455           8,064

Prior Period Adjustments (Note 18)                                                      11,040               -
Net Change in Cumulative Results of Operations                                          23,495             8,064

Increase (Decrease) in Unexpended Appropriations                                      (199,672)        203,319

Change in Net Position                                                                (176,177)        211,383

Net Position-Beginning of Period                                                     9,975,861       9,764,478

Net Position-End of Period                                                           9,799,684       9,975,861




                 The accompanying footnotes are an integral part of these financial statements.
    AUDITED                                                                                                APPENDIX V
                                                                                                            Page 12 of 66




                    U.S. Agency for International Development
                CONSOLIDATED STATEMENT OF BUDGETARY RESOURCES
                           For the years ended September 30, 2001 and 2000
                                       (in thousands)

                                                                               2001                  2000 Restated

Budgetary Resources: (Notes 19 and 20)

Budget Authority                                                        $        6,857,262 $               6,823,903
Unobligated Balances - Beginning of Period                                       2,228,559                 1,957,279
Spending Authority from Offsetting Collections                                   1,063,294                 1,137,734
Adjustments                                                                       (880,487)                  106,820
Total Budgetary Resources                                                        9,268,628                10,025,736

Status of Budgetary Resources:

Obligations Incurred                                                             6,804,038                 6,928,676
Unobligated Balances - Available                                                 2,450,907                 2,098,471
Unobligated Balances - Not Available                                                13,683                   998,589
Total, Status of Budgetary Resources                                             9,268,628                10,025,736

Outlays:

Obligations Incurred                                                             6,804,038                 6,928,676
Less: Spending Authority from Offsetting Collections
     and Adjustments                                                            (1,169,319)               (1,359,553)
Obligated Balance, Net - Beginning of Period                                     9,326,315                 9,306,691
Less: Obligated Balance, Net - End of Period                                    (9,223,430)               (9,326,315)

Total Outlays                                                            $       5,737,604     $           5,549,499




                    The accompanying footnotes are an integral part of these financial statements.
     UNAUDITED



                                      U.S. Agency for International Development
                                  CONSOLIDATED STATEMENT OF FINANCING
                                   For the years ended September 30, 2001 and 2000
                                                    (in thousands)

                                                                                       2001                 2000

Obligations and Nonbudgetary Resources
Obligations Incurred                                                            $        6,804,038      $    6,928,676
   Less: Spending Authority from Offsetting Collections and Adjustments
    Earned Reimbursements
      Collected                                                                         (1,068,762)          (1,129,178)
      Receivable from Federal Sources                                                        5,799               (8,555)
    Change in unfilled customer orders                                                        (331)                  (1)
Donations Not in the Entity's Budget                                                        47,918               56,800
Financing Imputed for Cost Subsidies                                                        12,380               17,985
Exchange Revenue Not in the Budget                                                        (228,123)            (378,300)
   Total Obligations as Adjusted, and Nonbudgetary Resources                             5,572,919            5,487,427

Resources That Do Not Fund Net Cost of Operations
Change in Amount of Goods, Services, and Benefits Ordered but
   not yet Received or Provided                                                            267,523            (169,869)
Change in Unfilled Customer Orders                                                             331                   1
Costs Capitalized on the Balance Sheet
  General Property, Plant, and Equipment, Net                                              (12,394)            (13,866)
  Loans                                                                                    (79,591)           (262,517)
  Purchases of Inventory                                                                    (4,978)             (5,603)
Financing Sources that Fund Costs of Prior Periods                                          (6,007)                -
Collections that Decrease Credit Program Receivables or
  Increase Credit Program Liabilities                                                      (62,202)            (43,396)
Adjustment for trust fund outlays that do not affect net cost                               (3,187)                -
Other (Note 21)                                                                          1,314,636           1,616,832
   Total resources that do not fund net cost of operations                               1,414,131           1,121,582

Costs That Do Not Require Resources

Depreciation and amortization                                                                  6,863                5,216
Other                                                                                         (5,464)              40,659
  Total costs that do not require resources                                                    1,399               45,875

Financing Sources Yet to be Provided (Note 14)                                                1,086                75,584

Net Cost of Operations                                                          $        6,989,535      $    6,730,468




                         The accompanying footnotes are an integral part of these financial statements.
AUDITED                                                                                                                             APPENDIX V
                                                                   CONSOLIDATING BALANCE SHEET
                                                                                                                                    Page 14 of 66
                                                                        As of September 30, 2001
                                                                             (in thousands)

                                             Credit Program                         Operating      Revolving      Trust          Other        Eliminating
                                                 Funds         Program Funds         Funds          Funds         Funds          Funds          Entries      Total
ASSETS
 Intragovernmental
  Fund Balance with Treasury (Note 2)        $    1,032,316 $        9,911,612 $        309,514 $      4,374 $ 14,429 $ (57,838)                          $ 11,214,407
  Accounts Receivable (Note 3)                        6,231                  -          423,288            -        -        82                   (6,024)      423,577
  Advances and Prepayments (Note 4)                     -               75,846              992            -        -         -                                 76,838
Total Intragovernmental                           1,038,547          9,987,458          733,794        4,374   14,429   (57,756)                  (6,024)   11,714,822
 Cash and Other Monetary Assets (Note 5)                 50                 10          213,116              -             -           -                       213,176
 Accounts Receivable, Net (Note 3)                   14,739             12,801              746              -             -       2,732                        31,018
 Loans Receivable, Net (Note 6)                   5,533,169                  -                -              -             -           -                     5,533,169
 Operating Materials and Supplies (Note 7)                -             18,874            7,225              -             -           -                        26,099
 General Property, Plant, and Equipment,
 Net (Note 8 and 9)                                       -                414           44,959            -            -               -                       45,373
 Advances and Prepayments (Note 4)                    3,877            254,417           11,943            -            -               -                      270,237
Total Assets                                      6,590,382         10,273,974        1,011,783        4,374       14,429         (55,024)        (6,024)   17,833,894
LIABILITIES (Note 16)
 Intragovernmental
  Accounts Payable (Note 10)                          5,609             24,505           10,987          -            -               -           (5,605)       35,496
  Debt (Note 11)                                     64,528                -                -            -            -               -                         64,528
  Due to U.S. Treasury (Note 11)                  5,278,463                -                -            -            -               -                      5,278,463
  Other Liabilities (Note 12, 13, and 14)            51,281                331            9,163          -            -           (29,484)          (419)       30,872
Total Intragovernmental                           5,399,881             24,836           20,150          -            -           (29,484)        (6,024)    5,409,359
 Accounts Payable (Note 10)                           3,411          1,090,766           91,308          189           40         (25,440)                   1,160,274
 Loan Guarantee Liability (Note 6)                1,167,235                -                -            -            -               -                      1,167,235
 Federal Employees and Veteran's
 Benefits (Note 14)                                     -                  -             30,905          -            -               -                         30,905
 Other Liabilities (Note 12)                          1,920                -            250,223          -         14,394            (100)                     266,437
 Total Liabilities                                6,572,447          1,115,602          392,586          189       14,434         (55,024)        (6,024)    8,034,210

 Commitments and Contingencies (Note 15)
NET POSITION
 Unexpended Appropriations                           23,802          9,135,329          630,227          -            -               -                      9,789,358
 Cumulative Results of Operations                    (5,867)            23,043          (11,030)       4,185              (5)                                   10,326
 Total Net Position                                  17,935          9,158,372          619,197        4,185              (5)             -            -     9,799,684
Total Liabilities and Net Position           $    6,590,382 $       10,273,974    $ 1,011,783 $        4,374     $ 14,429       $ (55,024) $      (6,024) $ 17,833,894



                                                 The accompanying footnotes are an integral part of these financial statements.
UNAUDITED                                                                                                                             APPENDIX V
                                                   U. S. Agency for International Development                                         Page 15 of 66
                                                   CONSOLIDATING STATE OF NET COST
                                                     For the Year ended September 30, 2001
                                      Credit             Operating          Program        Revolving          Trust                   Eliminating
                                     Program             Expenses            Funds          Funds             Funds     Other            Entry           Total
 Costs:
 Broad-Based Economic Growth
 and Agricultural Development
   Intragovernmental                 $    8,434      $       90,675     $       44,664     $         -    $         -   $         -   $    (1,108)   $     142,665
   With the public                        5,889             194,894          2,766,695           1,153         1,238        -                 -          2,969,869
             Total                       14,323             285,569          2,811,359           1,153         1,238        -              (1,108)       3,112,534
   Less earned revenues                  (9,970)                -                  -               -             -                                          (9,970)
   Net program costs                      4,353             285,569          2,811,359           1,153         1,238        -              (1,108)       3,102,564

 Strengthen Democracy and Good
 Governance
   Intragovernmental                         -               23,909             6,061              -             -                           (292)         29,678
   With the public                           -               51,389           614,630              -             425        -                             666,444
            Total                            -               75,298           620,691              -             425        -                (292)        696,122
   Less earned revenues                      -                  -                 -                -             -                                               -
   Net program costs                         -               75,298           620,691              -             425        -                (292)        696,122
 Human Capacity Built Through
 Education and Training
  Intragovernmental                          -               15,668             2,582              -             -                           (191)         18,059
  With the public                            -               33,678           315,657              -          247.00        -                 -
          Total                              -               49,346           318,239              -          247.00        -                (191)        367,641
  Less earned revenues                       -                  -                 -                -             -                                               -
  Net program costs                          -               49,346           318,239              -          247.00        -                (191)        367,641
 Stabilizing World Population and
 Protecting Human Health
   Intragovernmental                         -               34,549            16,997              -             -          -                (422)          51,124
   With the public                           -               74,258           951,412              -             376        -                 -          1,026,046
          Total                              -              108,807           968,409              -             376        -                (422)       1,077,170
   Less earned revenues                      -                  -             (14,611)             -             -                                         (14,611)
   Net program costs                         -              108,807           953,798              -             376        -                (422)       1,062,559
 Protect the Environment for Long-
 Term Sustainability
   Intragovernmental                         11              21,475             3,808              -             -          -                (262)         25,032
   With the public                       11,378              46,158           377,169              -             277        -                             434,982
          Total                          11,389              67,633           380,977              -             277        -                (262)        460,014
   Less earned revenues                  (5,805)                -                 -                -             -                                         (5,805)
   Net program costs                      5,584              67,633           380,977              -             277        -                (262)        454,209


 Promote Humanitarian Assistance
   Intragovernmental                         -               27,044            11,554              -             -          -                (329)          38,269
   With the public                        39,421            499,887           780,089              -             391        -                            1,319,788
         Total                            39,421            526,931           791,643              -             391        -                (329)       1,358,057
   Less earned revenues                  (39,421)               -                 -                -             -                                         (39,421)
   Net program costs                         -              526,931           791,643              -             391        -                (329)       1,318,636
  Less earned revenues not
  attributed to programs                     -               (13,333)               -           (1,467)          -                -         2,604          (12,196)

 Net Cost of Operations (Note 17)    $     9,937     $     1,100,251    $    5,876,707     $      (314)   $    2,954    $         -   $         -    $   6,989,535

                                                 The accompanying footnotes are an integral part of these financial statements.
AUDITED                                                                                                                                 APPENDIX V
                                                                                                                                        Page 16 of 66

                                                                         U.S. Agency for International Development
                                                                CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
                                                                           For the year ended September 30, 2001
                                                                                       (in thousands)


                                                         Credit Program                                 Operating       Revolving        Trust        Other
                                                             Funds             Program Funds             Funds           Funds          Funds         Funds          Total

Net Cost of Operations                                   $           (9,937) $       (5,876,707) $       (1,100,251) $        314   $    (2,954) $            -   $ (6,989,535)
Financing Sources (other than exchange revenues)
   Appropriations Used                                                4,312           5,885,356           1,052,024           -             -             -          6,941,692
  Donated Revenue                                                       -                   -                44,731           -           3,187           -             47,918
  Imputed Financing                                                     -                   -                12,380           -             -             -             12,380
Net Results of Operations                                            (5,625)              8,649               8,884           314           233           -             12,455

Prior Period Adjustments (Note 18)                                  11,040                   -                  -             -             -             -            11,040
Net Change in Cumulative Results of Operations                       5,415                 8,649              8,884           314           233           -            23,495

Increase (Decrease) in Unexpended Appropriations                      2,588            (207,816)              5,556            -            -             -           (199,672)

Change in Net Position                                                8,003            (199,167)             14,440           314           233               -       (176,177)

Net Position-Beginning of Period                                      9,932           9,357,539            604,757          3,871          (238)          -          9,975,861

Net Position-End of Period                               $          17,935     $      9,158,372     $      619,197     $    4,185   $           (5)   $       -      9,799,684




                                                   The accompanying footnotes are an integral part of these financial statements.
AUDITED                                                                                                                                      APPENDIX V
                                                                                                                                             Page 17 of 66
                                                           U.S. Agency for International Development
                                                   CONSOLIDATING STATEMENT OF BUDGETARY RESOURCES
                                                            For the year ended Septemeber 30, 2001
                                                                         (in thousands)

                                                              Credit Program
                                                                  Funds            Program Funds               Operating Funds               Revolving Funds        Trust Funds
  Budgetary Resources: (Notes 19 and 20)

  Budget Authority                                        $            49,178 $               5,696,567    $                1,108,176 $                     -   $          3,341
  Unobligated Balances - Beginning of Period                          990,249                 1,214,760                        18,099                     3,328            2,123
  Spending Authority from Offsetting Collections                    1,040,758                    14,936                         6,133                     1,467              -
  Adjustments                                                        (964,713)                   68,960                        15,287                         2              (23)
  Total Budgetary Resources                                         1,115,472                 6,995,223                     1,147,695                     4,797            5,441

  Status of Budgetary Resources:

  Obligations Incurred                                               (131,237)               (5,556,963)                   (1,111,276)                   (1,308)           (3,254)
  Unobligated Balances - Available                                   (983,702)               (1,427,000)                      (34,529)                   (3,489)           (2,187)
  Unobligated Balances - Not Available                                   (533)                  (11,260)                       (1,890)                      -                 -
  Total, Status of Budgetary Resources                             (1,115,472)               (6,995,223)                   (1,147,695)                   (4,797)           (5,441)

  Outlays:

  Obligations Incurred                                                131,237                 5,556,963                     1,111,276                     1,308            3,254
  Less: Spending Authority from Offsetting Collections
  and Adjustments                                                  (1,042,174)                 (102,782)                      (22,915)                   (1,470)              23
  Obligated Balance, Net - Beginning of Period                         20,676                 8,600,566                       691,899                       939           12,234
  Less: Obligated Balance, Net - End of Period                        (48,076)               (8,473,351)                     (688,876)                     (885)         (12,242)

  Total Outlays                                           $          (938,337) $              5,581,396    $                1,091,384    $                (108) $          3,269




                                                     The accompanying footnotes are an integral part of these financial statements.
   UNAUDITED                                                                                                                           APPENDIX V
                                                        U.S. Agency for International Development                                      Page 18 of 66
                                                     CONSOLIDATING STATEMENT OF FINANCING
                                                          For the year ended September 30, 2001
                                                                      (in thousands)
                                                                                  Credit
                                                                                 Program          Program        Operating         Revolving      Trust      Other
                                                                                  Funds            Funds          Funds             Funds         Funds      Funds      Total
Obligations and Nonbudgetary Resources
Obligations Incurred                                                         $      131,237     $ 5,556,963     $ 1,111,276        $    1,308     $ 3,254    $   -   $ 6,804,038
 Less: Spending Authority from
  Offsetting Collections and Adjustments
  Earned Reimbursements
   Collected                                                                     (1,043,077)         (18,075)         (6,143)           (1,467)       -          -    (1,068,762)
   Recivable from Federal Sources                                                     2,320            3,470               9               -          -          -         5,799
   Change in unfilled customer orders                                                   -               (331)            -                 -          -          -          (331)
Donations Not in the Entity's Budget                                                    -                -            44,731               -        3,187        -        47,918
Financing Imputed for Cost Subsidies                                                    -                -            12,380               -          -          -        12,380
Exchange Revenue Not in the Budget                                                 (222,605)           1,987          (7,505)              -          -          -      (228,123)

   Total Obligations as Adjusted, and Nonbudgetary Resources                     (1,132,125)      5,544,014        1,154,748             (159)      6,441        -     5,572,919

Resources That Do Not Fund Net Cost of Operations
Change in Amount of Goods, Services, and
  Benefits not yet Received or Provided                                             (27,608)        342,125          (46,772)            (155)        (67)       -      267,523
Change in Unfilled Customer Orders                                                      -               331              -                -           -          -          331
Costs Capitalized on the Balance Sheet
  General Property, Plant, and Equipment, Net                                           -               (414)        (11,980)             -           -          -       (12,394)
  Loans                                                                             (79,591)             -               -                -           -          -       (79,591)
  Purchases of Inventory                                                                -             (4,480)           (498)             -           -          -        (4,978)
Financing Sources that Fund Costs of Prior Periods                                     (122)          (3,211)         (2,441)             -          (233)       -        (6,007)
Collections that Decrease Credit Program Receivables                                                                                                                         -
or Increase Credit Program Liabilities                                              (62,202)            -                -                -           -          -       (62,202)
Adjustment for trust fund outlays that do not affect net cost                           -               -                -                -        (3,187)       -        (3,187)
Other (Note 21)                                                                   1,317,255          (1,657)            (962)             -           -          -     1,314,636
   Total resources that do not fund net cost of operations                        1,147,732         332,694          (62,653)            (155)     (3,487)       -     1,414,131

Costs That Do Not Require Resources
Depreciation and amortization                                                            -                -             6,863             -           -          -         6,863
Other                                                                                 (5,670)             -               206             -           -          -        (5,464)
  Total costs that do not require resources                                           (5,670)             -             7,069             -           -          -         1,399
Financing Sources Yet to be Provided (Note 14)                                           -                -             1,086             -           -          -         1,086
Net Cost of Operations                                                                 9,937      5,876,708        1,100,250             (314)      2,954        -     6,989,535


                                                  The accompanying footnotes are an integral part of these financial statements.
AUDITED                                                                            APPENDIX V
                                                                                    Page 19 of 66


USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation

These financial statements report USAID’s financial position and results of operations.
They have been prepared using USAID’s books and records in accordance with Agency
accounting policies, the most significant of which are summarized in this note. The
statements are presented in accordance with the applicable form and content requirements
of the Office of Management and Budget (OMB) Bulletin 97-01 and 01-09, Form and
Content of Agency Financial Statements, and the Government Management Reform Act
of 1994.

USAID accounting policies follow generally accepted accounting principles for the
Federal government, as recommended by the Federal Accounting Standards Advisory
Board (FASAB). The FASAB has been recognized by the American Institute of Certified
Public Accountants (AICPA) as the official accounting standard set for the Federal
government. These standards have been agreed to, and published by the Director of the
Office of Management and Budget, the Secretary of the Treasury, and the Comptroller
General. Federal accounting standards are based on the following hierarchy:

1.     FASAB Statements and Interpretations as well as AICPA and Financial
       Accounting Standards Board (FASB) pronouncements if made applicable to
       federal governmental entities by a FASAB Statement or Interpretation

2.     FASAB Technical Bulletins and the following pronouncements if specifically
       made applicable to federal governmental entities by the AICPA and cleared by the
       FASAB: AICPA Industry Audit and Accounting Guides and AICPA Statements
       of Position

3.     AICPA Accounting Standards Executive Committee (AcSEC) Practice Bulletins
       if specifically made applicable to federal governmental entities and cleared by the
       FASAB as well as Technical Releases of the Accounting and Auditing Policy
       Committee of the FASAB

4.     Implementation guides published by the FASAB staff and practices that are
       widely recognized and prevalent in the federal government

5.     Other accounting literature, including FASAB Concept Statements;
       pronouncements in categories 1-4 above when not specifically made applicable to
       federal governmental entities; FASB Concepts Statements; GASB Statements,
       Interpretations, Technical Bulletins, and Concepts Statements; AICPA Issues
       Papers; International Accounting Standards of the International Accounting
       Standards Committee; pronouncements of other professional associations or
       regulatory agencies; AICPA Technical Practice Aids; and accounting textbooks,
       handbooks, and articles
AUDITED                                                                             APPENDIX V
                                                                                     Page 20 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

B. Reporting Entity

Established in 1961 by President John F. Kennedy, USAID is the independent U.S.
Government agency that provides economic development and humanitarian assistance to
advance United States economic and political interests overseas.

Programs

The financial statements reflect the various program activities, shown by appropriation in
the financial statements, which include such programs as the Economic Support Fund,
Development Assistance, Assistance for the New Independent States of the Former
Soviet Union, Special Assistance Initiatives, International Disaster Assistance, Child
Survival and Disease, Central America and the Caribbean Emergency Disaster Recovery
Fund, Transition Initiatives, and Direct and Guaranteed Loan Programs. This
classification is consistent with the Budget of the United States.

Economic Support Fund

Programs funded through this account provide economic assistance to select countries in
support of efforts to promote stability and U.S. security interests in strategic regions of
the world.


Development Assistance

This program provides economic resources to developing countries with the aim of
bringing the benefits of development to the poor. The program promotes broad-based,
self-sustaining economic growth and supports initiatives intended to stabilize population
growth, protect the environment and foster increased democratic participation in
developing countries. The program is concentrated in those areas in which the United
States has special expertise and which promise the greatest opportunity for the poor to
better their lives.


Assistance for the New Independent States of the Former Soviet Union

This account provides funds for a program of assistance to the independent states that
emerged from the former Soviet Union. These funds support U.S. foreign policy goals of
consolidating improved U.S. security; building a lasting partnership with the New
Independent States; and providing access to each other’s markets, resources, and
expertise.
AUDITED                                                                             APPENDIX V
                                                                                     Page 21 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Special Assistance Initiatives

This program provides funds to support special assistance activities. The majority of
funding for this program was for democratic and economic restructuring in Central and
Eastern European countries consistent with the objectives of the Support for East
European Democracy (SEED) Act. All SEED Act programs support one or more of the
following strategic objectives: promoting broad-based economic growth with an
emphasis on privatization, legal and regulatory reform and support for the emerging
private sector; encouraging democratic reforms; and improving the quality of life
including protecting the environment and providing humanitarian assistance.


International Disaster Assistance

Funds for the International Disaster Assistance Program provide relief, rehabilitation, and
reconstruction assistance to foreign countries struck by disasters such as famines, floods,
hurricanes and earthquakes. The program also provides assistance in disaster
preparedness, and prevention and mitigation.


Child Survival and Disease

This program provides economic resources to developing countries to support programs
to improve infant and child nutrition, with the aim of reducing infant and child mortality
rates; to reduce HIV transmission and the impact of the HIV/AIDS pandemic in
developing countries; to reduce the threat of infectious diseases of major public health
importance such as polio, and malaria; and to expand access to quality basic education
for girls and women.


Central America and the Caribbean Emergency Disaster Recovery Fund

This program was established by a FY 1999 emergency supplemental bill and is for
necessary expenses to provide relief for natural disasters in Central America, South
America, and Columbia.


Transition Initiatives

This account funds humanitarian programs that provide post-conflict assistance to victims
of natural and man- made disasters. Until FY 2001, this type of assistance was funded
under the International Disaster Assistance account.
AUDITED                                                                        APPENDIX V
                                                                                Page 22 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Direct and Guaranteed Loans:

      Direct Loan

       These loans are authorized under Foreign Assistance Acts, various predecessor
       agency programs, and other foreign assistance legislation. Direct Loans are
       issued in both U.S. dollars and the currency of the borrower. Foreign currency
       loans made “with maintenance of value” place the risk of currency devaluation
       on the borrower, and are recorded in equivalent U.S. dollars. Loans made
       “without maintenance of value” place the risk of devaluation on the U.S.
       Government, and are recorded in the foreign currency of the borrower.

      Urban and Environmental

      The Urban and Environmental (UE) program, formerly the Housing Guarantee
      Program, extends guaranties to U.S. private investors who make loans to
      developing countries to assist them in formulating and executing sound housing
      and community development policies that meet the needs of lower income groups.

      Micro and Small Enterprise Development

      The Micro and Small Enterprise Development (MSED) Program supports private
      sector activities in developing countries by providing direct loans and loan
      guarantees to support local micro and small enterprises.

      Israeli Loan Guarantee

      Congress enacted the Israeli Loan Guarantee Program in Section 226 of the
      Foreign Assistance Act to support the costs for immigrants resettling to Israel
      from the former Soviet Union, Ethiopia, and other countries. Under this program,
      the U.S. Government guaranteed the repayment of up to $10 billion in loans from
      commercial sources, to be borrowed in $2 billion annual increments. Borrowing
      was completed under the program during Fiscal Year 1999, with approximately
      $9.2 billion being guaranteed. Guarantees are made by USAID on behalf of the
      U.S. Government, with funding responsibility and basic administrative functions
      resting with USAID.

      Ukraine Loan Guarantee

      The Ukraine Export Credit Insurance Program was established with the support of
      the Export-Import Bank of the U.S. to assist Ukrainian importers of American
      goods. The program commenced operations in Fiscal Year 1996 and expired in
      Fiscal Year 1999.
AUDITED                                                                             APPENDIX V
                                                                                     Page 23 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

       Development Credit Authority

       The first obligations for USAID’s new Development Credit Authority (DCA)
       were made in FY 1999. DCA allows missions and other offices to use loans and
       loan guarantees to achieve their development objectives when it can be shown
       that: 1) the project generates enough revenue to cover the debt service including
       USAID fees, 2) there is at least 50% risk-sharing with a private-sector institution,
       and 3) the DCA guarantee addresses a financial market failure in-country and
       does not “crowd-out” private sector lending. DCA can be used in any sector and
       by any USAID operating unit whose project meets the DCA criteria. DCA
       projects are approved by the Agency Credit Review Board and the Chief
       Financial Officer.

Fund Types

The accompanying consolidated financial statements for USAID include the accounts of
all funds under USAID’s control. The agency maintains 28 general fund appropriations,
1 special fund, 13 revolving funds, 3 trust funds, and 5 deposit funds, 2 receipt accounts,
and 4 budget clearing accounts.

General fund appropriations and the Special fund are used to record financial transactions
under Congressional appropriations or other authorization to spend general revenue.

Revolving funds are established by law to finance a continuing cycle of operations, with
receipts derived from such operations usually available in their entirety for use by the
fund without further action by Congress.

Trust funds are credited with receipts generated by the terms of the trust agreement or
statute. At the point of collection, these receipts are unavailable, depending upon
statutory requirements, or available immediately.

Deposit funds are established for (1) amount received for which USAID is acting as a
fiscal agent or custodian, (2) unidentified remittances, (3) monies withheld from
payments for goods or services received, and (4) monies held waiting distribution on the
basis of legal determination.

C. Basis of Accounting

The accompanying financial statements have been prepared on an accrual basis. Under
the accrual method of accounting, revenues are recognized when earned and expenses are
recognized when a liability is incurred, without regard to receipt or payment of cash.
AUDITED                                                                              APPENDIX V
                                                                                      Page 24 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Budgetary accounting facilitates compliance with legal constraints on, and controls of,
the use of federal funds.

D. Budgets and Budgetary Accounting

The components of USAID’s budgetary resources include current budgetary authority
(that is, appropriations and borrowing authority) and unobligated balances remaining
from multi- year and no-year budget authority received in prior years. Budget authority is
the authorization provided by law to enter into financial obligations that result in
immediate or future outlays of federal funds. Budgetary resources also include
reimbursement and other income (that is, spending authority from offsetting collections
credited to an appropriation of fund account) and adjustments (that is, recoveries of prior
year obligations).

Pursuant to Public Law 101-510, unobligated balances associated with appropriations
that expire at the end of the fiscal year remain available for obligation adjustments, but
not new obligations, until that account is canceled. When accounts are canceled five
years after they expire, amounts are not available for obligations or expenditure for any
purpose and are returned to Treasury.

Pursuant to Section 511 of USAID’s Appropriations Act for fiscal years 1994 through
1999, or Section 517 for USAID’s Appropriations Act for fiscal years 1987 through
1993, funds appropriated for certain purposes under the Foreign Assistance Act of 1961,
as amended, shall remain available until expended if such funds are initially obligated
within their period of availability.


E. Revenues and Other Financing Sources

USAID receives the majority of its funding through congressional appropriations --
annual, multi- year, and no- year appropriations -- that may be used within statutory limits.
Appropriations are recognized as revenues at the time the related program or
administrative expenses are incurred. Appropriations expended for capitalized property
and equipment are not recognized as expenses. In addition to funds warranted directly to
USAID, the agency also receives allocation transfers from the Commodity Credit
Corporation and the Department of State.

Additional financing sources for USAID’s various credit programs and trust funds
include amounts obtained through collection of guaranty fees, interest income on
rescheduled loans, penalty interest on delinquent balances, permanent indefinite
borrowing authority from U.S. Treasury, proceeds from the sale of overseas real property
acquired by USAID, and advances from foreign governments and international
organizations.
AUDITED                                                                              APPENDIX V
                                                                                      Page 25 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Revenues are recognized as financing sources to the extent that they were payable to
USAID from other agencies, other governments and the public in exchange for goods and
services rendered to others.


F. Fund Balances with the U.S. Treasury

Cash receipts and disbursements are processed by the U.S. Treasury. The balances with
Treasury are primarily appropriated funds that are available to pay current liabilities and
finance authorized purchase commitments, but they also include revolving, deposit, and
trust funds.


G. Foreign Currency

The Direct Loan Program has foreign currency funds, which are used to disburse loans in
certain countries. Those balances are reported at the U.S. dollar equivalents using the
exchange rates prescribed by the U.S. Treasury. A gain or loss on translation is
recognized for the change in valuation of foreign currencies at year-end.


H. Accounts Receivable

Accounts receivable consist of amounts due mainly from foreign governments but also
from other Federal agencies and private organizations. USAID regards amounts due
from other Federal agencies as 100 percent collectible. The Agency establishes an
allowance for uncollectible accounts receivable for non-loan or revenue generating
sources that have not been collected for a period of over one year.

I. Loans Receivable

Loans are accounted for as receivables after funds have been disbursed. For loans
obligated before October 1, 1991 (the pre-credit reform period), loan principal, interest,
and penalties receivable are reduced by an allowance for estimated uncollectible
amounts. The allowance is estimated based on a method prescribed by OMB that takes
into account country risk and projected cash flows.

For loans obligated on or after October 1, 1991, the loans receivable are reduced by an
allowance equal to the present value of the subsidy costs (due to the interest rate
differential between the loans and Treasury borrowing, the estimated delinquencies and
defaults net of recoveries, the offset from fees, and other estimated cash flows) associated
with these loans. This allowance is re-estimated when necessary and changes reflected in
the operating statement.
AUDITED                                                                             APPENDIX V
                                                                                     Page 26 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Loans are made in both U.S. dollars and foreign currencies. Loans extended in foreign
currencies can be with or without “Maintenance of Value” (MOV). Those with MOV
place the currency exchange risk upon the borrowing government; those without MOV
place the risk on USAID. Foreign currency exchange gain or loss is recognized on those
loans extended without MOV, and reflected in the net credit programs receivable balance.

Credit program receivables also include origination and annual fees on outstanding
guarantees, interest on rescheduled loans and late charges. Claims receivables
(subrogated and rescheduled) are due from foreign governments as a result of defaults for
guaranteed loans. Receivables are stated net of an allowance for uncollectible accounts,
determined using a country-specific identification methodology.

While estimates of uncollectible loans and interest are made using methods prescribed by
OMB, the final determination as to whether a loan is collectible is also affected by
actions of other U.S. Government agencies.


J. Advances and Prepayments

Funds disbursed in advance of incurred expenditures are recorded as advances. Most
advances consist of funds disbursed under letters of credit to contractors and grantees.
The advances are liquidated and recorded as expenses upon receipt of expenditure reports
from the recipients.


K. Operating Materials and Supplies

USAID has operating materials and supplies held for use that consist mainly of computer
paper and other expendable office supplies not in the hands of the user. USAID also has
materials and supplies in reserve for foreign disaster assistance stored at strategic sites
around the world. These consist of tents, vehicles, and water purification units. The
Agency also has birth control supplies stored at several sites.

USAID’s office supplies are deemed items held for use because they are tangible
personal property to be consumed in normal operations. Agency supplies held in reserve
for future use are not readily available in the market, or there is more than a remote
chance that the supplies will be needed, but not in the normal course of operations. Their
evaluation is based on cost and they are not considered “held for sale”. USAID has no
supplies categorizable as excess, obsolete, or unserviceable operating materials and
supplies.
AUDITED                                                                             APPENDIX V
                                                                                     Page 27 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

L. Property, Plant and Equipment

USAID capitalizes all property, plant and equipment that has an acquisition cost of
$25,000 or greater and a useful life of two years or more. Acquisitions that do not meet
these criteria are recorded as operating expenses. Assets are capitalized at historical cost
and depreciated using the straight- line method. Real property is depreciated over 20
years, nonexpendable personal property is depreciated over 3 to 5 years, and capital
leases are depreciated according to the terms of the lease. The Agency operates land,
buildings, and equipment that are provided by the General Services Administration. Rent
for this property is expensed. Internal use software that has development costs of
$300,000 or greater is capitalized. Deferred maintenance amounts are immaterial with
respect to the financial statements.

M. Liabilities

Liabilities represent the amount of monies or other resources that are likely to be paid by
USAID as the result of transactions or events that have already occurred. However, no
liability can be paid by the Agency without an appropriation or borrowing authority.
Liabilities for which an appropriation has not been enacted are therefore classified as
liabilities not covered by budgetary resources (unfunded liabilities), and there is no
certainty that the appropriations will be enacted. Also, these liabilities can be abrogated
by the U.S. Government, acting in its sovereign capacity.

N. Liabilities for Loan Guarantees

The Credit Reform Act (CRA) of 1990, which became effective on October 1, 1991, has
significantly changed the manner in which USAID’s loan programs finance their
activities. The main purpose of CRA was to more accurately measure the cost of Federal
credit programs and to place the cost of such programs on a basis equivalent to other
Federal spending. Consequently, commencing in fiscal 1992, the loan program’s funding
for activities changed so that activities are funded through direct appropriation provided
for that year only, rather than through cumulative appropriations granted in prior years
and accumulated under the Revolving Fund.

For USAID’s loan guarantee programs, when guarantee commitments are made, the
program records a guarantee reserve in the program account. This reserve is based on the
present value of the estimated net cash outflows to be paid by the Program as a result of
the loan guarantees, except for administrative cost, less the net present value of all
revenues to be generated from those guarantees. When the loans are disbursed, the
Program transfers from the program account to the financing account the amount of the
subsidy cost related to those loans. The amount of the subsidy cost transferred, for a
given loan, is proportionate to the amount of the total loan disbursed.
AUDITED                                                                              APPENDIX V
                                                                                      Page 28 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

For loan guarantees made before the CRA, liabilities for loan guarantees for pre-1992
loans represent unfunded liabilities. Footnote 5 presents the unfunded amounts separate
from the post-1991 liabilities. The amount of unfunded liabilities also represents a future
funding requirement to USAID. The liability is calculated using a reserve methodology
that is similar to OMB prescribed method for post-1991 loan guarantees.


O. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
year, the balance in the accrued annual leave account is adjusted to reflect current pay
rates. To the extent that current or prior year appropriations are not available to fund
annual leave earned but not taken, funding will be obtained from future financing
sources. Sick leave and other types of leave are expensed as taken.


P. Retirement Plans and Post Employment Benefits

USAID employees are covered by one of four retirement plans. There are two Civil
Service plans, Civil Service Retirement System (CSRS) and Federal Employees
Retirement System (FERS), and two foreign service plans, Foreign Service Retirement
and Disability System (FSRDS) and the Foreign Services Pension System (FSPS). The
Agency contributes approximately 7.5 percent of an employee’s gross salary for CSRS
and FSRDS, and approximately 24 percent of an employee’s gross salary for FERS and
FSPS.

Employees may elect to participate in the Thrift Savings Plan (TSP). Under this plan,
FERS and FSPS employees may elect to have up to 10 percent, but not to exceed
$10,500, of gross earnings withheld from their salaries and receive matching
contributions from a minimum of one percent to a maximum of 5 percent. CSRS and
FSRDS employees may elect to have up to 5 percent of gross earnings withheld from
their salaries, but they do not receive matching contributions.


USAID funds a portion of employee post employment benefits (PEB) and makes
necessary payroll withholdings. It has no liability for future payments, nor is it
responsible for reporting the assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to its employees for these programs. Reporting of such amount is the
responsibility of the Office of Personnel Management and the Federal Retirement Thrift
Investment Board. Current year operating expenses are charged for the full amount of
employer PEB costs with the unfunded portion being charged to Other Revenue Sources-
Imputed Financing in accordance with SFFAS Numbers 5 and 7.
AUDITED                                                                                 APPENDIX V
                                                                                         Page 29 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

Foreign Service National and Third County Nationals at overseas posts who were hired
prior to January 1, 1984, may be covered under CSRS. Employees hired after that date
are covered under a variety of local governmental plans in compliance with host country
laws and regulations. In a limited number of cases where no plans are regulated by the
host country or where such plans are inadequate, the employees are covered by a
privately managed pension plan to conform to prevailing practices by employers.

The Foreign Service National Separation Pay Trust Fund (FSNSPTF) was established in
1991 by public law 102-138 to finance separation payments for eligible individuals,
primarily Foreign Service Nationals employed by USAID. The FSNSPTF finances
separation liabilities to employees who resign, retire, or lose their jobs due to a reduction-in-
force; and is applicable only in those countries that, due to local law, require a lump sum
voluntary payment based on years of service.


Q. Net Position

Net position is the residual difference between assets and liabilities. It is composed of
unexpended appropriations and cumulative results of operations.

•   Unexpended appropriations are the portion of the appropriations represented by
    undelivered orders and unobligated balances.

•   Cumulative results of operations are also part of net position. This account reflects
    the net difference between (1) expenses and losses and (2) financing sources,
    including appropriations, revenues and gains, since the inception of the activity.


R. Non-entity Assets

Non-entity fund balances are amounts in Deposit Fund accounts. These include such
items as: funds received from outside sources where the government acts as fiscal agent,
monies the government has withheld awaiting distribution based on legal determination,
and unidentified remittances credited as suspense items outside the budget.


S. Program Costs

Program costs are presented on the Statement of Net Cost by agency goal. The six
agency goals that support USAID objectives are:

1. Broad-Based Economic Growth and Agricultural Development
2. Strengthen Democracy and Good Governance
AUDITED                                                                            APPENDIX V
                                                                                    Page 30 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

3.   Human Capacity Built Through Education and Training
4.   Stabilizing World Population and Protecting Human Health
5.   Protect the Environment for Long-Term Sustainability
6.   Promote Humanitarian Assistance

Mission related program expenses by goal area are obtained from the Mission
Accounting and Control system (MACS). USAID/Washington program expenses by
goal area are obtained directly from Phoenix. A cost allocation model is used to distribute
Management Bureau operating costs to specific goals. Expenses related to Credit Reform
and revolving funds are directly applied to specific agency goals based on their
objectives. Trust funds and remaining operating expenses are allocated based on
established program and operating ratios.
AUDITED                                                                          APPENDIX V
                                                                                  Page 31 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 2. FUND BALANCES WITH TREASURY (In Thousands)

Fund Balances with Treasury as of September 30, 2001 and 2000 consisted of the
following:

            Fund Balances                          2001                2000

Trust Funds                                             $14,429           $14,357
Revolving Funds                                       1,012,026           993,513
Appropriated Funds                                   10,245,763        10,131,380
Other Funds                                             (57,811)          (18,960)

                 Total                              $11,214,407       $11,120,290

Status of Fund Balance:
                                                   2001                2000
Unobligated Balance
    Available                                        $2,499,633        $2,100,163
    Unavailable                                          13,679            84,276
Obligated Balance Not Yet Disbursed                   8,701,095         8,935,851
                 Total                              $11,214,407       $11,120,290


As of September 30, 2001 there was a cash reconciliation difference of $38 million
between USAID and the Department of Treasury’s Fund Balances. The difference as of
September 30, 2000 was $18.7 million. For FY 2001 and FY 2000 reporting purposes,
USAID adjusted its fund balance downward by these differences to equal the Department
of Treasury’s fund balance. By adjusting USAID’s fund balance to equal Treasury’s
fund balance, there is consistency between various published reports. Also, based on past
experience, the Department of Treasury’s balances are more accurate and the differences
are usually cleared when USAID processes the required disbursements.

The $38 million cash reconciliation difference was posted to separate Fund Balance sub-
accounts and the cash differences remain identified as such. USAID is currently
performing a reconciliation of the $38 million total amount in these accounts and will
make adjustments accordingly.
AUDITED                                                                                     APPENDIX V
                                                                                             Page 32 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands)

The primary components of USAID’s accounts receivable as of September 30, 2001 and
2000 were as follows:
                                                Receivable     Allowance      Receivable      Receivable
                                                  Gross        Accounts          Net             Net
                                                                                2001            2000

 Entity
          Intragovernmental
                Appropriation Reimbursements
                      from Federal Agencies            $202       N/A                $202           $3,681
                Accounts Receivable
                      from Federal Agencies           7,596       N/A               7,596            4,604
                Disbursing Authority
                   Receivable from USDA             415,779       N/A             415,779         464,881
          Total Intragovernmental                  $423,577       N/A            $423,577        $473,166

                    Accounts Receivable             $39,906       $(11,620)       $28,286           $4,650

          Total Entity                            $463,483        $(11,620)      $451,863        $477,816

Total Non-Entity                                      4,201        $(1,470)        $2,731         $43,993

Total Receivables                                  $467,684       $(13,090)      $454,594        $521,809


Reconciliation of Uncollectible Amounts (Allowance Accounts)

                                        2001              2000
Beginning Balance                     $11,463            $9,746
Additions                               1,954             1,936
Reductions                              (327)             (219)
Ending Balance                        $13,090           $11,463

Entity Intragovernmental accounts receivable consist of amounts due from other U.S.
Government agencies. No allowance has been established for the intragovernmental
accounts receivable, which are considered to be 100 percent collectible. Disbursing
Authority Receivable from USDA consists of obligational authority from the U.S.
Department of Agriculture’s Commodity Credit Corporation. The authority is for
payment of transportation costs incurred by USAID associated with the shipment of P.L.
480, Title II and III commodities; Farmer-to-Farmer Technical Assistance Programs; and
for assistance to private voluntary organizations, cooperatives, and international
organizations. Collections against this receivable are realized when USAID requests a
transfer of funds from USDA to cover incurred expenses.
AUDITED                                                                                 APPENDIX V
                                                                                         Page 33 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands) – Continued

All other entity accounts receivable consist of amounts managed by missions or
USAID/Washington. These receivables consist of non-program related receivables such
as overdue advances, unrecovered advances, audit findings, and any interest related to
these types of receivables. A 100 percent allowance for uncollectible amounts is
estimated for governmental accounts receivable which are more that one year past due.
Accounts receivable from missions are collected and recorded to the respective
appropriation.

Interest receivable is calculated separately and there is no interest included in the
accounts receivable listed above.
AUDITED                                                                          APPENDIX V
                                                                                  Page 34 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 4. ADVANCES AND PREPAYMENTS (In Thousands)

Advances and Prepayments as of September 30, 2001 and 2000 consisted of the
following:

                                                        2001         2000
     Intragovernmental

             Advances to
                Federal Agencies                         $76,838       $63,609
     Total   Intragovernmental                           $76,838       $63,609




             Advances to Contractors/                    $190,000     $723,745
                Grantees
             Travel Advances                                3,920           12
             Advances to Host Country                      42,071
               Governments
               and Institutions

             Prepayments                                   20,627        2,091
             Advances, Other                               13,619        1,723

        Total Advances and Prepayments                   $347,075     $791,180




Advances to Host Country Governments and Institutions represent amounts advanced by
USAID missions to host country governments and other in-country organizations, such as
educational institutions and voluntary organizations. Other Advances consist primarily
of amounts advanced for living quarters and home service.
AUDITED                                                                            APPENDIX V
                                                                                    Page 35 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 5. CASH AND OTHER MONETARY ASSETS (In Thousands)


Cash and Other Monetary Assets as of September 30, 2001 and 2000 are as follows:

Cash and Other Monetary Assets                                 2001         2000
        Imprest Fund- Headquarters                                    $10          $-
        UE and Micro and Small                                         50          50
           Enterprise Fund Cash w/Fiscal Agent
        Foreign Currencies                                      213,116      153,120
Total Cash and Other Monetary Assets                           $213,176     $153,170

USAID has imprest funds in various overseas locations. These funds are provided by the
Department of State overseas U.S. Disbursing Officers to which USAID is liable for any
shortages. USAID’s portion of the Department of State imprest funds provided to
USAID was $3.8 million in FY 2001 and $3 million in FY 2000. These imprest funds
are not included in USAID’s Balance Sheet.

USAID/Washington imprest funds of $10 thousand in FY2001 are being held in reserve
in anticipation of emergency relief efforts for Afghanistan. Foreign Currencies are
related to Foreign Currency Trust Funds and this amounted to $213 million in FY 2001
and $153 million in FY 2000. USAID does not have any non-entity cash or other
monetary assets.
AUDITED                                                                            APPENDIX V
                                                                                    Page 36 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands)

USAID operates the following loan and/or loan guarantee programs:

•   Direct Loan Program (Direct Loan)
•   Urban and Environmental Program (UE)
•   Micro and Small Enterprise Development Program (MSED)
•   Ukraine Export Insurance Credit Program (Ukraine)
•   Israeli Loan Guarantee Program (Israeli Loan)
•   Development Credit Authority Program (DCA)

Direct loans resulting from obligations made prior to FY 1992 are reported net of
allowance for estimated uncollectible loans. Estimated losses from defaults on loan
guarantees resulting from obligations made prior to FY 1992 are reported as a liability.

The Credit Reform Act of 1990 prescribes an alternative method of accounting for direct
loans and guarantees resulting from obligations made after FY 1991. Subsidy cost, which
is the net present value of the cash flows (i.e. interest rates, interest supplements,
estimated defaults, fees, and other cash flows) associated with direct loans and
guarantees, is required by the Act to be recognized as an expense in the year in which the
direct loan or guarantee is disbursed. Subsidy cost is calculated by agency program
offices prior to obligation using a model prescribed by the Office of Management and
Budget (OMB). Subsidy relating to existing loans and guarantees is generally required to
be reestimated on an annual basis to adjust for changes in risk and interest rate
assumptions. Direct loans are reported net of an allowance for this subsidy cost
(allowance for subsidy). The subsidy costs associated with loan guarantees are reported
as loan guarantee liability.

An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the
nature and amounts of the subsidy costs associated with the loans and loan guarantees are
provided in the following sections.

The following net loan receivable amounts are not the same as the proceeds that USAID
would expect to receive from selling its loans. Actual proceeds may be higher or lower
depending on the borrower and the status of the loan.
AUDITED                                                                                      APPENDIX V
                                                                                              Page 37 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) – Continued

Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method) as of September 30, 2001:

                                                                                      Value of Assets
                     Loans Receivable        Interest              Allowance          Related to Direct
    Loan Program          Gross             Receivable           For Loan Losses           Loans

  Direct Loan                $9,390,950             $348,328             $4,398,560            $5,340,718
  MSED                            1,488                   74                  2,280                 (718)
         Total               $9,392,438             $348,402             $4,400,840            $5,340,000



Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method) as of September 30, 2000:
                           Loans                                                  Value of Assets
                         Receivable           Interest          Allowance         Related to Direct
     Loan Programs         Gross             Receivable       For Loan Losses           Loans

  Direct Loan                $9,994,966             $351,522             $3,989,920            $6,356,568
  MSED                            1,872                   19                  1,747                   144
          Total              $9,996,838             $351,541             $3,991,667            $6,356,712




Direct Loans Obligated After FY 1991 as of September 30, 2001:
                           Loans                                                      Value of Assets
                        Receivable            Interest         Allowance for          Related to Direct
    Loan Programs          Gross            Receivable         Subsidy Cost                Loans

  Direct Loan                  $176,058                  $ -              $180,622                $(4,564)
  MSED                              657                    35                  468                     224
         Total                 $176,715                   $35             $181,090                $(4,340)



Direct Loans Obligated After FY 1991 as of September 30, 2000:
                           Loans                                                      Value of Assets
                         Receivable           Interest         Allowance for          Related to Direct
     Loan Programs         Gross            Receivable         Subsidy Cost                Loans

  Direct Loan                  $166,240                  $ -              $162,471                 $3,769
  MSED                            1,379                   (92)                 239                  1,048
          Total                $167,619                  $(92)            $162,710                 $4,817
AUDITED                                                                   APPENDIX V
                                                                           Page 38 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) – Continued

Total Amount of Direct Loans Disbursed:

   Direct Loan Programs               2001                 2000

Direct Loan                       $     9,567,008      $     10,161,206
MSED                                        2,144                 3,251
              Total               $     9,569,152      $     10,164,457




Subsidy Expenses for Post-1991 Direct Loans as of September 30, 2001:

1 Current Year's Direct Loans
  There were no subsidy expenses for FY 2001.

2 Direct Loan Modification and Reestimates
  There were no modifications or reestimates.

3 Total Direct Loan Subsidy Expenses
  None.




Subsidy Expenses for Post-1991 Direct Loans as of September 30, 2000:

1 Current Year's Direct Loans
  There were no subsidy expenses for FY 2000.

2 Direct Loan Modification and Reestimates
  There were no modifications or reestimates.

3 Total Direct Loan Subsidy Expenses
  None.
AUDITED                                                                                       APPENDIX V
                                                                                               Page 39 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) – Continued

Schedule for Reconciling Subsidy Cost Allowance B alances (Post-1991 Direct Loans)
as of September 30, 2001:

                                                                Direct Loan          MSED              Total
Beginning balance of the subsidy cost allowance             $       162,471     $      346      $    162,817
Adjustments:
                 Loan modifications                                  20,967              -            20,967
                 Subsidy allowance amortization                      (5,537)           122            (5,415)
                 Other                                                 2,721             -              2,721
Ending balance of the subsidy cost allowance                 $      180,622     $      468      $    181,090




Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991 Direct Loans)
as of September 30, 2000:

                                                                 Direct Loan         MSED              Total
Beginning balance of the subsidy cost allowance             $        135,826    $      376      $    136,202
Adjustments:
                 Loan modifications                                   34,819              -           34,819
                 Subsidy allowance amortization                       (7,978)          (30)           (8,008)
                 Other                                                  (196)             -             (196)
Ending balance of the subsidy cost allowance                 $       162,471    $       346     $    162,817
AUDITED                                                                                        APPENDIX V
                                                                                                Page 40 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) – Continued

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method) as of
September 30, 2001:



  Loan Guarantee     Defaulted Guaranteed       Interest        Allowance For         Defaulted Guaranteed
     Programs       Loan Receivable, Gross     Receivable        Loan Losses          Loan Receivable, Net

UE                                 $425,258          $47,587             $275,336                        $197,509
       Total                       $425,258          $47,587             $275,336                        $197,509




Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method) as of
September 30, 2000:


                     Defaulted Guaranteed
  Loan Guarantee      Loan Receivable,         Interest         Allowance For         Defaulted Guaranteed
     Programs                Gross            Receivable         Loan Losses          Loan Receivable, Net

UE                                $447,497           $45,670             $219,344                        $273,823
       Total                      $447,497           $45,670             $219,344                        $273,823




Defaulted Guaranteed Loans from Post-1991 Guarantees:

The Urban and Environment Credit Program experienced $2.9 million in defaults on payments that were
due in FY 2001 on post-1991 guaranteed loans. The same program experienced $1.5 million in defaults in
FY 2000.
AUDITED                                                                                           APPENDIX V
                                                                                                   Page 41 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) – Continued

Guaranteed Loans Outstanding:

                                        2001                                            2000
                                                   Amount of                                       Amount of
                       Outstanding Principal,      Outstanding        Outstanding Principal,       Outstanding
                        Guaranteed Loans,           Principal          Guaranteed Loans,            Principal
   Loan Programs            Face Value             Guaranteed              Face Value              Guaranteed

UE                                $2,160,006           $2,160,006                 $2,250,363           $2,250,363
MSED                                 118,650               59,325                     27,691               15,075
Israel                             9,226,200            9,226,200                  9,226,200            9,226,200
DCA                                  135,750               63,025                          -                    -
         Total                   $11,640,606          $11,508,556                $11,504,254          $11,491,638


Loan Guarantees Outstanding are not presented on the face of the financial statement but instead are used to
calculate the liability for loan guarantees presented on the next page.



New Guaranteed Loans Disbursed (FY 2001):

                                                   Amount of
                     Outstanding Principal,        Outstanding
                      Guaranteed Loans,             Principal
  Loan Programs           Face Value               Guaranteed

DCA                                 $23,156                 $11,578
         Total                      $23,156                 $11,578


New Guaranteed Loans Disbursed (FY 2000):


                                                   Amount of
                     Outstanding Principal,        Outstanding
                      Guaranteed Loans,             Principal
  Loan Programs           Face Value               Guaranteed

UE                                   20,000                  20,000
MSED                                    692                     346
         Total                       20,692                  20,346
AUDITED                                                                                           APPENDIX V
                                                                                                   Page 42 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) – Continued


Liability for Loan Guarantees (Estimated Future Default Claims pre-1992) as of September 30, 2001:



                   Liability for Losses on Liabilities for Loan
                    Pre 1992 Guarantees, Guarantees for Post-1991
                   Estimate Future Default     Guarantees         Total Liabilities For Loan
  Loan Programs            Claims             Present Value              Guarantees

UE                               $465,765                    $74,944                    $540,709
MSED                                    -                        289                         289
Israel                                  -                    626,050                     626,050
DCA                                     -                        187                         187
         Total                   $465,765                   $701,470                  $1,167,235




Liability for Loan Guarantees (Estimated Future Default Claims pre-1992) as of September 30, 2000:

                   Liability for Losses on   Liabilities for Loan
                    Pre 1992 Guarantees,     Guarantees for Post-
                   Estimate Future Default    1991 Guarantees        Total Liabilities For Loan
  Loan Programs            Claims               Present Value               Guarantees

UE                               $441,469                  $65,507                    $506,976
MSED                                    -                    2,633                       2,633
Israel                                  -                  586,629                     586,629
DCA                                     -                      103                         103
         Total                   $441,469                 $654,872                  $1,096,341
AUDITED                                                                        APPENDIX V
                                                                                Page 43 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) – Continued


Subsidy Expense for Loan Guarantees by Program and Component


Subsidy Expense for New Loan Guarantees for the year ending
September 30, 2001:


  Loan Guarantee                            Fees and
     Programs            Defaults       Other Collections     Total

DCA                            $1,021                $(321)            $700
       Total                   $1,021                $(321)            $700




Subsidy Expense for New Loan Guarantees for the year ending
September 30, 2000:


  Loan Guarantee                            Fees and
     Programs            Defaults       Other Collections     Total

UE                             $4,452              $(1,108)           $3,344
MSED                              160                  (53)              107
       Total                   $4,612              $(1,161)           $3,451
AUDITED                                                                          APPENDIX V
                                                                                  Page 44 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) – Continued


Modifications and Reestimates for the year ending
September 30, 2001:

  Loan Guarantee     Interest Rate          Technical          Total
     Programs         Reestimates           Reestimates      Reestimates

UE                           $612                   $3,538           $4,150
MSED                         1,470                   (963)              507
       Total                $2,082                  $2,575           $4,657


Modifications and Reestimates for the year ending
September 30, 2000:

  Loan Guarantee     Interest Rate          Technical          Total
     Programs         Reestimates           Reestimates      Reestimates

UE                        $(2,384)                 $10,933           $8,549
MSED                            13                     969              982
       Total              $(2,371)                 $11,902           $9,531




Total Loan Guarantee Subsidy Expense:

   Loan Guarantee
      Programs                       2001                         2000

DCA                                             $700                      -
UE                                              4,150                11,893
MSED                                              507                 1,089
        Total                                  $5,357               $12,982


Subsidy Rates for Loan Guarantees by Program and Component
Budget Subsidy Rates for Loan Guarantees for the Current Year’s Cohorts:

  Loan Guarantee                              Fees and Other
     Programs           Defaults (%)          Collections (%)      Total (%)
DCA                               4.53%                 (1.94)%          2.59%
       Total                      4.53%                 (1.94)%          2.59%
AUDITED                                                                                           APPENDIX V
                                                                                                   Page 45 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) – Continued

Schedule for Reconciling Loan Guarantee Liability Balances (Post-1991 Direct Loans)
as of September 30, 2001:

                                                 DCA     MSED         UE    Israel              Ukraine         Total
Beginning balance of loan guarantee liability $    103 $ 2,633 $ 65,507 $ 586,628 $              32,104     $ 686,975
Add: subsidy expense for guaranteed loans
 disbursed during the reporting years by component:
                Other subsidy costs                 700        -        -        -                     -          700
Adjustments:
                Fees received                       159      201    2,499        -                    -          2,859
                Claim payments to lenders              -       -  (2,934)        -                    -        (2,934)
                Interest accumulation on the          -       19    4,919  39,421                 2,189        46,548
                liability balance
                Other                                  - (2,038)    9,262        -                    -         7,224
Ending balance of the loan guarantee liability      962      815   79,253 626,049                34,293       741,372
before reestimates
Add or subtract subsidy reestimates by
component:
                Interest rate reestimate               -   1,690 (15,484)        -               (8,936)      (22,730)
                Technical/default reestimate     (750)   (2,216)   11,176        -              (25,357)      (17,147)
                Total of the above reestimate    (750)     (526)  (4,308)        -              (34,293)      (39,877)
                components
Ending balance of loan guarantee liability     $   212 $ 289 $ 74,945 $ 626,049 $                      - $    701,495


Schedule for Reconciling Loan Guarantee Liability Balances (Post-1991 Direct Loans)
as of September 30, 2000:

                                                     DCA MSED               UE      Israel Ukraine             Total
Beginning balance of loan guarantee liability    $     - $ 1,935 $       68,108 $ 549,689 $ 30,054 $         649,786
Adjustments:
                Fees received                         103        74        2,646          -           -         2,823
                Claim payments to lenders                -     (85)      (2,380)          -           -       (2,465)
                Interest accumulation on the            -         -            -     36,939       2,050       38,989
                liability balance
                Other                                   -     (273)       9,773           -           -        9,500
Ending balance of the loan guarantee liability        103     1,651      78,147     586,628      32,104      698,633
before reestimates
                Interest rate reestimate                 -      13       (2,384)          -           -       (2,371)
                Technical/default reestimate             -     969      (10,256)          -           -       (9,287)
                Total of the above reestimate            -     982      (12,640)          -           -      (11,658)
                components
Ending balance of loan guarantee liability       $    103 $   2,633 $    65,507 $   586,628 $    32,104 $    686,975
AUDITED                                                                         APPENDIX V
                                                                                 Page 46 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) – Continued

Administrative Expenses:
         Loan Programs            2001               2000

 DCA                          $          3,083   $              -
 UE                                        548              5,112
 MSED                                      714                452
           Total              $          4,345   $          5,564




Other Information

1. Allowance for Loss for Liquidating account (pre-Credit Reform Act) receivables have
   been calculated in accordance with OMB guidance using a present value method
   which assigns risk ratings to receivables based upon the country of debtor. Fourteen
   countries are in violation of Section 620q of the Foreign Assistance Act (FAA),
   owing a total of $88,805,465.95 that is more tha n six months delinquent. Twelve
   countries are in violation of the Brooke-Alexander Amendment to the Foreign
   Operations Export Financing and Related Programs Appropriations Act, owing a total
   of $499,222,177.48 that is more than one year delinquent. Outstanding direct loans
   receivable for countries in violation of section 620q totaled $78,268,292.72.
   Outstanding direct loans receivable for countries in violation of the Brooke
   Amendment totaled $459,117,530.56.


2. The MSED Liquidating Account general ledger has a loan receivable balance of $1.9
   million. The Riggs Bank/Metavante loan servicing system shows loans receivable in
   the amount of $1.1 million. The difference is due to the inclusion of two additional
   loans in the USAID general ledger totaling $792,174.39. These loans are being
   carried at 100% bad debt allowance.


3. The Ukraine program guarantees have expired. No defaults were experienced.
   Closeout is expected to take place in FY 2002.
AUDITED                                                                           APPENDIX V
                                                                                   Page 47 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 7. OPERATING MATERIALS AND SUPPLIES (In Thousands)

Operating Supplies and Materials as of September 30, 2001 and 2000 are as follows:

                                                               2001      2000
 Items Held for Use

        Office Supplies                                       $7,225   $6,728

Items Held in Reserve for Future Use

        Disaster assistance materials and supplies             7,478     5,912
        Birth control supplies                                11,396     8,482

Total                                                        $26,099   $21,122

Operating Materials and Supplies are valued at historical cost and considered not held for
sale.
AUDITED                                                                                   APPENDIX V
                                                                                           Page 48 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In
Thousands)

The components of PP&E at September 30, 2001 were:
                                                                        Accumulated        Net Book
                                    Useful Life       Cost               Depreciation        Value
Classes of Fixed Assets
  Equipment                            3 to 5 years          $37,390          $(25,912)         $11,478
  Buildings, Improvements,               20 years             37,060           (15,887)          21,173
    & Renovations
  Land and Land Rights                     N/A                  4,056                 -           4,056
  Assets Under Capital Lease                                    3,399             (424)           2,975
  Construction in Progress                 N/A                      -                 -               -
  Internal Use Software                                         6,323             (632)           5,691

                    Total                                    $88,228          $(42,855)         $45,373

The components of PP&E at September 30, 2000 were:
                                                                        Accumulated        Net Book
                                      Useful Life        Cost            Depreciation        Value
Classes of Fixed Assets

    Equipment                          3 to 5 years          $35,718          $(27,397)          $8,321
    Buildings, Improvements,             20 years             34,651           (12,840)          21,811
     & Renovations
    Land and Land Rights                   N/A                  3,434                 -           3,434
    Assets Under Capital Lease                                  2,424             (460)           1,964
    Construction in Progress               N/A                    439                 -             439

                 Total                                       $76,666          $(40,697)         $35,969

USAID PP&E includes assets located in Washington, D.C. offices and overseas field
missions.
• For FY 2001, USAID capitalization criteria for assets was $25,000. Assets meeting
   this criteria are depreciated using the half- year straight line depreciation method.

•   Equipment consists primarily of electric generators, ADP hardware, vehicles and
    copiers located at the overseas field missions.

•   Structures and Facilities include USAID owned office buildings and residences at
    foreign missions, including the land on which these structures reside. These
    structures are used and maintained by the field missions. USAID does not separately
    report the cost of the building and the land on which the building resides.
AUDITED                                                                       APPENDIX V
                                                                               Page 49 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In
Thousands) - Continued
• Land consists of property owned by USAID in foreign countries. Usually the land is
   purchased with the intention of constructing an office building at the site.
AUDITED                                                                             APPENDIX V
                                                                                     Page 50 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands)

Leases as of September 30, 2001 and 2000 consisted of the following:

Entity as Lessee:
Capital Leases:                                           2001      2000
       Summary of Assets Under Capital Lease:
            Buildings                                  $3,399              $2,424
            Accumulated Depreciation                      424                 460

     Future Payments Due:

          Fiscal Year                           Future Costs     Future Costs
              2001                                        N/A               $117
              2002                                       $194                 116
              2003                                         192                116
              2004                                         190                116
              2005                                         190                116
              2006                                         176               N/A
          After 5 Years                                  2,033             1,383
          Lease Liabilities
          Covered by Budgetary Resources               $2,975              $1,964

Operating Leases:                                  2001             2000

     Future Payments Due:

          Fiscal Year                           Future Costs     Future Costs
              2001                                       N/A             $59,333
              2002                                    $70,090             60,954
              2003                                     65,182             58,422
              2004                                     62,977             56,696
              2005                                     58,538             53,839
              2006                                     57,006                N/A
          After 5 Years                               184,754            218,867
          Total Future Lease Payments                $498,547           $508,111



Of the $498 million in future lease payments, $329 million is attributable to the Ronald
Reagan Building in Washington D.C., USAID’s headquarters. The remaining $169
million relates to other USAID Washington activity and mission related operating leases.
AUDITED                                                                            APPENDIX V
                                                                                    Page 51 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 10. ACCOUNTS PAYABLE (In Thousands)

The Accounts Payable covered by budgetary resources as of September 30, 2001 and
2000 consisted of the following:

                                                      2001           2000
Intragovernmental

       Accounts Payable                                 $35,496        $86,047
       Disbursements in Transit                               -              -
Total Intragovernmental                                 $35,496        $86,047


      Accounts Payable                                $1,160,263    $1,285,063
      Disbursements in Transit                                11         2,089

Total Accounts Payable                                $1,195,770    $1,373,199

Intragovernmental Accounts Payable are those payable to other federal agencies and
consist mainly of unliquidated obligation balances related to interagency agreements
between USAID and other federal agencies.

All other Accounts Payable represent liabilities to other non- federal entities.
AUDITED                                                                               APPENDIX V
                                                                                       Page 52 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 11. DEBT (In Thousands)

USAID Intragovernmental debt as of September 30, 2001 and 2000 consisted of the
following borrowings from Treasury for post-1991 loan programs, which is classified as
other debt:

                             2000                         2000                       2001
                            Beginning         Net         Ending         Net         Ending
                             Balance       Borrowing      Balance     Borrowing      Balance
Urban & Environmental            $48,000      $(48,000)          $-             $-           $-
Direct Loan                      148,234       (33,462)     114,772       (51,957)       62,815
MSED                               1,713              -       1,713              -        1,713
        Total Debt             $197,947       $(81,462)    $116,485      $(51,957)      $64,528

Pursuant to the Credit Reform Act of 1990, agencies with credit programs have
permanent indefinite authority to borrow funds from the Treasury. These funds are used
to disburse new direct loans to the public and, in certain situations, to cover credit reform
program costs. Liquidating (pre-1992) accounts have permanent indefinite borrowing
authority to be used to cover program costs when they exceed account resources. UE
Program debt includes amounts borrowed before the effective date of the Credit Reform
Act of 1990.

The above disclosed debt is principal payable to Treasury, which represents financing
account borrowings from the Treasury under the Credit Reform Act. In addition, there is
net liquidating account equity in the amount of $5.3 billion, which under the Credit
Reform Act is required to be recorded as Due to Treasury. Both of these accounts are
used exclusively for credit reform activity. All debt shown is intragovernmental debt.
AUDITED                                                                               APPENDIX V
                                                                                       Page 53 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 12. OTHER LIABILITIES (In Thousands)

As of September 30, 2001 and 2000 Other Liabilities consisted of the following:

Intragovernmental                           2001        2000

      OPAC Suspense                         $(35,876)       $(461)
      Deposit and Clearing Accounts             3,578        (774)
      Unfunded FECA Liability                   7,416        7,445
      Other                                    55,754       99,302
Total Intragovernmental                       $30,872     $105,512

     Accrued Funded Payroll/Benefits         $11,746       $10,881
     Deferred Credit                           1,793         2,380
     Liability for Deposit Funds and           (100)         3,051
     Suspense Accounts – Non-Entity
     Foreign Currency Trust Fund             213,116       153,119
     Trust Fund Balances                      14,388        14,235
     Unfunded Leave                           25,490        25,826
     Other                                         4             7

Total Other Liabilities                     $297,309      $315,011


All liabilities are current. Intragovernmental Liabilities represent amounts due to other
federal agencies. All remaining Other Liabilities are liabilities to non- federal entities.
AUDITED                                                                        APPENDIX V
                                                                                Page 54 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 13. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY
(In Thousands)


Accrued unfunded benefits for annual leave and separation pay as of September 30, 2001
and 2000 are:

                                                       2001     2000
Liabilities Not Covered by Budgetary Resources



             Accrued Annual Leave                      $25,485 $25,587
             FSN Separation Pay Liability                    5     239
Total Accrued Unfunded Annual Leave
and Separation Pay                                     $25,490 $25,826
AUDITED                                                                           APPENDIX V
                                                                                   Page 55 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 14. ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS
(In Thousands)

The provision for workers’ compensation benefits payable, as of September 30, 2001 and
2000 are as follows:

                                                                2001                2000
Liabilities Not Covered by Budgetary Resources



              Accrued Unfunded Workers'                         $7,416             $7,445
                 Compensation
              Future Workers' Compensation                      30,905             29,819
                 Benefits

Total Accrued Unfunded Workers
Compensation Benefits                                          $38,321             $37,264

The Federal Employees Compensation Act (FECA) program is administered by the U.S.
Department of Labor (DOL) and provides income and medical cost protection to covered
Federal civilian employees who have been injured on the job or have incurred a work-
related occupational disease. Compensation is given to beneficiaries of employees whose
death is attributable to a job-related injury or occupational disease. DOL initially pays
valid FECA claims for all Federal government agencies and seeks reimbursement two
fiscal years later from the Federal agencies employing the claimants.

USAID’s total FECA liability is $38.3 million as of September 30, 2001 and comprises
of unpaid FECA billings for $7.4 million and estimated future FECA costs of $30.9
million.

For FY 2000, USAID’s total FECA liability was $37.2 million and comprised of unpaid
FECA billings for $7.4 million and estimated future FECA costs of $29.8 million.

Estimated future FECA costs are determined by the Department of Labor. This liability
is determined using a paid losses extrapolation method calculated over a 37 year period.
This method utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments related to that period. These annual bene fit
payments have been discounted to present value. The interest rate assumptions used for
discounting were 5.50% in year 1 and year 2, 5.55% in year 3, and 5.60% in year 4 and
thereafter.

The increase of $1.1 million for Future Workers’ Compensation Benefits is shown as a
financing source yet to be provided on the Statement of Financing.
AUDITED                                                                          APPENDIX V
                                                                                  Page 56 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 15. COMMITMENTS AND CONTINGENCIES

USAID is involved in certain claims, suits, and complaints that have been filed or are
pending. These matters are in the ordinary course of the Agency’s operations and are not
expected to have a material adverse effect on the Agency’s financial operations.

USAID is involved in a group of cases before the US Court of Federal Claims which
disputes appropriate indirect cost rates to be charged where contract rates do not match
Negotiated Indirect Cost Rate Agreement (NICRA) rates. It is reasonably possible that
USAID might lose this case. Any adverse judgment would likely be paid out of the
Department of Justice’s Judgment Fund, but then be reimbursed by the Agency. In this
case the amounts claimed are $2.2 million, exclusive of Equal Access to Justice Fees. To
date, discovery has officially concluded on one of the cases in this group. Agreement
was not reached during settlement discussions, and this case awaits reassignment to
another judge for further proceedings.

The building in which USAID operates is leased by the General Services Administration
(GSA). USAID is charged rent intended to approximate commercial rental rates. Lease
payments for FY 2001 and 2000 amounted to $32.8 million and $28.8 million
respectively. An approximate increase of 2.2% will take effect in FY 2002.
AUDITED                                                                              APPENDIX V
                                                                                      Page 57 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 16. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES (In
Thousands)

Liabilities not covered by budgetary resources as of September 30, 2001 and 2000 are as
follows:

                                                                      2001          2000

             Contingent Liabilities for Loan Guarantees                $465,765      $441,469
             Accrued unfunded annual leave and separation pay             25,490        25,826
             Accrued unfunded Workers Compensation Benefits               38,321        37,265
Total Liabilities not covered by Budgetary Resources                   $529,576      $504,560
Total Liabilities covered by Budgetary Resources                       7,504,634     8,800,831
Total Liabilities                                                    $8,034,210    $9,305,391


All liabilities not covered by Budgetary Resources are non- federal liabilities.
UNAUDITED                                                                                  APPENDIX V
                                                                                            Page 58 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 17. TOTAL COST AND EARNED REVENUE BY BUDGET
FUNCTIONAL CLASSIFICATION (In Thousands)

Total Cost and Earned Revenue by Budget Functional Classification, as of September 30,
2001 are as follows:

                 Function Classification                     Gross Cost      Earned Revenue       Net Cost

International Development and Humanitarian Assistance- 151      $4,722,391            $(81,653)     $4,640,738
International Security Assistance- 152                           2,302,752                (350)      2,302,402
Conduct of Foreign Affairs- 153                                     44,489                    -         44,489
Federal Employee Retirement and Disability- 602                      1,906                    -          1,906

Total                                                           $7,071,538           $(82,003)      $6,989,535



Total Cost and Earned Revenue by Budget Functional Classification, as of September 30,
2000 are as follows:


                 Function Classification                     Gross Cost      Earned Re venue      Net Cost

International Development and Humanitarian Assistance- 151    $4,360,617              $(72,208)     $4,288,409
International Security Assistance- 152                         2,396,420                      -      2,396,420
Conduct of Foreign Affairs- 153                                   43,837                      -         43,837
Federal Employee Retirement and Disability- 602                    1,802                      -          1,802

Total                                                         $6,802,676             $(72,208)      $6,730,468
AUDITED                                                                         APPENDIX V
                                                                                 Page 59 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 18. PRIOR PERIOD ADJUSTMENTS

Three prior period adjustments were made in FY 2001 involving credit program funds.

Reversals of accrued year-end FY 2000 re-estimated subsidy liabilities in the Micro and
Small Enterprise Development program fund for $1,143,000 and also in the Urban and
Environmental program fund for $9,897,000 were made. These amounts had already been
closed to cumulative results of operations as part of the FY 2000 year-end closing
process. Current year (FY 2001) adjustments for upward re-estimates of subsidy liability
are reflected in year-end account balances for future funded expenses. Future funded
expenses are closed to cumulative results of operations at year-end.

An adjustment for $242,211 was made to establish unfunded annual leave in the
Development Credit Authority (DCA) program fund. In previous years, unfunded annual
leave was recorded in the Urban and Environmental (UE) program fund.

There were no prior period adjustments in FY 2000.
AUDITED                                                                               APPENDIX V
                                                                                       Page 60 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 19. STATEMENT OF BUDGETARY RESOURCES (In Thousands)

A. Net amount of bud getary resources obligated for undelivered orders at the end of the
   period:


                                                         2001             2000
          Undelivered Orders – Unpaid                    $8,099,866      $7,926,726
          Undelivered Orders – Paid                         352,964         794,808
          Total Obligations for Undelivered Orders       $8,452,830      $8,721,534



B. Information regarding borrowing authority at the end of period and the terms of
   borrowing authority used:

    No borrowing authority was utilized in FY 2001 or FY2000.

C. Information about legal arrangements affecting the use of unobligated balances of
   budget authority:

   Pursuant to Section 511 of PL 105-118 funds shall remain available until expended if
   such funds are initially obligated before the expiration of their periods of availability.
   Any subsequent recoveries (deobligations) of these funds become unobligated
   balances that are available for reprogramming by USAID (subject to OMB approval
   through the apportionment process).

D. Adjustments to Total Budgetary Resources are comprised of downward obligation
  adjustments to match unpaid unexpended obligations, cancelled authority, and budget
  resources rescinded by enacted legislation.

E. The Consolidated Statement of Budgetary Resources for FY 2000 was restated to
   correct an error in presentation for undelivered orders, as reported on line 14, Total
   Obligated Balance, Net – End of Period. This restatement was made in accordance
   with SFFAS 21, Reporting Corrections of Errors and Changes in Accounting. The
   net change in the restated amount was $68.5 million. The restated amount for FY
   2000 on line 14 of the Statement of Budgetary Resources is also presented on Line
   12, Total Obligated Balance, Net – Beginning of Period for FY 2001.

F. USAID has identified $187 million cumulative remaining balance of undelivered
   orders (unliquidated obligations) for Washington managed funds that may be in
   excess of amounts required under these obligations. These amounts will need to be
   reviewed for possible deobligation in FY 2002.
AUDITED                                                                                                     APPENDIX V
                                                                                                             Page 61 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 20. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
(In Thousands)

Differences exist between the information presented on the Statement of Budgetary
Resources and the amounts described as “actual” in the Budget of the U.S. Government.
These differences occur because funds are appropriated to USAID and then allocated out
to other agencies. In those cases, the related funds are not included in the Agency’s
Statement of Budgetary Resources but are included in its part of the U.S. Budget. But
sometimes funds that are appropriated to other agencies are then allocated to USAID. In
those cases, related funds are included in the Age ncy’s Statement of Budgetary
Resources but are not included in its portion of the Budget.

The amounts related to other agency activity as of September 30, 2001 were as follows:
                                                                          Allocated to             Allocated From
                                                                         Other Agencies            Other Agencies
Budgetary Resources
Budget Authority                                                                   $236,484                 $501,287
Unobligated Balance                                                                  13,515                    4,813
Spending Authority from Offsetting Collections                                        (170)                        -
Adjustments                                                                           5,843                    4,122
Total Budgetary Resources                                                          $255,672                 $510,222

Status of Budgetary Resources
Obligations Incurred                                                               $147,724                 $459,527
Unobligated Balances Available                                                        5,538                        -
Unobligated Balances Not Available                                                  102,410                   50,695
Total Status of Budgetary Resources                                                $255,672                 $510,222

Obligations Incurred, net of adjustments                                           $141,916                $455,404
Obligated Balance, Net – Beginning of Period *                                        43,365                 509,765
Obligated Balance, Net – End of Period                                              (90,921)               (491,396)
Outlays                                                                              $94,360               $473,773



* The difference between the “Allocated to Other Agencies” Obligated Balance – End of Period, FY00, and Obligated
Balance – Beginning of Period, FY01, is due to the total transfer of appropriations 1005 and 1032 to the Department of
State. These appropriations were no longer maintained by USAID as of the 2001 fiscal year.
AUDITED                                                                         APPENDIX V
                                                                                 Page 62 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 20. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
(In Thousands) – CONTINUED

The amounts related to other agency activity as of September 30, 2000 were as follows:

                                                       Allocated to      Allocated From
                                                      Other Agencies     Other Agencies
Budgetary Resources
Budget Authority                                             $353,159           $480,782
Unobligated Balance                                            22,396             10,793
Spending Authority from Offsetting Collections                      -                  -
Adjustments                                                         -             46,164
Total Budgetary Resources                                    $375,555           $537,739

Status of Budgetary Resources
Obligations Incurred                                         $356,729           $533,926
Unobligated Balances Available                                  1,063              3,813
Unobligated Balances Not Available                             17,763                  -
Total Status of Budgetary Resources                          $375,555           $537,739

Obligations Incurred, net of adjustments                     $356,729           $487,762
Obligated Balance, Net – Beginning of Period                    78,848            421,423
Obligated Balance, Net – End of Period                        (84,327)          (509,765)
Outlays                                                      $351,250           $399,420
UNAUDITED                                                                        APPENDIX V
                                                                                  Page 63 of 66
USAID FY 2001 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. STATEMENT OF FINANCING - OTHER

The $1,314 million shown as “Other” under Resources that Do Not Fund Net Cost of
Operations consists of $1,347 million in Actual Collections and Other Payables to
Treasury, and ($33) million in adjustments for FY 2001. For FY 2000, these amounts
were $1,518 million and $99 million respectively. These items are attributed to Credit
Program activity.
AUDITED                                         APPENDIX V
                                                 Page 64 of 66




          This page left intentionally blank.
           AUDITED                                                                                                                                                                          APPENDIX V
                                                                                                                                                                                             Page 65 of 66
                                    U.S. Agency for International Development
                REQUIRED SUPPLEMENTARY INFORMATION: SCHEDULE OF BUDGETARY RESOURCES BY
                                           MAJOR APPROPRIATION
                                     For the year ended September 30, 2001
                                                  (in thousands)

                                                                                                   Program Fund                                                        Operating Fund              Other          Consolidated Total
                                                         1010           1021          1035              1037            1093          1095          1096             1000          4336
Budgetary Resources: (Notes 19 and 20)


Budget Authority                                          480,230        1,270,403     300,000           2,289,377       447,156        853,242            -          535,400           501,287        180,167            6,857,262
Unobligated Balances - Beginning of Period                198,213          129,494      33,824             514,835       272,958         19,799                9       58,216           (49,102)     1,050,313            2,228,559
Spending Authority from Offsetting Collections                    43        3,818           -                     350        -            5,958            -             6,133              -        1,046,992            1,063,294
Adjustments                                                     (165)      26,500         6,139                24,535     11,279         (1,554)            53           9,259            4,036       (960,569)            (880,487)

Total Budgetary Resources                                 678,321        1,430,215     339,963           2,829,097       731,393        877,445            62         609,008           456,221      1,316,903            9,268,628


Status of Budgetary Resources:

Obligations Incurred                                     (535,589)      (1,287,485)    (325,940)         (1,976,972)     (524,159)     (827,062)               (5)    (576,739)     (456,221)        (293,866)            (6,804,038)
Unobligated Balances - Available                         (140,538)       (137,712)      (14,023)          (849,061)      (206,250)      (50,383)           (57)        (30,976)             -       (1,021,907)           (2,450,907)
Unobligated Balances - Not Available                       (2,194)         (5,018)           -              (3,064)          (984)           -              (0)         (1,293)             -           (1,130)              (13,683)


Total, Status of Budgetary Resources                     (678,321)      (1,430,215)    (339,963)         (2,829,097)     (731,393)     (877,445)           (62)       (609,008)     (456,221)       (1,316,903)           (9,268,628)


Outlays:

Obligations Incurred                                      535,589        1,287,485     325,940           1,976,972       524,159        827,062                5      576,739           456,221       293,866             6,804,038


Less: Spending Authority from Offsetting Collections
and Adjustments                                            (1,365)         (33,386)     (6,799)             (30,132)     (13,060)        (6,522)         (53)         (16,828)           (4,036)    (1,057,137)           (1,169,318)
Obligated Balance, Net - Beginning of Period              452,680        2,288,877     235,840           3,319,968       544,487      1,154,232      408,185          170,996           505,212        245,837             9,326,314
Less: Obligated Balance, Net - End of Period             (604,238)      (2,362,958)    (353,914)         (2,936,133)     (596,160)    (1,288,368)    (188,333)        (188,552)     (488,542)        (216,232)            (9,223,430)

Total Outlays                                             382,666        1,180,018     201,067           2,330,675       459,426        686,404      219,804          542,355           468,855      (733,666)            5,737,604




    MAJOR FUNDS                                                                                                                OTHER FUNDS (con't)
    Program Fund                                                                                                                Operating Funds
           1010         Special Assistance Initiatives
                                                                                                                                     0113           Salaries & Expenses - Diplomatic Security
           1021         Development Assistance
                                                                                                                                     0535           Acquisition & Maintenance Of Building Abroad
           1035         International Disaster Assistance
                                                                                                                                     1007           Operating Expenses of USAID Inspector General
           1037         Economic Support Fund
                                                                                                                                     1036           Foreign Service Retirement and Disability Fund
           1093         Assistance for the N.I.S. Of The Former Soviet Union
           1095         Child Survival and Disease Programs Funds                                                              Program Funds
    Operating Fund                                                                                                                   1005           International Organizations and Programs
                                                                                                                                     1012           Sahel Development Program
           1000         Operating Expenses of USAID
                                                                                                                                     1013           American Schools and Hospitals Abroad
           4336         Commodity Credit Corporation (from U.S. Dept. of Agriculture)                                                1014           Africa Development Assistance
    OTHER FUNDS                                                                                                                      1023           Food and Nutrition Development Assistance
                                                                                                                                     1024           Population and Planning & Health Dev. Asst.
       Credit Program Funds
                                                                                                                                     1025           Education and Human Resources, Dev. Asst.
           0400         MSED Program Fund                                                                                            1038           Central American Reconciliation Assistance
           0401         UE Program Fund                                                                                              1040           Sub-Saharan Africa Disaster Assistance
           0402         Ukraine Program Fund                                                                                         1075           Anti-Terrorism Demining
           1264         DCA Program Fund                                                                                             1500           Demobilization and Transition Fund
           1403         Direct Loan Liquidating Fund
                                                                                                                               Trust Funds
           4119         Israel Guarantee Financing Fund
           4137         Direct Loan Financing Fund                                                                                   8342           Foreign Natl. Employees Separation Liability Fund
           4266         DCA Financing Fund                                                                                           8502           Tech. Assist. - U.S. Dollars Advance from Foreign
           4340         UE Guarantee Liquidating Fund                                                                                8824           Gifts and Donations
           4341         MSED Direct Loan Liquidating Fund                                                                      Revolving Funds
           4342         MSED Direct Loan Financing Fund
           4343         MSED Guarantee Financing Fund                                                                                4175           Property Management Fund
           4345         Ukraine Financing Fund                                                                                       4590           Acquisition of Property, Revolving Fund
           5318         Israel Admin Expense Fund




                                                       The accompanying footnotes are an integral part of these financial statements.
 AUDITED                                                                                              APPENDIX V
                                                                                                       Page 66 of 66

                         U.S. Agency for International Development
        REQUIRED SUPPLEMENTARY INFORMATION: INTRAGOVERNMENTAL AMOUNTS
                                 As of September 30, 2001
                                       (in thousands)




Intragovernmental assets:

                            Fund Balance            Accounts            Advances and
           Agency           with Treasury         Receivable, Net       Prepayments              Totals
    Treasury                    11,214,407                    -                9,063             11,223,470
    Dept of Agriculture                -                 415,779                  -                 415,779
    Dept of Commerce                   -                      -               23,326                 23,326
    Dept of State                      -                      -               17,439                 17,439
    Other                              -                   7,798              27,010                 34,808
            Total               11,214,407               423,577              76,838             11,714,822




Intragovernmental liabilities:

                                 Due to            Accounts
          Agency                Treasury           Payable              Debt             Other          Totals
   Treasury                      5,278,463                924             64,528             -          5,343,915
   GSA                                 -               13,776               -                -             13,776
   Dept of Commerce                    -                2,705               -                -              2,705
   Dept of Agriculture                 -                5,729               -                -              5,729
   Other                               -               12,362               -             30,872           43,234
           Total                 5,278,463             35,496             64,528          30,872        5,409,359




                     The accompanying footnotes are an integral part of these financial statements.
